No. 20IN THE

Supreme Court of the United States
AMERICAN AXLE & MANUFACTURING, INC.,
Petitioner,
v.
NEAPCO HOLDINGS LLC AND
NEAPCO DRIVELINES LLC.,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT
PETITION FOR WRIT OF CERTIORARI
JAMES R. NUTTALL
Counsel of Record
John L. Abramic
Katherine H. Johnson
Robert F. Kappers
Christopher A. Suarez
STEPTOE & JOHNSON LLP
STEPTOE & JOHNSON LLP
227 W. Monroe, Suite 4700
1330 Connecticut Ave., NW Chicago, Illinois 60606
Washington, DC 20036
312.577.1300
202.429.3000
jnuttall@steptoe.com
Counsel for Petitioner,
American Axle & Manufacturing, Inc.
DECEMBER 28, 2020

i
QUESTIONS PRESENTED
American Axle invented a new process for making
a new, useful, and tangible thing – a quieter
automobile driveshaft. It is the type of invention that
has long been eligible for patenting. A split Federal
Circuit panel found that the invention was not eligible
for patenting under 35 U.S.C. § 101 because it was
allegedly directed to a natural law. The Federal
Circuit was “bitterly divided” (6-6 split) on whether to
rehear this case en banc. To the six active judges that
voted to rehear this case, the panel’s decision
represents a dangerous expansion of Section 101
jurisprudence that, despite this Court’s admonitions,
has “swallowed all of patent law.” Alice Corp. Pty. v.
CLS Bank Int’l, 573 U.S. 208, 217 (2014). There is no
end in sight for the division at the Federal Circuit.
Our nation’s lone patent court is “at a loss as to how
to uniformly apply § 101.”
The questions presented are:
1. What is the appropriate standard for
determining whether a patent claim is “directed to” a
patent-ineligible concept under step 1 of the Court’s
two-step framework for determining whether an
invention is eligible for patenting under 35 U.S.C.
§ 101?
2. Is patent eligibility (at each step of the Court’s
two-step framework) a question of law for the court
based on the scope of the claims or a question of fact
for the jury based on the state of art at the time of the
patent?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner American Axle & Manufacturing, Inc. is
a wholly owned subsidiary of American Axle &
Manufacturing Holdings, Inc. No other publicly held
corporation owns 10% or more of the stock of
American Axle & Manufacturing, Inc.

iii
RELATED PROCEEDINGS
The following proceedings are directly related to
this case within the mearing of Rule 14.1(b)(iii):
•

American Axle & Manufacturing, Inc. v.
Neapco Holdings LLC et. al., Case No.
1:15-cv-01168-LPS (D. Del.), judgment entered
on February 27, 2018; and

•

American Axle & Manufacturing, Inc. v.
Neapco Holdings LLC et. al., Case No.
18-1763 (Fed. Cir.), judgment entered on
October 3, 2019, and modified judgment
entered on July 31, 2020.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
CORPORATE DISCLOSURE STATEMENT ............ii
RELATED PROCEEDINGS ..................................... iii
TABLE OF CONTENTS ............................................ iv
TABLE OF APPENDICES ....................................... vii
TABLE OF AUTHORITIES....................................... ix
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 1
STATUTORY PROVISION ......................................... 2
INTRODUCTION ........................................................ 2
STATEMENT OF THE CASE .................................... 4
A.

The Plain Text of Section 101 and
Three Judicially-Created Exceptions ......... 4

B.

American Axle’s now-copied methods
for manufacturing driveshafts for
automobiles.................................................. 6

C.

Proceedings below ..................................... 10
1. The Federal Circuit’s initial
panel decision ....................................... 11
2. The Federal Circuit’s modified
panel decision ....................................... 13
3. The Federal Circuit’s evenly-divided
(6-6 split) decision denying rehearing
en banc.................................................. 15

v
REASONS FOR GRANTING THE PETITION ....... 17
The Federal Circuit has pushed Section 101
well beyond its gatekeeping function to
invalidate industrial manufacturing processes
historically eligible for patent protection. ........ 17
The Federal Circuit’s improper expansion of
the non-textual exceptions to Section 101 is
in conflict with this Court’s precedent and
the patent statutes. ........................................... 21
The entire patent system is calling for
guidance from the Court. .................................. 27
A.

The Federal Circuit is “bitterly divided”
on Section 101, but unanimous in its
cries for help. ............................................. 27

B.

Current and former directors of the USPTO
agree that Section 101 is a problem that
“must be addressed now.” ......................... 30

C.

Industry leaders, practitioners, and
scholars all agree that the Court’s
guidance is needed. ................................... 30

D.

The Solicitor General of the United
States agrees that “[t]he confusion
created by this Court’s recent Section
101 precedent warrants review in an
appropriate case.” ...................................... 32

The Court (not Congress) can and should
resolve the confusion and uncertainty
surrounding the Court’s judicially-created
exceptions. ......................................................... 33

vi
This case presents the ideal vehicle for the
Court to provide much-needed guidance on
Section 101......................................................... 35
CONCLUSION .......................................................... 39

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION AND DISSENT
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
DATED JULY 31, 2020 ....................................... 1a
APPENDIX B — ORDER ON MOTION OF
THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
DATED OCTOBER 23, 2020 ............................ 71a
APPENDIX C — OPINION AND DISSENT
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
DATED OCTOBER 3, 2019 .............................. 84a
APPENDIX D — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
DISTRICT OF DELAWARE, DATED
FEBRUARY 27, 2018 ...................................... 126a
APPENDIX E — ORDER ON PETITION FOR
PANEL REHEARING OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED JULY 31,
2020 ................................................................. 148a
APPENDIX F — ORDER ON PETITION FOR
REHEARING EN BANC OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT,
DATED JULY 31, 2020 .................................. 150a

viii
TABLE OF APPENDICES (CONTINUED)
APPENDIX G — RELEVANT STATUTORY
PROVISIONS ................................................... 198a
35 U.S.C. 101 .............................................. 198a
35 U.S.C. 112 .............................................. 199a
APPENDIX H — COMBINED PETITION
FOR PANEL REHEARING AND
REHEARING EN BANC OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED
NOVEMBER 18, 2019 .................................... 201a

ix
TABLE OF AUTHORITIES
CASES

PAGE(S)

Alice Corp. Pty. v. CLS Bank Int’l,

573 U.S. 208 (2014) ...................................... passim

Athena Diagnostics, Inc. v. Mayo Collaborative
Servs., LLC,
927 F.3d 1333 (Fed. Cir. 2019) ................ 18, 29, 35

Bilski v. Kappos,
561 U.S. 593 (2010) .......................................... 4, 35

Braxton v. United States,
500 U.S. 344 (1991) .............................................. 27

Cochrane v. Deener,
94 U.S. 780 (1877) .................................................. 4

Diamond v. Chakrabarty,
447 U.S. 303 (1980) ................................................ 5

Diamond v. Diehr,

450 U.S. 175 (1981) ...................................... passim

INS v. Chadha,
462 U.S. 919 (1983) .............................................. 34

Kimble v. Marvel Entm’t, LLC,
576 U.S. 446 (2015) .............................................. 34

Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66 (2012) ........................................ passim

x

O’Reilly v. Morse,
56 U.S. 62 (1853) ...................................... 16, 17, 20

Pearson v. Callahan,
555 U.S. 223 (2009) .............................................. 34

Wyeth & Cordis Corp. v. Abbott Labs.,
720 F.3d 1380 (Fed. Cir. 2013) ............................ 23
Statutes
28 U.S.C. § 1254(1) ...................................................... 1
35 U.S.C. § 101 .................................................. passim
35 U.S.C. § 112 .................................................. passim
Other Authorities
S. Ct. R. 10(c) ............................................................. 21
Davis, Courts, Can Resolve Patent Eligibility
Problems, Iancu Says, Law 360 (Apr. 11, 2019),
https://bit.ly/34o6DV2 .................................... 30, 34
Dickenson, State of Patent Eligibility, Part I,
https://bit.ly/3ar7sQC........................................... 30
Fiacco, State of Patent Eligibility, Part II,
https://bit.ly/34qWved .......................................... 31
Kappos, State of Patent Eligibility, Part I,
https://bit.ly/34rNIIS; .......................................... 30

xi
King, Patent Eligibility: Legislative Change Still
Appears Far Away, Bilski Blog (Oct. 15, 2020),
https://bit.ly/34NwXbj .......................................... 35
Lemley, State of Patent Eligibility, Part I,
https://bit.ly/3nx0b5n ........................................... 31
Mossoff, A Brief History of Software Patents (and
Why They’re Valid),
56 Ariz. L. Rev. Syllabus 65 (2014) ..................... 19
Nurton, Iancu Calls on Federal Circuit to Fix Section
101 Problem, IP Watchdog (May 2, 2019),
https://bit.ly/3anG1qX .......................................... 30
Risch, Nothing is Patentable,
67 FLORIDA L. REV. F. 45 (2015)...................... 19
Suchy, Letter Re: Request for Comments Related to

Patent Subject Matter Eligibility from Donna
Suchy, Chair, ABA Section of Intell. Prop. L. to
Michelle Lee, Director, PTO (Jan. 18, 2017),

https://bit.ly/37u9fCu ........................................... 31

1
OPINIONS BELOW
The Federal Circuit’s modified opinion (App. 1a70a) is reported at 966 F.3d 1294. The Federal
Circuit’s order granting panel rehearing (App. 148a149a) is unreported. The Federal Circuit’s order
denying rehearing en banc (App. 150a-152a) is
unreported. The Federal Circuit’s original opinion
(App. 84a-125a) is reported at 939 F.3d 1355. The
opinion of the District Court granting summary
judgment (App. 126a-147a) is reported at 309
F.Supp.3d 218. The Federal Circuit’s opinion denying
motion to stay mandate (App. 71a-76a) is reported at
977 F.3d 1379.
JURISDICTION
The Federal Circuit entered judgment on October
3, 2019, granted panel rehearing on July 31, 2020,
denied rehearing en banc on July 31, 2020, and
entered a modified judgment on July 31, 2020. App.
1a-70a. This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1).
On March 19, 2020, the Court extended the time to
file a petition for a writ of certiorari to 150 days from
the date of the lower-court judgment, order denying
discretionary review, or order denying a timely
petition for rehearing. That order extended the
deadline for filing this petition to December 28, 2020.

2
STATUTORY PROVISION
Section 101 of Title 35 of the U.S. Code provides:
“Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.”
INTRODUCTION
Judges, industry leaders, scholars, Directors of the
USPTO, and the Solicitor General of the United
States have warned for years that the recurring
confusion and uncertainty surrounding patent
eligibility under 35 U.S.C. § 101, and the steady
expansion of the three non-textual exceptions to the
statutory text (natural laws, natural phenomena, and
abstract ideas), would lead to the invalidation of
patent claims “which have historically been eligible to
receive patent-law protection.” Diamond v. Diehr, 450
U.S. 175, 184 (1981). The warnings are now a reality.
The Federal Circuit used Section 101 to invalidate
patent claims directed to a new and useful industrial
process for manufacturing an improved driveshaft for
an automobile, “the type of process which has been
eligible since the invention of the car itself.” App. 80a
(Moore, J., concurring in denial of motion to stay).
American Axle’s U.S. Patent No. 7,774,911 (“ʼ911
patent”) solved the problem of noisy driveshafts. It
did so by describing and claiming a multi-step,
industrial process. The steps include providing a
hollow driveshaft, “tuning” “liners” (low cost, hollow
tubes made of fibrous material such as cardboard),
and inserting and positioning the liners into the
hollow driveshaft to attenuate two types of driveshaft

3
vibration. C.A.J.A.35.
Thus, the ʼ911 patent describes, according to the
plain language of Section 101, “a new and useful
process.” 35 U.S.C. § 101. Performing the process
steps leads to a new, useful, and tangible thing – a
driveshaft that makes cars quieter. This is the type of
invention that has been eligible for patenting since
the dawn of patent law in the United States.
Yet, the Federal Circuit found that the claims—
which do not recite any natural law and require
several manufacturing steps beyond application of a
natural law—invoked the equation, F = kx (“Hooke’s
law”), “and nothing more.” In doing so, the Federal
Circuit expanded the reach of the three patentineligible concepts and confused Section 101 with the
enabling-disclosure requirement of Section 112.
The Federal Circuit was evenly divided (6-6 split)
on whether to rehear this case en banc. To the six
active judges that voted to rehear this case, the
Federal Circuit’s decision represents a dangerous
expansion of Section 101 jurisprudence that, despite
this Court’s admonitions, will “swallow all of patent
law.” Alice Corp. Pty. v. CLS Bank Int’l, 573 U.S. 208,
217 (2014).
There is no end in sight for the division at the
Federal Circuit. Our nation’s lone patent court is “at
a loss as to how to uniformly apply § 101,” and,
instead, is “slowly creating a panel-dependent body of
law.” App. 77a-78a (Moore, J., concurring in denial of
motion to stay). “What we have here is worse than a
circuit split—it is a court bitterly divided.” Id. at 77a.
Section 101 was already in a fragile state. The

4
Federal Circuit, though, pushed it past its breaking
point. The entire patent system is desperate for the
Court’s guidance and has cried for its help. The Court
should heed the calls for guidance.
STATEMENT OF THE CASE
A.

The Plain Text of Section 101 and
Three Judicially-Created Exceptions

Section 101 sets forth the types of inventions that
are eligible for patenting. Eligibility is a threshold
question. Bilski v. Kappos, 561 U.S. 593, 600 (2010).
Several other requirements must be satisfied before a
patent is granted—including that the claimed
invention must be described adequately to enable its
use by persons skilled in the art, 35 U.S.C. § 112.
Congress intentionally used broad language to
describe patent-eligible subject matter: “any new and
useful process, machine, manufacture, or composition
of matter, or any new and useful improvement
thereof.”
Id., § 101.
A “process”—the type of
invention claimed in the ʼ911 patent—“is a mode of
treatment to produce a given result. It is an act or a
series of acts, performed upon the subject-matter to be
transformed and reduced to a different state or thing.
If new and useful, it is just as patentable as is a piece
of machinery.” Cochrane v. Deener, 94 U.S. 780, 787
(1877). This broad language of Section 101 “fulfill[s]
the constitutional and statutory goal of promoting ‘the
Progress of Science and the useful Arts’ with all that
means for the social and economic benefits envisioned
by [Thomas] Jefferson,” the statute’s original author.
Diamond v. Chakrabarty, 447 U.S. 303, 308–309, 315

5
(1980) (quoting U.S. Const. art. I, § 8).
The plain text of Section 101 does not recite any
exceptions. The Court, though, has “long held that
[Section 101] contains an important exception: Laws
of nature, natural phenomena, and abstract ideas are
not patentable.”
Mayo Collaborative Servs. v.
Prometheus Labs., Inc., 566 U.S. 66, 70 (2012). The
premise of these non-textual exceptions is that “[s]uch
discoveries are ‘manifestations of ... nature, free to all
men and reserved exclusively to none.’” Diehr, 450
U.S. at 185 (ellipses in original).
But the exceptions cannot sweep too broadly at the
expense of the statutory text: “[A]ll inventions at some
level embody, use, reflect, rest upon, or apply laws of
nature, natural phenomena, or abstract ideas.” Mayo,
566 U.S. at 71. The Court, therefore, has repeatedly
cautioned that the exceptions must be construed
narrowly, lest they “swallow all of patent law.” Alice,
573 U.S. at 217. “Thus, an invention is not rendered
ineligible for patent simply because it involves” one of
these concepts. Alice, 573 U.S. at 217. Rather, “an
application of [one of these concepts] to a known
structure or process may well be deserving of patent
protection.” Diehr, 450 U.S. at 187 (emphasis in
original).
The Court has established a two-step framework
for determining whether a judicially-created
exception to Section 101 bars patent protection at the
threshold. At step 1, a court asks “whether the claims
at issue are directed to one of those patent-ineligible
concepts.” Alice, 573 U.S. at 217. If not, the invention
is patent eligible. At step 2, a court must “search for
an ‘inventive concept,’” one that “‘transform[s] the

6
nature of the claim’ into a patent-eligible
application”—i.e., “an element or combination of
elements that is ‘sufficient to ensure that the patent
in practice amounts to significantly more than a
patent upon the [ineligible concept] itself.’” Id. at
217–218 (alteration in original).
As this case shows, lower courts have struggled to
apply the Court’s two-step framework.
B.

American
Axle’s
now-copied
methods
for
manufacturing
driveshafts for automobiles

This case relates to manufacturing driveshafts for
automobiles.
A driveshaft (or propshaft) is a
component of an automobile that transmits rotary
power from the engine to the axles and wheels.

C.A.J.A.31, C.A.J.A.24; C.A.J.A.2021, C.A.J.A.2375;
C.A.J.A.59–60.
Driveshafts are commonly formed of relatively
thin-walled metal (e.g., aluminum) and, therefore, are
susceptible to unwanted vibration.
C.A.J.A.30.
Vibration, in turn, causes noise that is readily
detected by occupants who “increasingly expect” their

7
automobiles to be quiet, not noisy. Id.; C.A.J.A.1999.
There are several types of vibration that
driveshafts experience. C.A.J.A.26. Two are at issue
in this case: (1) “bending mode vibration,” which
causes a driveshaft to bend about its longitudinal axis,
and (2) “shell mode vibration,” which causes a
driveshaft to deflect about its cross-section.

C.A.J.A.640; C.A.J.A.26.
American Axle solved the problem of noisy
driveshafts. It discovered a new and useful process to
manufacture an improved driveshaft that vibrates
less and is not noisy. American Axle’s process
involves the positioning and insertion of “tuned liners”
into driveshafts.

C.A.J.A.26; App. 206a. Before the invention, the
industry used other, more costly techniques (e.g.,
dampers, plugs, or weights) to reduce bending mode
vibration. C.A.J.A.30; C.A.J.A.1911. Untuned liners

8
were used only in rudimentary ways and only to
reduce shell mode vibration. Liners were not suitable
or understood to reduce bending mode vibration, let
alone to reduce both bending mode and shell mode
vibration.
C.A.J.A.30; C.A.J.A.1327; C.A.J.A.23;
C.A.J.A.3286; C.A.J.A.828.
American Axle changed all of that. It was the first
to discover that liners could be “tuned” to a frequency
of driveshaft vibration by adjusting characteristics of
the liners. C.A.J.A.30; C.A.J.A.1327. It was also the
first to discover that liners (let alone tuned liners)
could be used to reduce bending mode vibration, and
that tuned liners could reduce both bending mode and
shell mode vibration when inserted and positioned
correctly within the driveshaft. Id. American Axle
described and claimed its new and useful process in
the ʼ911 patent. C.A.J.A.35. This is illustrated by
claim 22, which recites numerous process steps for
making an improved driveshaft:
22. A method for manufacturing a shaft
assembly of a driveline system, the
driveline system further including a first
driveline component and a second
driveline component, the shaft assembly
being adapted to transmit torque
between the first driveline component
and the second driveline component, the
method comprising:
providing a hollow shaft member;
tuning a mass and a stiffness of at least
one liner; and
inserting the at least one liner into the

9
shaft member;
wherein the at least one liner is a tuned
resistive absorber for attenuating shell
mode vibrations
and wherein the at least one liner is a
tuned reactive absorber for attenuating
bending mode vibrations.
C.A.J.A.35; C.A.J.A.1046-1047 (claim constructions).1
In addition, the specification describes how to
perform the process steps. For example, one can
“tun[e] a mass and a stiffness of at least one liner” by
shaping the liner “in a desired manner,” including
shaping a liner’s “fingers”; forming “void spaces” in
the liner; adjusting the liner’s wall thickness or
material; adjusting the location and manner by which
the liner is inserted into the hollow driveshaft, and
more. C.A.J.A.33–34. The claims that depend from
claim 22 track the specification and prescribe these
additional process steps. C.A.J.A.35.
These teachings fulfilled a long-felt need in the
driveshaft industry. C.A.J.A.4232; C.A.J.A.4234–
4243; C.A.J.A.3459–3462. Just ask Neapco, which
itself had an “issue” with attenuating both types of
driveshaft vibration—until, of course, it discovered
the ʼ911 patent.
On March 24, 2014, Neapco
engineers emailed among themselves:
Current focus [s]hould be understanding
AAM v. NDL. Obviously, knowingly or
unknowingly, they have solved the issue
1

Claims 22–24, 26, 27, 31, and 34–36 are at issue in this appeal.

10
with an extremely low cost solution. I
want to know the mechanics.
C.A.J.A.3513; App. 209a.
Neapco’s engineers
admitted that they had “more homework to do to
really understand how to tune a liner.” C.A.J.A.1915–
1916.
The next day, and to “catch[]-up” with
American Axle, they circulated the ʼ911 patent with
the instruction that it taught “what [Neapco was]
trying to achieve” for its driveshaft products.
C.A.J.A.828; C.A.J.A.3510; App. 209a. Soon after,
Neapco began manufacturing driveshafts using
American Axle’s patented manufacturing process.
C.A.J.A.3531; C.A.J.A.3538–3539; C.A.J.A.6013–
6018.
C.

Proceedings below

In December 2015, American Axle sued Neapco in
the U.S. District Court for the District of Delaware.
Each party moved for summary judgment under
Section 101. American Axle argued that the asserted
claims are patent eligible. Neapco argued the claims
are not because they are directed to two different
“laws of nature”—(1) F = kx (“Hooke’s law”) for the
bending mode limitations, and (2) friction damping for
the shell mode limitations.2 C.A.J.A.1248–1251;
C.A.J.A.1604–1605. The district court sided with
Neapco, but found the claims directed to something
Hooke’s law, F = kx, describes the nature of certain spring-mass
systems and may be used to calculate the frequency of periodic
oscillation of a mass on a spring. C.A.J.A.1928–1931;
C.A.J.A.1603–1605. Friction damping is damping that occurs
due to the resistive friction between two surfaces. Id.
2

11
different, “applications of Hooke’s law with the result
of friction damping.” C.A.J.A.11.
1.

The Federal Circuit’s initial
panel decision

American Axle appealed. Neapco changed course
on appeal and argued the claims were directed to an
“abstract idea” instead of two different natural laws.
App. 212a-213a; C.A.J.A.1248-1251, 1605-1605. A
divided panel of the Federal Circuit affirmed. App.
1a-70a
At step 1, the panel majority held that the claims
were directed to “Hooke’s law, and possibly other
natural laws”—without identifying the alleged other
natural laws. According to the majority, the following
just did not matter:
1. American Axle did not claim F = kx;
2. The most a driveshaft manufacturer could
determine by using F = kx is a frequency of
an oscillating mass-spring system; F = kx
informs nothing about reducing vibration or
the several, claimed process steps that
result in an improved, quieter driveshaft;
and
3. Neapco’s own testing showed that tuning a
liner—the only thing in the claims that can
possibly be said to invoke F = kx—can
actually amplify (rather than attenuate)
driveshaft vibration, which proves that the
invention (which does attenuate vibration)
involves more than simply applying F = kx.

12
C.A.J.A.34–35; C.A.J.A.5217–5218; C.A.J.A.1887–
1891;
C.A.J.A.3417;
C.A.J.A.2822–2823,
C.A.J.A.2828; C.A.J.A.1659; C.A.J.A.6223–6224;
C.A.J.A.3051,
C.A.J.A.3060,
C.A.J.A.3088,
C.A.J.A.3096. Instead, what mattered to the majority
was that the claims allegedly failed to teach how to
make and use a tuned liner, even though Section 112
already requires the specification teach how to make
and use the invention. App. 96a-105a; App. 120a125a.
The panel majority also found there was no
“inventive concept” under step 2, which renders a
claim eligible if it involves more than performance of
“well-understood,
routine,
[and]
conventional
activities previously known to the industry.” Alice,
573 U.S. at 225. It did not matter that the record
contained numerous disputed facts, including
Neapco’s admission that American Axle was the first
to use liners to reduce bending mode vibration (much
less both bending mode and shell mode vibration).
C.A.J.A.1327. Nor did it matter that Neapco needed
to copy the ʼ911 patent to make its own driveshafts
because, according to Neapco, American Axle “solved
the issue with an extremely low cost solution.”
C.A.J.A.3513.
Judge Moore dissented. App. 111a-125a. She
explained that the claims are not directed to some
natural law or other ineligible concept. App. 111a113a. She also identified the “many” “inventive
concepts,” “about which there exist at least questions
of fact which should have precluded summary
judgment.” App. 114a. (emphasis in original). Judge
Moore also criticized the majority for expanding

13
Section 101 to “subsume” Section 112: “This is now the
law of § 101. The hydra has grown another head.”
App. 125a.
2.

The Federal Circuit’s modified
panel decision

American Axle petitioned for panel rehearing and
rehearing en banc. App. 201a-222a. The Federal
Circuit granted panel rehearing, withdrew its
previous opinion, and issued a modified (though, still
divided) opinion. App. 148a-149a. The majority
affirmed as to independent claim 22 (and its
dependent claims), which remain at issue on this
appeal. App. 10a-26a.
The panel majority determined that claim 22 was
directed to a natural law, this time only F = kx
(Hooke’s law), not “possibly other natural laws” as it
asserted in the initial opinion.3 Compare App. 10a
and App. 100a. In doing so, the majority expanded
the reach of the “directed to” inquiry. App. 23a; App.
30a-31a; App. 37a-38a; App. 47a-54a.

Neapco, the district court, and the panel majority have not been
able to consistently articulate the ineligible concept to which the
claims are allegedly directed. By American Axle’s count, there
are at least five different theories: (1) two different natural laws,
F = kx and friction damping (C.A.J.A.1248–1251; C.A.J.A.1604–
1605); (2) “applications of Hooke’s law with the result of friction
damping” (Appx11); (3) an unidentified “abstract idea” (App.
212a-213a); (4) “Hooke’s law, and possibly other natural laws”
(App. 100a, App. 104a); and (5) “Hooke’s Law and nothing more”
(App. 33a). The inability of anyone to clearly articulate the
ineligible concept underscores just how malleable Section 101
has become.
3

14
Even though Section 112 already requires every
patent specification to sufficiently teach how to make
and use the claimed invention, the panel majority’s
“directed to” inquiry imbued Section 101 with those
same requirements. Under the majority’s reasoning,
patent claims (not just a patent specification) must
sufficiently teach how to make and use the claimed
invention:
[T]he claim itself … must go beyond stating a
functional result; it must identify “how” that
functional result is achieved by limiting the
claim scope to structures specified at some level
of concreteness, in the case of a product claim,
or to concrete action, in the case of a method
claim.
App. 30a-31a. Under the majority’s reasoning, a claim
is “directed to” an ineligible concept if a judge decides
that it does not meet these “how to” requirements and,
instead, “invokes a [patent-ineligible concept], and
nothing more, to achieve the claimed result.” App.
23a.
Judge Moore again “dissent[ed] from this
unprecedented expansion of § 101.”
App. 39a.
According to Judge Moore, the majority’s step 1
analysis amounted to a new test, which she called the
“Nothing More test.”4 Id. at 47a-54a. She explained
As explained below, the active judges of the Federal Circuit
cannot even agree on whether the panel majority created a “new
test,” let alone what to call that “new test.” Either the majority
created and applied “a new test (the Nothing More test),” or there
4

(Continued …)

15
how the majority imbued Section 101 with the
enabling disclosure requirement of Section 112 to
create a new defense, “Enablement on Steroids.” Id.
at 62a. This “blended 101/112 defense is confusing,
converts fact questions into legal ones and eliminates
the knowledge of a skilled artisan.” Id. at 63a.
3.

The Federal Circuit’s evenlydivided (6-6 split) decision
denying rehearing en banc

The active judges of the Federal Circuit were
evenly divided, 6-6, on whether to grant rehearing en
banc and, therefore denied American Axle’s petition.
Chief Judge Prost and Judge Hughes concurred in the
denial without opinion, and Judge Lourie dissented
without opinion. The other nine judges wrote or
joined the five opinions that accompanied the Court’s
denial, laying bare their fractured views on Section
101. App. 150a-152a.
Judges Dyk and Taranto (the cosigners of the
panel majority opinion), were joined only by Judge
is “no ‘new test.’” Compare App. 37a, App. 44a, App. 186a-187a,
App. 194a-195a and App. 160a, App. 163a-169a; see also infra
III.A. Thus, to the extent a “new test” was created, it does not
represent the beginning of a potential solution to the Federal
Circuit’s intractable inability to consistently apply this Court’s
Section 101 jurisprudence. Rather, it represents the dead end at
which the judges find themselves. App. 77a (Moore, J.,
concurring in denial of motion to stay) (“What we have here is
worse than a circuit split—it is a court bitterly divided.”). “New
test” or not, the Federal Circuit expanded the non-textual
exceptions to Section 101 in direct conflict with the precedent of
this Court. Infra I and II.

16
Wallach in Judge Dyk’s opinion concurring in the
denial. App. 153a-162a. Judge Dyk repeated his view
that claim 22 is ineligible because it “invoke[s] only a
natural law.” App. 154a.
Judge Chen, joined by Judge Wallach, concurred
in the denial. App. 163a-173a. Judge Chen disputed
that the panel majority created a new Nothing More
test, suggesting, instead, that its decision is a
“straightforward application” of the “O’Reilly test”
(named after this Court’s decision in O’Reilly v. Morse,
56 U.S. 62 (1853)) and is “consistent with longstanding precedent.” App. 163a.
Judge Newman, joined by Judges Moore, O’Malley,
Reyna, and Stoll, dissented from the denial. App.
174a-183a. Judge Newman explained how the panel
majority put a “new spin on Section 101,” one where
any claims that might “draw on scientific principles”
are “barred ‘at the threshold’ from access to
patenting.” App. 174a. She ultimately sounded the
alarm bells: “The need for judicial provision of stable
and comprehensible patent law is of increasing
urgency.” Id. at 183a; see also at id. at 174a.
Judge Stoll, joined by Judges Newman, Moore,
O’Malley, and Reyna, dissented from the denial. Id.
at 184a-192a. Judge Stoll disputed Judge Dyk’s and
Judge Chen’s contention that the panel majority’s
decision was consistent with O’Reilly. She explained
how “[i]t is difficult to square that outcome in O’Reilly
with the majority’s application of the ‘nothing more’
test here.” Id. at 185a.

17
Judge O’Malley, joined by Judges Newman, Moore,
and Stoll, dissented from the denial. Id. at 193a-197a.
Judge O’Malley echoed Judge Moore’s view that the
panel majority shirked traditional notions of
“fundamental fairness” and due process by performing
“obstacle-avoiding maneuvers [that] fly in the face of
our role as an appellate court.” Compare App. 194a,
App. 196a-197a and at App. 38a-39a, App. 67a-69a.
One particularly concerning example was the
“majority’s choice to apply its new test to this case,
again without briefing,” where “the ‘nothing more’ test
presents factual questions”: “Does the claim clearly
invoke a natural law? Which one? How do we know
there is nothing more?” App. 195a. “[T]hese are
scientific questions that must be answered by
reference to expert testimony.” Id.
REASONS FOR GRANTING THE PETITION
The Federal Circuit has pushed Section
101 well beyond its gatekeeping function
to invalidate industrial manufacturing
processes historically eligible for patent
protection.
“All inventions at some level embody, use, reflect,
rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.” Mayo, 566 U.S. at 71.
That is why Section 101 is a gatekeeper, not a
barricade. Otherwise, nothing would be patentable.
Diamond v. Diehr is instructive. The claims in
that case recited an industrial process for curing
rubber that used ln(v) = CZ + x (“Arrhenius
equation”). Diehr, 450 U.S. at 187. Despite reciting
and making direct use of the Arrhenius equation, the

18
Court concluded that the claimed rubber-curing
process passed the Section 101 threshold. Id. at 188.
The Court concluded that “[i]ndustrial processes such
as this are the types which have historically been
eligible to receive the protection of our patent laws.”
Id. at 184. Thus, under this Court’s precedent in
Diehr, an industrial process that makes use of a
natural law to produce a tangible thing is eligible for
patenting, and the inventor is entitled to a patent
provided she meets all other statutory requirements.
Id. at 188, 191.
The Court did not overrule Diehr when it later
established the two-step framework in Mayo and
Alice. Rather, the Court in Mayo and Alice applied
Section 101 as intended—as a gatekeeper to weed out
medical diagnostic and software patents that claimed
only laws of nature and abstract ideas. See, e.g.,
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 927 F.3d 1333, 1337 (Fed. Cir. 2019) (Dyk, J.,
concurring in the denial of the petition for rehearing
en banc) (“In the realm of abstract ideas, the
Mayo/Alice framework has successfully screened out
claims that few would contend should be patent
eligible, for example, those that merely apply wellknown business methods and other processes using
computers or the Internet.”); id. at 1336 (Lourie, J.,
concurring) (collecting cases on the proper application
of Mayo to medical diagnostic patents); see also App.
79a-80a (Moore, J., concurring in denial of motion to
stay); App. 188a-189a (Stoll, J., dissenting from denial
of rehearing en banc).
But scholars have warned for years that
misapplication of the Court’s two-step framework

19
might ultimately lead to the invalidation of patent
claims which have “historically been eligible.” Id. at
184. In 2014, for example, Professor Adam Mossoff
proposed—as a reductio ad absurdum—reducing an
internal combustion engine of an automobile to an
application of the laws of thermodynamics. Adam
Mossoff, A Brief History of Software Patents (and Why
They’re Valid), 56 Ariz. L. Rev. Syllabus 65, 71 (2014).
He and others warned that an overly restrictive
application of the Court’s two-step framework “would
invalidate all patents if applied equally to other
inventions.” Id.; see also Michael Risch, Nothing is
Patentable, 67 FLORIDA L. REV. F. 45, 51–52 (2015)
(casting doubt on this country’s most famous patented
inventions—including the cotton gin (U.S. Patent No.
X72), electric motor (U.S. Patent No. 132), and
Thomas Edison’s light bulb (U.S. Patent No.
223,898)).
The warnings are now a reality. The Federal
Circuit invalidated claims to manufacturing processes
for producing improved driveshafts for cars.
American Axle, like Diehr, did not “attempt to patent
a mathematical formula,” F = kx. Diehr, 450 U.S. at
192. Instead, even if American Axle’s invention
involves an application of F = kx, it still “perform[s] a
function which the patent laws were designed to
protect (e.g., transforming or reducing an article to a
different state or thing),” in this case, manufacturing
driveshafts
with
improved
performance
characteristics, such as vibrating less and being less
noisy. Id. at 192–93. Such industrial processes “have
historically been eligible to receive the protection of
our patent laws.” Id. at 184. No more. Section 101
has reached Detroit.

20
The panel majority’s reliance on O’Reilly is
woefully misplaced.
App. 45a-46a (Moore, J.,
dissenting). In that case, the boundless claim at issue
(claim 8) covered any use of electromagnetism at a
distance. O’Reilly v. Morse, 56 U.S. 62, 112 (1853).
The claim was unconstrained by the specification and
recited zero process steps. The Court correctly
concluded that “the claim [was] too broad, and not
warranted by law.” Id. at 113. American Axle’s
claims, by contrast, not only recite several specific
process steps, but are also circumscribed by the
disclosures of the specification, which evidence shows
was used by Neapco to create a competing product.
Meanwhile, Diehr is law, not nostalgia. And it has
not gone unnoticed that this case conflicts with Diehr
and dramatically expanded the non-textual
exceptions to Section 101. Judge Stoll explained how
“the result in this case suggests that this court has
strayed too far from the preemption concerns that
motivate the judicial exception to patent eligibility.”
App. 189a (citations omitted); see also App. 78a-80a
(Moore, J., concurring in denial of motion to stay).
Judge Stoll is right. Since Mayo and Alice, there
has been a steady expansion of the exceptions to
Section 101. See Am. Axle & Mfg., Inc. v. Neapco
Holdings LLC, et al., 2018-1763, Dkt. 113-1 at 2 (Fed.
Cir. Dec. 12, 2019) (Brief for 12 Law Professors as
Amicus Curiae) (“The panel majority’s decision
reflects a five-year trend of courts severely narrowing
the range of inventions and discoveries eligible for
patent protection…, contrary to historical practice
and precedent.”). The exceptions now include subject
matter that has historically been patent-eligible.

21
Lower courts have “strayed too far.” The Court should
grant review not only to resolve the palpable conflict
between this case and Diehr, but to recalibrate
Section 101 jurisprudence and ensure that the types
of inventions at the heart of our country’s patent
system for centuries remain eligible for patent
protection.
The Federal Circuit’s improper expansion
of the non-textual exceptions to Section
101 is in conflict with this Court’s
precedent and the patent statutes.
A principal purpose for which the Court uses its
certiorari jurisdiction in patent cases is to review
decisions by the Federal Circuit that conflict with
decisions of this Court. S. Ct. R. 10(c). The Court has
often warned that the non-textual exceptions to
Section 101 must be construed narrowly, lest they
“swallow all of patent law.” Alice, 573 U.S. at 217.
Yet, this case is proof that the Federal Circuit has
expanded the exceptions well beyond their alreadyswollen state.
American Axle did not patent the equation, F = kx,
or seek to preempt its use. C.A.J.A.35. No, American
Axle patented its new and useful process for
manufacturing improved driveshafts that vibrate less
and are not noisy. Supra Statement of the Case, B.
The record on summary judgment, which
contained, in Neapco’s own words, “hotly dispute[d]”
questions of fact, should have been a roadblock to
summary judgment. Am. Axle, Dkt. 36 at 57 (Fed. Cir.

22
Sept. 21, 2018); App. 215a. But the Federal Circuit
just maneuvered around it. It did so by expanding the
reach of the non-textual exceptions to Section 101, and
then wrongly faulting American Axle’s patent claims
for falling prey to its expansion. According to the
Federal Circuit, patent claims alone must sufficiently
teach how to make and use the claimed invention.
App. 30a-31a; supra Statement of the Case, C.2. If a
patent claim does not satisfy these “how to”
requirements and, instead, “invokes a [patentineligible concept], and nothing more, to achieve the
claimed result,” the claim is “directed to” a patentineligible concept. Id.; App. 21a.
The problem is that Section 112 already requires
every patent specification to sufficiently teach those
skilled in the art how to make and use the claimed
inventions:
The specification shall contain … the
manner and process of making and using
it, in such full, clear, concise, and exact
terms as to enable any person skilled in
the art to which it pertains, or with
which it is most nearly connected, to
make and use the same.
35 U.S.C. § 112(a).
This is the “enablement”
requirement of our patent laws. The basic test for
enablement is whether “one of ordinary skill in the art
could not practice [the claims’] full scope without
undue experimentation.” Wyeth & Cordis Corp. v.
Abbott Labs., 720 F.3d 1380, 1384 (Fed. Cir. 2013).
Enablement raises quintessential questions of fact for

23
juries to decide, including what experimentation is
necessary and whether it is undue?
The Federal Circuit’s decision eviscerates the
important role the patent specification plays in our
patent system. The Federal Circuit imbued Section
101 with the enablement requirement of Section 112,
and requires patent claims to sufficiently teach how
to make and use the claimed invention. And it does
so without respect for the concomitant questions of
fact that should be answered by a jury and assessed
from the perspective of one of ordinary skill. Under
the new expansion, whether a patent claim “invokes a
[patent-ineligible concept], and nothing more” is for a
district court judge to decide as a matter of law and
for the Federal Circuit to review and decide de novo.
Make no mistake—Article III judges in this case first
raised and decided sua sponte that American Axle’s
multi-step, manufacturing process claims “clearly
invoke a natural law,” that the natural law invoked is
F = kx, and that there was allegedly “nothing more.”
The panel majority wrongly assumed that F = kx (and
nothing more in the claims) is what attenuates two
types of vibration, and that the remaining process
steps played no contributing role. App.20a-22a; App.
30a-31a.

24
These are all factual questions of physics that a
jury should answer.
Jurors should weigh, for
example, conflicting testimony of the parties’ experts.
They should reference Neapco’s testing that shows
how even if an engineer could use F = kx to “tune” a
liner, doing so might amplify (not attenuate)
driveshaft vibration. Or, of course, they could read
the emails among Neapco’s engineers discussing their
need to copy the ʼ911 patent and its teachings so they
could actually learn “how to” make and use tuned
liners and attenuate two types of vibration in
Neapco’s driveshafts.
These facts should preclude
summary judgment. But no more. As Judge Moore
explained: “The majority’s new Nothing More test
leaves the science to the appellate judges to decide de
novo.” App. 47a.
This expansion of Section 101 is troubling. Judge
Moore warns how “[t]he majority’s new blended
101/112 defense”—“Enablement on Steroids”—“is
confusing, converts fact questions into legal ones and
eliminates the knowledge of a skilled artisan.” App.
62a-63a. Ultimately, it will “lead to insanity”:
The majority’s Nothing More test, like
the great American work The Raven
from which it is surely borrowing, will,
as in the poem, lead to insanity. The
majority has concluded that on appeal,
as a matter of law, we judges can decide
as a matter of physics whether claim 22’s
results—attenuating two types of
vibration—are accomplished by Hooke’s
law and nothing more. To say this feels

25
like a bit of an overreach is an
understatement.
App. 47a.
Several other judges agree. Judge Stoll (joined by
Judges Newman, Moore, O’Malley, and Reyna)
explained how the panel majority “blur[s] the line
between patent eligibility and enablement,” and even
“seems to go further, potentially incorporating a
heightened enablement requirement into § 101.” App.
187a-188a. She also found it inappropriate for the
majority to resolve patent eligibility on its own, when
“significant evidence, including expert testimony,
contradicts the notion that the two types of vibrations
identified in the claims can be reduced by Hooke’s law
and ‘nothing more.’” Id. at 189a-190a. Judge
O’Malley echoed that “the ‘nothing more’ test presents
factual questions,” and surmised “the majority was
just too deep in the § 101 hole it originally dug to give
up control” so it “took it upon itself to invalidate these
claims today.” App. 195a-196a (emphasis in original).
This expansion of Section 101 to subsume Section
112 is also fundamentally unfair to patent owners.
Section 112 law is well-developed and predictable.
Amicus
curiae
Biotechnology
Innovation
Organization (“BIO”) explained below how patent
owners rely on this predictability when “they expend
great effort during patent prosecution to meet the
rigorous written description and enablement
requirements,” and during litigation where proving
non-compliance “almost always involves intensive
fact-discovery and thorough expert testimony.” Am.

26
Axle, 2018-1763, Dkt. 115 at at 2, 7–8 (Dec. 12, 2019).
The panel majority, however, dispenses with
traditional evidentiary and procedural safeguards
afforded to patent owners under Section 112. It
“supplants this searching analysis with a Section 101
analysis that is less fact-bound, highly dependent on
a judge’s intuition,” and “is more free-flowing and less
reliable.” Id. at 8; id. at 4.
This case epitomizes the unfairness that patent
owners should now expect. Sure, some judges of the
Federal Circuit may have concerns that certain claims
of the ʼ911 patent do not satisfy Section 112, though
American Axle certainly disagrees. Neapco raised
Section 112 issues below, American Axle defended
against those challenges, and a jury should decide
their fate.
American Axle also defended itself against the
only Section 101 challenge actually raised by Neapco,
that the claims are directed to two different “laws of
nature.”
C.A.J.A.1248–1251; C.A.J.A.1604–1605.
But that did not matter. American Axle was never
afforded the opportunity to argue or present evidence
that its claims were not “directed to” (1) “applications
of Hooke’s law with the result of friction damping,” as
the district court held (C.A.J.A.11); (2) “Hooke’s law,
and possibly other natural laws,” as the panel
majority held sua sponte in its initial decision (App.
100a); or (3) “Hooke’s law and nothing more,” as the
panel majority held sua sponte in its modified
decision. Supra n.3. App. 10a, App. 32a-33a; see also
App. 38a-39a, App. 67a-69a; App. 193a-197a.

27
Process doesn’t matter anymore for Section 101
cases. Judges now have a malleable de novo tool
unencumbered by evidentiary and procedural
safeguards traditionally afforded to patent owners
under other provisions like Section 112. Judges have
free reign to use this tool, they have used it, and they
will continue to use it to deprive patent owners of their
property rights whenever they, as judges, have
qualms or personal reservations about a patent. That
should not be the law.
The Court has often corrected the Federal Circuit
when it has “defied precedent or strayed from [its]
mandate by claiming de novo dominion over factual
issues.” App. 80a-81a (Moore, J., concurring in denial
of motion to stay) (collecting cases). The Federal
Circuit “repeat[ed] this mistake again” in this case.
Id. at 81a. The Court should grant certiorari.
The entire patent system is calling for
guidance from the Court.
A.

The Federal Circuit is “bitterly
divided” on Section 101, but
unanimous in its cries for help.

The Supreme Court often grants certiorari to
resolve circuit splits that render the state of the law
inconsistent and chaotic. See, e.g., Braxton v. United
States, 500 U.S. 344, 347 (1991). An evenly-divided
Federal Circuit is as close as it comes to a “circuit
split” in patent law because the Federal Circuit is the
nation’s lone patent court. Moreover, “[w]hat we have
here is worse than a circuit split—it is a court bitterly
divided.” App. 77a (Moore, J., concurring in denial of

28
motion to stay). “If a circuit split warrants certiorari,
such an irreconcilable split in the nation’s only patent
court does likewise.” Id. at 78a.
“This case is a model of [the Federal Circuit’s]
divide” on Section 101. Id. at 78a-79a. According to
the active judges, either the majority’s decision is “in
direct conflict with our precedent and a dramatic
expansion of § 101,” or it is “consistent with precedent
and narrow in its scope.” Compare App. 42a and App.
153a. Either the majority created and applied “a new
test (the Nothing More test),” or there is “no ‘new
test.’” Compare App. 37a, App. 44a, App. 186a-187a,
App. 194a-195a and App. 160a, App. 163a-169a; supra
n.4. And either the majority created a new defense—
“Enablement on Steroids”—through a “blended
101/112 analysis” that “expands § 101” and “converts
factual issues into legal ones,” or that criticism is flat
wrong, and “rests on a failure to distinguish two
different ‘how’ requirements in patent law.” Compare
App. 37a, App. 62a-67a, App. 177a-179a, App. 187a188a and App. 30a, App. 171a-172a.
So, who is right? The answer depends on the
panel.
The Federal Circuit has “struggled to
consistently apply the judicially created exceptions to
this broad statutory grant of eligibility, slowly
creating a panel-dependent body of law.” App. 78a
(Moore, J., concurring in denial of motion to stay).
Nearly every judge agrees.
In this case, Judge Newman (joined by Judges
Moore, O’Malley, Reyna, and Stoll) observed how
“[t]he court’s rulings on patent eligibility have become
so diverse and unpredictable.” App. 174a. In opinions
accompanying the Federal Circuit’s denial of

29
rehearing en banc in Athena, Judge Hughes (joined by
Chief Judge Prost and Judge Taranto) explained that
“[t]he multiple concurring and dissenting opinions …
are illustrative of how fraught” Section 101 has
become; Judge Chen noted how the current law is
“considerably harder to apply consistently” and “more
aggressive in its reach” than earlier precedent (Diehr);
Judge O’Malley called Section 101 jurisprudence “the
most baffling concept in the whole catalogue of
judicial efforts to provide postulates for indefinitely
varying occasions”; and Judge Newman (joined by
Judge Wallach) collected an entire “outline of this
court’s inconsistent rulings.” Athena, 927 F.3d at
1337 (Hughes, J., concurring); id. at 1348 (Chen, J.,
concurring); id. at 1367–1368 (Newman, J.,
dissenting); id. at 1372 (O’Malley, J., dissenting).
Simply put, every patent case involving Section
101 is now an arbitrary, “litigation gamble.” App.
183a (Newman, J., dissenting from denial of
rehearing en banc).
This comes with terrible
consequences.
It is “destroying the ability of
American businesses to invest with predictability.”
App. 78a (Moore, J., concurring in denial of motion to
stay); see also App. 174a (Newman, J., dissenting from
denial of rehearing en banc); App. 191a (Stoll, J.,
dissenting from denial of rehearing en banc).
That is why all twelve active judges of the Federal
Circuit—though hopelessly confused and divided on
substance—unanimously agree that they need help.
App. 77a-78a (Moore, J., concurring in denial of
motion to stay). This Court should heed their
“unprecedented plea for guidance”—“the nation’s lone
patent court [is] at a loss.” Id. at 78a-79a.

30
B.

Current and former directors of the
USPTO agree that Section 101 is a
problem that “must be addressed
now.”

Current Director Andrei Iancu declared patent
eligibility as “the most important substantive patent
law issue in the United States today. And it’s not even
close.” Davis, Courts, Can Resolve Patent Eligibility
Problems, Iancu Says, Law360 (Apr. 11, 2019),
https://bit.ly/34o6DV2. The need for a fix is urgent:
Section 101 “must be addressed now.” Nurton, Iancu
Calls on Federal Circuit to Fix Section 101 Problem,
IP Watchdog (May 2, 2019), https://bit.ly/3anG1qX.
His pleas echo those of former USPTO directors.
David Kappos testified that “patent eligibility law
truly is a mess” with courts and the USPTO “spinning
their wheels on decisions that are irreconcilable,
incoherent, and against our national interest.” State
of
Patent
Eligibility,
Part
I,
at
1–2,
https://bit.ly/34rNIIS; see also id. (Former Director Q.
Todd Dickenson), https://bit.ly/3ar7sQC.
The instability of Section 101 jurisprudence has
had a real, troubling effect on the USPTO. Patent
examiners have tried, but failed, to “consistently
distinguish between patent-eligible subject matter
and subject matter falling within a judicial exception.”
2019 Revised Patent Subject Matter Eligibility
Guidance. That is because the exceptions to Section
101 are “increasingly more difficult for examiners to
apply” and examiners often “reach inconsistent
results.” Id.; App. 191a (Stoll, J., dissenting from
denial of rehearing en banc).
C.

Industry leaders, practitioners, and

31
scholars all agree that the Court’s
guidance is needed.
Several stakeholder organizations, including the
Intellectual Property Owners Association (“IPO”), the
Biotechnology Innovation Organization (“BIO”), and
the Alliance of U.S. Startups and Inventors for Jobs
(“USIJ”), served as amici curiae and filed briefs in
support of American Axle’s petition for rehearing. As
IPO explained: “In the years since the Alice/Mayo
two-step test was announced, there has been
confusion and uncertainty concerning its application.
The American Axle decision adds to this ambiguity.”
Am. Axle, 2018-1763, Dkt. 96 at 4–5 (Dec. 2, 2019).
Practitioners and scholars agree. The President of
the American Intellectual Property Law Association
(“AIPLA”) testified that Section 101 jurisprudence
“ha[s] created significant uncertainty,” which has
“reduced investment in new technologies, produced
inconsistency and uncertainty about patent rights
and their enforceability, cast a cloud over licensing
and other intellectual property transactions, and
driven industry to foreign jurisdictions.” State of
Patent Eligibility, Part II, at 2, https://bit.ly/34qWved
(testimony of Barbara Fiacco); see also Letter Re:
Request for Comments Related to Patent Subject
Matter Eligibility from Donna Suchy, Chair, ABA
Section of Intell. Prop. L. to Michelle Lee, Director,
PTO (Jan. 18, 2017), https://bit.ly/37u9fCu. Professor
Mark Lemley (Stanford) likewise observed that “[t]he
law of patentable subject matter is a mess” and only
getting “less, not more, certain over time.” State of
Patent
Eligibility,
Part
I,
at
1–2,
https://bit.ly/3nx0b5n; see also Am. Axle, 2018-1763,

32
Dkt. 113-1 at 2 (Brief for 12 Law Professors).
D. The Solicitor General of the United
States agrees that “[t]he confusion
created by this Court’s recent
Section 101 precedent warrants
review in an appropriate case.”
The recurring confusion in our patent system led
the Solicitor General to recently state, twice, that the
Court should grant review in the appropriate Section
101 case.
First, the Court invited the Solicitor General to file
a brief in Hikma Pharms. USA Inc. v. Vanda Pharms.
Inc., No. 18-817, a Section 101 case that concerned
methods of using drugs to treat medical conditions.
The Solicitor General agreed that “the Court’s recent
Section 101 decisions have fostered substantial
uncertainty,” and that “[t]he confusion created …
warrants review in an appropriate case.” Hikma,
Brief for the United States at 8 (December 6, 2019).
The Hikma case, however, involved method-ofmedical-treatment claims that, “[h]istorically, … were
well understood to be patent-eligible.” Id. The case,
therefore, was “not an appropriate vehicle for bringing
greater clarity because the court of appeals majority
arrived at the correct result” when it held the claims
were patent eligible. Id. at 8–9. The Solicitor General
concluded: “The Court should await a case in which
lower courts’ confusion about the proper application of
Section 101 and this Court’s precedents makes a
practical difference.” Id. at 9.
Second, the Court invited the Solicitor General to
file a brief in HP Inc. v. Berkheimer, No. 18-415, a case

33
that concerned only the procedural allocation of
decision-making authority under Section 101 and
presented no question about the substantive
standards for patent eligibility. Again, the Solicitor
General acknowledged the acute need for the Court’s
review of a Section 101 case. HP, Brief for the United
States at 9–10 (December 6, 2019). The HP case was
just not the appropriate case. Instead, the Solicitor
General recommended: “The Court should grant
review in an appropriate case to clarify the
substantive Section 101 standards and then address
any ancillary issues that remain.” Id. at 10.
The Court does not need to wait any longer for the
appropriate case. This case concerns industrial
manufacturing processes that, “[h]istorically, … were
well understood to be patent-eligible,” but, unlike
Hikma, the Federal Circuit did not “arrive[] at the
correct result.” Hikma, Brief for the United States at
8. And, unlike HP, this case presents both the
substantive and procedural questions plaguing the
lower courts. The Court should grant review in this
case, and provide the clarity the Solicitor General has
called for.
The Court (not Congress) can and should
resolve the confusion and uncertainty
surrounding the Court’s judiciallycreated exceptions.
There is zero confusion about the plain text of
Section 101. Only the three non-textual, judiciallycreated exceptions to the statute have precipitated
chaos and uncertainty in our patent system. It is
backwards to expect Congress to fix the problems

34
surrounding Section 101 when the statutory text is
crystal clear and never in dispute. Our problems are
judge-made. The Court should provide the fix.
The Court has previously recognized that it is the
most appropriate branch to clarify or correct such
judicially-created doctrines. See Pearson v. Callahan,
555 U.S. 223 (2009) (“[T]he Saucier rule is judge
made”—“Any change should come from this Court, not
Congress.”). And there should be no doubt that the
Court can provide the change, guidance, or clarity
that the patent system so urgently needs. Director
Iancu stated the following: “There’s absolutely no
question the courts can solve the issue if they would
like to.” Davis, Courts Can Resolve Patent Eligibility
Problems, Iancu Says, Law360 (April 11, 2019),
https://bit.ly/34o6DV2. “Let’s hash it out. It’s not
brain surgery. It’s a solvable issue.” Id.
Passing legislation, on the other hand, “is no easy
task,” even without a deadlocked Congress in the
midst of a global pandemic. Kimble v. Marvel Entm’t,
LLC, 576 U.S. 446, 471 (2015) (Alito, J., dissenting).
Legislation must withstand a “finely wrought and
exhaustively considered, procedure.” INS v. Chadha,
462 U.S. 919, 951 (1983). And even “[w]ithin that
onerous process, there are additional practical
hurdles.”
Kimble, 576 U.S. at 471 (Alito, J.,
dissenting).
There should be no expectation that Congress acts
on Section 101.
Quite the opposite, actually.
Congress will likely do nothing.
For years,
stakeholders have called on Congress to provide a
legislative fix to the non-textual exceptions. Congress
failed to act. See, e.g., King, Patent Eligibility:

35
Legislative Change Still Appears Far Away, Bilski
Blog (Oct. 15, 2020), https://bit.ly/34NwXbj (Senator
Tillis: legislation has “stalled”). The Court can act and
should act.
This case presents the ideal vehicle for the
Court to provide much-needed guidance
on Section 101.
This is not your run-of-the-mill Section 101 case.
American Axle’s claims “are not directed to a business
method, internet or financial method, the likes of
which the Court dealt with in Alice or Bilski. Nor does
this case map onto the Court’s holding in Mayo
regarding the patent eligibility of diagnostic
inventions, as did [the Federal Circuit’s] decisions in
Ariosa and Athena.”
App. 79a-80a (Moore, J.,
concurring in denial of motion to stay). This case is
different—American Axle’s claims “are directed to a
process for manufacturing car parts—the type of
process which has been eligible since the invention of
the car itself.” Id. at 80a. Mechanical and industrial
processes like American Axle’s have, until now,
“historically been eligible.” Diehr, 450 U.S. at 184.
This case, therefore, presents the Court with a unique
opportunity to clarify the law on Section 101 as to all
technologies and industries and, at the same time,
reign in the non-textual exceptions that have steadily
crept into our nation’s manufacturing sector.
American Axle also presents two important
questions that have plagued lower courts—one about
the substantive standard for Section 101, and one
about the procedural allocation of decision-making
authority. This case is an ideal vehicle for the Court

36
to address both questions. C.f. HP, Brief for the
United States at 10 (December 6, 2019) (“The Court
should grant review in an appropriate case to clarify
the substantive Section 101 standards and then
address any ancillary issues that remain.”). Several
features of this case provide the Court flexibility to
answer these important questions in the manner it
deems most appropriate and with the broadest
applicability.
First, this case provides the Court an ideal
opportunity to clarify the substantive test for step 1 of
the two-step framework: How does one determine if a
patent claim is “directed to” a patent-ineligible
natural law, natural phenomena, or abstract idea?
The widespread confusion about how to answer
this question is no more apparent than in this case.
The parties grappled with this question, and were
worlds apart in their answers.
The lower courts grappled with this question too.
The district court came up with a different answer
than the parties. It held that American Axle’s claims
were “directed to” “applications of Hooke’s law with
the result of friction damping.” C.A.J.A.11. The
divided panel of the Federal Circuit then came up
with something different. Twice. In its initial
opinion, the panel majority held that the claims were
“directed to” “Hooke’s law, and possibly other natural
laws.” App. 100a. And it changed course in its
modified opinion, holding that the claims were
“directed to” “Hooke’s law and nothing more.” App.
33a. Judge Moore, in both of her panel dissents,
shared a much different view. App. 39a; App. 112a.
And when American Axle asked the full Federal

37
Circuit to take this case en banc and resolve this
substantive question, the twelve active judges were
evenly-divided (6-6) in their vote. App. 150a-197a.
Simply put, the Court is served a jump-ball. As the
nation’s final arbiter, the Court has the opportunity to
intervene and answer this difficult question
completely and finally. In doing so, the Court can
provide the patent system the clarity and guidance it
so desperately needs.
Second, the Federal Circuit’s expansion of the nontextual exceptions to Section 101 is another feature of
this case that makes it an ideal vehicle. The Court
has often warned that the exceptions must be
construed narrowly, lest they “swallow all of patent
law.” Alice, 573 U.S. at 217. Yet, despite the Court’s
admonitions, the Federal Circuit expanded Section
101 to subsume the enabling disclosure requirement
of Section 112.
Third, this case is an ideal vehicle for the Court to
clarify procedural questions that surround Section
101: are steps 1 and 2 questions of law for the court to
decide or questions of fact for a jury to decide?
As to step 1, both American Axle and Neapco relied
on technical experts to help determine whether the
claims are “directed to” a patent-ineligible concept.
The record is rife with factual disputes, including
conflicting expert testimony and evidence that should
only be weighed by a jury and not, as here, resolved
by a judge on summary judgment.
What’s more, the Federal Circuit forged its
Nothing More test and then immediately applied it to
American Axle’s patent claims.
But as Judge

38
O’Malley explained, that test also “presents factual
questions”: “Does the claim clearly invoke a natural
law? Which one? How do we know there is nothing
more?” App. 195a. American Axle’s claims “say
nothing about any natural law.” Id. Yet, appellate
judges concluded as a matter of law that “Hooke’s law
and nothing more reduces two types of vibration in
propshafts.” App. 52a (Moore, J., dissenting). It is
now “a clear rule of law—judges, not experts, will
determine as a matter of law, when claims are
directed to a natural law and nothing more.” Id.
(emphasis in original).
Judges are generally not experts in physics and
certainly should not be resolving disputed questions
of physics as a matter of law. Not so, says the Federal
Circuit: “We are the scientific experts now.” Id. The
Court should grant review and provide the Federal
Circuit a much-needed course correction.
As to step 2, whether the claims contain an
“inventive concept,” “[t]here are many here,
articulated in the claims themselves, about which
there exist at least questions of fact that should have
precluded summary judgment.” Id. at 56a. One of the
unknown and unconventional activities claimed by
American Axle (and “[a]rgued below and throughout
the appeal,” id. at 56a) is that, before the ʼ911 patent,
liners had never been used to attenuate bending mode
vibration. Id.; C.A.J.A.30–31; C.A.J.A.1327. Neapco
admitted this. C.A.J.A.1327. It also had to copy the
ʼ911 patent to manufacture its own driveshafts
because, according to Neapco, American Axle “solved
the issue with an extremely low cost solution.”
C.A.J.A.3513.

39
This case confirms that steps 1 and 2 implicate
factual questions. Or, in Neapco’s own words, “hotly
dispute[d]” factual questions. Am. Axle, 2018-1763,
Dkt. 36 at 57; App. 215a. These factual questions
should be answered by juries, not judges as a matter
of law (on summary judgment no less).
The substantive standard for Section 101, and the
procedural allocation of decision-making authority,
are two critical issues for the patent system. This
Court should resolve the issues now, and it should
decide the issues in this case.
CONCLUSION
The Court should grant certiorari.
Respectfully submitted,
JAMES R. NUTTALL
Counsel of Record
John L. Abramic
Katherine H. Johnson
Robert F. Kappers
Christopher A. Suarez
STEPTOE & JOHNSON LLP
STEPTOE & JOHNSON LLP
227 W. Monroe, Suite 4700
1330 Connecticut Ave., NW Chicago, Illinois 60606
Washington, DC 20036
312.577.1300
202.429.3000
jnuttall@steptoe.com
Counsel for Petitioner,
American Axle & Manufacturing, Inc.
DECEMBER 28, 2020

APPENDICES

1a
Appendix
A DISSENT OF THE
Appendix A — OPINION
AND
UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED JULY 31, 2020
United States Court of Appeals
for the Federal Circuit
2018-1763
AMERICAN AXLE & MANUFACTURING, INC.,
Plaintiff-Appellant,
v.
NEAPCO HOLDINGS LLC,
NEAPCO DRIVELINES LLC,
Defendants-Appellees.
Opinion Issued: October 3, 2019
Opinion Modified: July 31, 2020*
Appeal from the United States District Court
for the District of Delaware in No. 1:15-cv-01168-LPS,
Chief Judge Leonard P. Stark.
Before Dyk, Moore, and Taranto, Circuit Judges.
Opinion for the court filed by Circuit Judge Dyk.
Dissenting opinion filed by Circuit Judge Moore.
Dyk, Circuit Judge.
* This opinion has been modified and reissued following a
petition for rehearing filed by Appellant.

2a
Appendix A
American Axle & Manufacturing, Inc. (“AAM”)
sued Neapco Holdings LLC and Neapco Drivelines LLC
(collectively, “Neapco”) alleging infringement of claims
of U.S. Patent No. 7,774,911 (“the ’911 patent”).1 The
parties filed cross-motions for summary judgment as to
the eligibility of the asserted claims of the ’911 patent
under 35 U.S.C.
§ 101. The district court granted Neapco’s motion and
held that the asserted claims are ineligible under § 101.
We affirm in part and vacate and remand in part.
Background
I
The ’911 patent generally relates to a method for
manufacturing driveline propeller shafts (“propshafts”)
with liners that are designed to “attenuat[e] . . . vibrations
transmitted through a shaft assembly.” ’911 patent, col. 1,
ll. 6-7. Propshafts are “employed [in automotive vehicles]
to transmit rotary power in a driveline.” Id. col. 1, ll.
38-39. Because these propshafts are typically made of a
“relatively thin-walled steel or aluminum tubing [they]
1. AA M’s complaint alleged infringement of two other
patents—U.S. Patent Nos. 8,176,613 (“the ’613 patent”) and 8,528,180
(“the ’180 patent”). During claim construction, the district court
held the asserted claims of the ’613 patent indefinite. Neapco Mot.
for Summ. J. 3, American Axle & Manuf., Inc. v. Neapco Hldgs.
LLC, No. 15-01168 (D. Del. Aug. 11, 2017), ECF No. 164. AAM also
withdrew the asserted claims of the ’180 patent. Id. Neither the ’613
nor the ’180 patent is at issue on appeal.

3a
Appendix A
can be receptive to various driveline excitation sources.”
Id. col. 1, ll. 40-42. These excitation sources, in turn, can
cause the propshaft to vibrate in three modes: bending
mode, torsion mode, and shell mode. Id. col. 1, ll. 42-44.
The ’911 patent describes these vibration modes as follows:
Bending mode vibration is a phenomenon
wherein energy is transmitted longitudinally
along the shaft and causes the shaft to bend at
one or more locations. Torsion mode vibration
is a phenomenon wherein energy is transmitted
tangentially through the shaft and causes
the shaft to twist. Shell mode vibration is
a phenomenon wherein a standing wave is
transmitted circumferentially about the shaft
and causes the cross-section of the shaft to
deflect or bend along one or more axes.
Id. col. 1, ll. 44-52. These vibration modes correspond
to different frequencies. Because such vibrations cause
undesirable noise, “techniques [had, prior to the ’911
patent,] been employed to attenuate vibrations in
propshafts including the use of weights and liners.” Id.
col. 1, ll. 53-54.
AAM agreed that “[t]he methods for determining
natural frequencies and damping are well known in the
art.” AAM Op. Br. 8. Some of these are described in the
specification. Those techniques include “the use of weights
and liners.” Id. col. 1, l. 54. Elaborating, the patent first
describes the use of “plugs or weights” that are inserted to
frictionally engage a propshaft to damp certain vibrations.

4a
Appendix A
Id. col. 1, l. 53-col. 2, l. 4. It then describes several prior-art
dampers and “hollow liners.” See, e.g., id. col. 2, ll. 5-37;
col. 6, ll. 49-53. The specification describes prior art hollow
liners as tubes made of a fibrous material (like cardboard)
with outer resilient members that “frictionally engage
the inner diameter of the [propshaft].” Id. col. 6, ll. 56-65.
Two types of attenuation are relevant here: resistive
attenuation and reactive attenuation. “[R]esistive
attenuation of vibration refers to a vibration attenuation
means that deforms as vibration energy is transmitted
through it . . . so that the vibration attenuation means
absorbs . . . the vibration energy.” Id. col. 1, ll. 61-65.
A liner that is properly tuned to attenuate shell mode
vibration through resistive attenuation “matches” the
shell mode vibration (i.e., a particular natural frequency)
of the propshaft such that it absorbs, through friction
damping, the shell mode vibration of the propshaft. J.A.
1933, 2000-02. “[R]eactive attenuation of vibration refers
to a mechanism that can oscillate in opposition to the
vibration energy [of the propshaft] to thereby ‘cancel out’
a portion of the vibration energy.” ’911 patent, col. 2, ll. 1518. Thus, to design a liner to perform reactive attenuation
of a bending mode vibration “the liner frequency must
match the propshaft frequency and involve translation of
the liner to effectively couple with the propshaft bending
mode.” AAM Op. Br. 6 (citing J.A. 2076-77, 4036-37, 5218).
According to the ’911 patent’s specification, prior art
weights, dampers, and hollow liners that were designed
to individually attenuate each of the three propshaft
vibration modes—bending, shell, and torsion—already

5a
Appendix A
existed. ’911 patent, col. 1, l. 53-col. 2, l. 38. But these
prior art damping methods were assertedly not suitable
for attenuating two vibration modes simultaneously. See
id. Thus, the patent identified “a need in the art for an
improved method for damping various types of vibrations
in a hollow shaft” that “facilitates the damping of shell
mode vibration as well as the damping of bending mode
vibration” simultaneously. Id. col. 2, ll. 39-43. AAM
argues that the invention is the tuning of a liner in order
to produce frequencies that dampen both the shell mode
and bending mode vibrations simultaneously. It argues as
well on appeal that the use of liners to dampen bending
mode vibration is itself inventive.
The district court treated independent claims 1 and
22 of the ’911 patent as representative of the asserted
claims (claims 1-6, 12, 13, 19-24, 26, 27, 31, 34-36). Those
two claims recite methods of manufacturing:
1. A method for manufacturing a shaft assembly
of a driveline system, the driveline system
further including a first driveline component
and a second driveline component, the shaft
assembly being adapted to transmit torque
between the first driveline component and
the second driveline component, the method
comprising:
providing a hollow shaft member;
tuning at least one liner to attenuate at least
two types of vibration transmitted through the
shaft member; and

6a
Appendix A
positioning the at least one liner within the
shaft member such that the at least one liner
is configured to damp shell mode vibrations in
the shaft member by an amount that is greater
than or equal to about 2%, and the at least one
liner is also configured to damp bending mode
vibrations in the shaft member, the at least
one liner being tuned to within about ±20% of
a bending mode natural frequency of the shaft
assembly as installed in the driveline system.
***
22. A method for manufacturing a shaft
assembly of a driveline system, the driveline
system further including a first driveline
component and a second driveline component,
the shaft assembly being adapted to transmit
torque between the first driveline component
and the second driveline component, the method
comprising:
providing a hollow shaft member;
tuning a mass and a stiffness of at least one
liner, and
inserting the at least one liner into the shaft
member;
wherein the at least one liner is a tuned resistive
absorber for attenuating shell mode vibrations

7a
Appendix A
and wherein the at least one liner is a tuned
reactive absorber for attenuating bending mode
vibrations.
’911 patent, col. 10, ll. 10-27; id. col. 11, ll. 24-36.
II
AAM sued Neapco on December 18, 2015, alleging
infringement of the ’911 patent. The parties filed crossmotions for summary judgment as to patent eligibility
under § 101. On February 27, 2018, the district court
granted Neapco’s motion for summary judgment, and
denied AAM’s cross-motion. Applying the two-step
analysis of Mayo Col-laborative Services v. Prometheus
Laboratories, Inc., 566 U.S. 66, 132 S. Ct. 1289, 182 L.
Ed. 2d 321 (2012), and Alice Corp. Pty. Ltd. v. CLS Bank
International, 573 U.S. 208, 134 S. Ct. 2347, 189 L. Ed.
2d 296 (2014), the court held that the asserted claims of
the ’911 patent are invalid because they claim ineligible
subject matter under § 101.
The district court construed the claim 1 limitation
“tuning at least one liner to attenuate at least two types
of vibration transmitted through the shaft member” to
mean “controlling characteristics of at least one liner
to configure the liner to match a relevant frequency or
frequencies to reduce at least two types of vibration
transmitted through the shaft member.” J.A. 1046. The
district court construed the claim 22 limitation “tuning
a mass and a stiffness of at least one liner” to mean
“controlling the mass and stiffness of at least one liner

8a
Appendix A
to configure the liner to match the relevant frequency or
frequencies.” J.A. 15, 1047. No party contests the district
court’s construction on appeal.
At step 1 of the Mayo/Alice analysis, the district court
concluded that the Asserted Claims, “considered as a
whole,” are “directed to the mere application of Hooke’s
law,” treating claims 1 and 22 as representative. J.A. 4-5,
11. The district court held that the claims’ direction to tune
a liner to attenuate different vibration modes amounted to
merely “instruct[ing] one to apply Hooke’s law to achieve
the desired result of attenuating certain vibration modes
and frequencies” without “provid[ing] [a] particular means
of how to craft the liner and propshaft in order to do so.”
J.A. 17. The district court made no distinction between
claims 1 and 22 in its analysis. See J.A. 15 n.3.
Hooke’s law is an equation that describes the
relationship between an object’s mass, its stiffness, and the
frequency at which the object vibrates. Friction damping
is a natural phenomenon whereby damping “occur[s] due to
the resistive friction and interaction of two surfaces that
press against each other as a source of energy dissipation.”
J.A. 1604.
At step 2 of the Mayo/Alice analysis, the district court
determined that the claimed “additional steps consist of
well-understood, routine, conventional activity already
engaged in by the scientific community . . . and those steps,
when viewed as a whole, add nothing significant beyond
the sum of their parts taken separately.” J.A. 16 (quoting
Mayo, 566 U.S. at 79-80). The district court concluded
that the claims were not patent eligible. Id.

9a
Appendix A
AAM appeals. We have jurisdiction under 28 U.S.C.
§ 1295(a)(1). We review a district court’s grant of summary
judgment de novo, applying the same test on review that the
district court applied. Summary judgment is appropriate
where “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). The issue of patent eligibility under
§ 101 is a question of law, reviewed de novo. In re BRCA1–
and BRCA2– Based Hereditary Cancer Test Patent Litig.,
774 F.3d 755, 759 (Fed. Cir. 2014). “While patent eligibility
is ultimately a question of law,” the underlying issue of
“[w]hether something is well-understood, routine, and
conventional to a skilled artisan at the time of the patent is
a factual determination.” Berkheimer v. HP Inc., 881 F.3d
1360, 1369 (Fed. Cir. 2018), cert. denied, 140 S.Ct. 911, 205
L. Ed. 2d 454, 2020 WL 129532 (Jan. 13, 2020).
Discussion
Section 101 provides that “any new and useful process,
machine, manufacture, or composition of matter, or any
new and useful improvement thereof” may be eligible to
obtain a patent. 35 U.S.C. § 101. But the Supreme Court
has long recognized that § 101 “contains an important
implicit exception: Laws of nature, natural phenomena,
and abstract ideas are not patentable.” Ass’n for Molecular
Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 589, 133
S. Ct. 2107, 186 L. Ed. 2d 124 (2013) (brackets omitted)
(quoting Mayo, 566 U.S. at 70). The Supreme Court
has stated that “without this exception, there would be
considerable danger that the grant of patents would ‘tie up’
the use of such tools and thereby ‘inhibit future innovation
premised upon them.’” Id. (quoting Mayo, 566 U.S. at 73).

10a
Appendix A
Our analysis of § 101 follows the Supreme Court’s twostep test established in Mayo and Alice. At step one of the
Mayo/Alice test, we ask whether the claims are directed
to a law of nature, natural phenomenon, or abstract idea.
Alice, 573 U.S. at 217 (citing Mayo, 566 U.S. at 77). If the
claims are so directed, we then ask whether the claims
embody some “inventive concept”—i.e., whether the claims
contain “an element or combination of elements that is
‘sufficient to ensure that the patent in practice amounts
to significantly more than a patent upon the ineligible
concept itself.’” Id. at 217-18 (brackets omitted) (quoting
Mayo, 566 U.S. at 72-73).
We conclude that independent claim 22 of the ’911 patent
is patent ineligible under section 101 because it simply
requires the application of Hooke’s law to tune a propshaft
liner to dampen certain vibrations. Independent claim 36 and
asserted claims that depend from claim 22 are also ineligible.
Because claim 1 also requires “positioning” in addition to
tuning and may reflect a broader definition of tuning, we
remand to the district court to address the eligibility of claim
1 and its dependent claims in the first instance.
I. Claim 22
We first address claim 22.
A
To determine what a claim is “directed to” at step one,
we look to the “focus of the claimed advance.” See, e.g.,
Trading Techs Int’l, Inc. v. IBG LLC, 921 F.3d 1378, 1384

11a
Appendix A
(Fed. Cir. 2019). 2 A claim to a method of manufacturing
can be directed to a natural law. 3 The ’911 patent claims a
method of manufacturing a driveline propshaft containing
a liner designed such that its frequencies attenuate two
modes of vibration simultaneously and (according to the
patentee on appeal) a manufacturing method to tuning
liners to attenuate bending mode vibration. At step 1, the
question is whether the claimed methods are directed to
laws of nature.
The Supreme Court’s cases focus on the claims, not
the specification, to determine section 101 eligibility. As
2. Accord Intellectual Ventures I LLC v. Capital One Fin.
Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017); Intellectual Ventures
I LLC v. Erie Indemnity Co., 850 F.3d 1315, 1325 (Fed. Cir. 2017);
Affinity Labs of Tex., LLC v. DIRECTV, LLC, 838 F.3d 1253, 125758 (Fed. Cir. 2016); Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335 (Fed. Cir. 2016); Genetic Techs. Ltd. v. Merial LLC, 818 F.3d
1369, 1375-76 (Fed. Cir. 2016).
3. See Alice Corp. v. CLS Bank Int’l, 573 U.S. 208, 224, 134
S. Ct. 2347, 189 L. Ed. 2d 296 (2014) (“The fact that a computer
‘necessarily exist[s] in the physical, rather than purely conceptual,
realm,’ is beside the point. There is no dispute that a computer is
a tangible system (in § 101 terms, a ‘machine’) . . . .”); O’Reilly v.
Morse, 56 U.S. (15 How.) 62, 113, 14 L. Ed. 601 (1853) (“Neither
could the man who first discovered that steam might, by a proper
arrangement of machinery, be used as a motive power to grind corn
or spin cotton, claim the right to the exclusive use of steam as a motive
power for the purpose of producing such effects.”); ChargePoint,
Inc. v. SemaConnect, Inc., 920 F.3d 759, 770 (Fed. Cir. 2019), cert.
denied, 140 S. Ct. 983, 206 L. Ed. 2d 135 (2020) (“[A]s the Supreme
Court indicated in Alice, whether a device is ‘a tangible system (in
§ 101 terms, a “machine”)’ is not dispositive.” (quoting Alice, 573
U.S. at 224)).

12a
Appendix A
the Supreme Court said in Mayo: “We must determine
whether the claimed processes have transformed these
unpatentable natural laws into patent-eligible applications
of those laws.” Mayo, 566 U.S. at 72 (emphasis added);
see also Alice, 573 U.S. at 221 (“[W]e must examine the
elements of the claim to determine whether it contains an
‘inventive concept.’” (emphasis added) (internal quotation
marks omitted)).
Similarly, we have repeatedly held that features that
are not claimed are irrelevant as to step 1 or step 2 of
the Mayo/Alice analysis. See, e.g., ChargePoint, 920 F.3d
at 769 (“[A]ny reliance on the specification in the § 101
analysis must always yield to the claim language. . . .
[T]he specification cannot be used to import details from the
specification if those details are not claimed.”); Synopsys,
Inc. v. Mentor Graphics Corp., 839 F.3d 1138, 1149 (Fed.
Cir. 2016) (“The § 101 inquiry must focus on the language
of the Asserted Claims themselves.”); Ariosa Diagnostics,
Inc. v. Sequenom, Inc., 788 F.3d 1371, 1379 (Fed. Cir. 2015)
(rejecting an alleged inventive concept because it was “not
the invention claimed by the . . . patent” (emphasis added));
Accenture Glob. Servs., GmbH v. Guidewire Software,
Inc., 728 F.3d 1336, 1345 (Fed. Cir. 2013) (“[Where t]he
limitations of the . . . claims . . . do not provide sufficient
additional features or limit the abstract concept in a
meaningful way[,] . . . the level of detail in the specification
does not transform a claim reciting only an abstract concept
into a patent-eligible system or method.”); see also Ariosa
Diagnostics, Inc. v. Sequenom, Inc., 809 F.3d 1282, 1286
(Fed. Cir. 2015) (Lourie, J., concurring) (noting that the
appropriate focus is “on the claims we have rather than
those we might have had” (emphasis added)).

13a
Appendix A
In contrast to a number of other natural law cases,
the patentee here does not even claim to have discovered
a previously unknown natural law. Instead, it defines a
goal (“tuning a liner” to achieve certain types of vibration
attenuation). Claim 22 explicitly provides for “tuning a
mass and a stiffness of at least one liner.” ’911 patent, col.
11, l. 31. Under the district court’s construction, “tuning
a mass and a stiffness of at least one liner” in claim 22
means “controlling the mass and stiffness of at least
one liner to configure the liner to match the relevant
frequency or frequencies.” J.A. 15, 1047. Thus, claim 22
requires use of a natural law of relating frequency to
mass and stiffness—i.e., Hooke’s law. Claim 22 confers
patent coverage if the attenuation goal is achieved by one
skilled in the art using any method, including any method
implemented by computer modeling and trial and error.
That claim 22 here merely describes a desired result is
evident from the face of the claim. The claim on its face
does not identify the “particular [tuned] liners” or the
“improved method” of tuning the liners to achieve the
claimed result. AAM Op. Br. 27; ’911 patent, col. 2, ll. 3943. No factual finding was or is required.
In arguing that patent claim 22 does not merely
claim a result and so is not directed to whatever natural
laws make the result possible, AAM does not dispute
that Hooke’s law mathematically relates the mass and/
or stiffness of an object to the frequency with which that
object oscillates (vibrates). In fact, both parties’ witnesses
agree that Hooke’s law undergirds the design of a liner
so that it exhibits a desired damping frequency pursuant
to the claimed invention. For example, Neapco’s expert,

14a
Appendix A
Dr. Becker, stated that “the phrase ‘tuning a mass and
a stiffness of at least one liner’ claims Hooke’s law.” J.A.
1604. Dr. Sun, one of the named inventors of the ’911
patent, stated in his deposition:
Q. But to change the frequency of any damper,
it comes down to basic physics, doesn’t it;
changing the mass or the stiffness of that
damper that will adjust the frequency?
A. You change a tuned liner, yeah, by adjusting
the controlling variables and to get to the
tuning that is needed.
Q. And one of those variables is stiffness,
correct?
A. Correct.
Q. And one of them is the mass, correct?
A. Yes.
J.A. 1757 (92:15-25). AAM’s engineering manager likewise
admitted that “if [one] do[es] something to control the
stiffness [or mass]” of a liner—the variables directly
implicated by Hooke’s law—that person is “directly
controlling tuning.” J.A. 2547 (20:23-21:1).
Rather, AAM asserts that tuning a liner such that
it attenuates two different vibration modes (or just
dampens bending mode vibrations) is complicated in

15a
Appendix A
practice, involving more than simple application of Hooke’s
law. AAM Op. Br. 19 (“Complicated objects—such as
propshaft liners—cannot be simplified to a single degreeof-freedom mass-spring damper such that their behavior
is governed simply by Hooke’s law.”); see also id. at 3941, 43. AAM insists that the process of tuning a liner
according to natural laws may involve extensive computer
modelling, including finite element analysis (“FEA”), and
experimental modal analysis (that is, trial and error).4 And
while recognizing that “methods for determining natural
frequencies and damping are well known in the art,”
including use of “FEA models” and “testing for natural
frequencies and damping of propshafts by performing
experimental modal analysis,” AAM Op. Br. 8-11, 20-21,
AAM contends that it invented an improved method of
tuning. 5
But neither established processes nor “improved”
processes for implementing the underlying natural laws
4. “Experimental modal analysis involves [physically] exciting
the propshaft and/or liner using an actuator, measuring the response
using a sensor, and calculating the natural frequencies and damping
ratios using a computer algorithm.” J.A. 5207.
5. While the patent makes no references to computer modeling
and trial and error, AAM pointed to computer modeling in its briefing
in the district court, see note 4, supra, and it has done the same in
its briefs in this court. See, e.g., AAM Op. Br. 20 (“American Axle
uses ‘very sophisticated FEA models.’” (quoting Dr. Sun, one of the
named inventors of the ’911 patent)) id. at 45 (“American Axle . . .
uses sophisticated FEA models during its design process . . . .”);
Reply Br. 12 (“Dr. Sun’s cited testimony . . . concerned the use of
FEA analysis . . . to simplify otherwise complex liners to model and
predict their performance.”).

16a
Appendix A
are claimed. While AAM may have discovered patentable
refinements of the prior art process, such as particular
uses of “sophisticated FEA [finite element analysis] models
during its design process,” id. at 45, neither the specifics
of any novel computer modelling, nor the specifics of any
experimental modal analysis are included as limitations
in claim 22.6 These unclaimed features cannot function
to remove claim 22 from the realm of ineligible subject
matter. See ChargePoint, 920 F.3d at 766.
To be clear, we do not suggest that such specific novel
computer or experimental processes could not be claimed.
This case would be significantly different, if, for example,
specific FEA models were included in claim 22. But they
are not. What is missing is any physical structure or steps
for achieving the claimed result. The focus of the claimed
advance here is simply the concept of achieving that result,
by whatever structures or steps happen to work.
The breadth of claim 22 is illustrated by the testimony
of AAM’s expert “that tuning involves controlling the
characteristics (e.g., mass and stiffness) of the liner
6. The specification describes tuning in terms of the result
achieved, rather than the particular process by which the result
is accomplished. For instance, the specification states that “a liner
204 will be considered to be tuned to a relevant frequency if it is
effective in attenuating vibration at the relevant frequency.” ’911
patent, col. 8, ll. 28-31. Later in the same column, the patent gives
an example of a “liner [that is] considered to be tuned to a relevant
shell mode frequency if it damps shell mode vibrations by an amount
that is greater than or equal to about 2%.” Id. at col. 8, ll. 44-47. The
specification’s concept of tuning is merely results-based.

17a
Appendix A
through, for example, its design, manufacturing, and
installation to reduce vibration at a relevant frequency,”
J.A. 169, and by AAM’s admission during the claim
construction hearing, where AAM argued one could
infringe claim 22 of the ’911 patent by whatever means
will achieve the result “[e]ven if you didn’t try to [tune]
and didn’t know you did it.” J.A. 699. Thus, the problem
is that claim 22’s instruction to tune a liner essentially
amounts to simply claiming a result.
B
Claiming a result that involves application of a natural
law without limiting the claim to particular methods of
achieving the result runs headlong into the very problem
repeatedly identified by the Supreme Court in its cases
shaping eligibility analysis. See Mayo, 566 U.S. at 71-73;
Parker v. Flook, 437 U.S. 584, 590-95, 98 S. Ct. 2522, 57 L.
Ed. 2d 451 (1978); Mackay Radio & Telegraph Co. v. Radio
Corp. of Am., 306 U.S. 86, 94-101, 59 S. Ct. 427, 83 L. Ed.
506, 1939 Dec. Comm’r Pat. 857 (1939); O’Reilly v. Morse,
56 U.S. (15 How.) 62, 112-17, 14 L. Ed. 601 (1853). The
Supreme Court has long held that claims that state a goal
without a solution are patent ineligible. As early as Le Roy
v. Tatham, 55 U.S. (14 How.) 156, 14 L. Ed. 367 (1852), the
Court held that claiming a concept without the particular
steps of carrying it out “would prohibit all other persons
from making the same thing by any means whatsoever,”
and that such claims are ineligible for patentability. Id.
at 174-75; Corning v. Burden, 56 U.S. 252, 268, 14 L. Ed.
683 (1853) (“It is for the discovery or invention of some
practicable method or means of producing a beneficial

18a
Appendix A
result or effect, that a patent is granted, and not for the
result or effect itself.”), quoted by Diamond v. Diehr, 450
U.S. 175, 182 n.7, 101 S. Ct. 1048, 67 L. Ed. 2d 155 (1981).
Our cases as well have consistently rejected such
claims as unpatentable. As “reflected repeatedly in our
cases,” to avoid ineligibility, a claim must “ha[ve] the
specificity required to transform [the] claim from one
claiming only a result to one claiming a way of achieving
it.” SAP Am., Inc. v. InvestPic, LLC, 898 F.3d 1161, 1167
(Fed. Cir. 2018) (collecting cases).7 Similarly, in Interval
7. Affinity Labs of Texas, LLC v. DIRECTV, LLC, 838 F.3d
1253, 1258 (Fed. Cir. 2016) (claim is an ineligible abstract idea
because “[t]here is nothing in the claim that is directed to how to
implement out-of-region broadcasting on a cellular telephone”);
Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229, 1241 (Fed. Cir. 2016)
(claims found ineligible and “directed to an abstract idea” because
they “d[id] not claim a particular way of programming or designing
the software to create menus . . . , but instead merely claim[ed] the
resulting systems”); Internet Patents Corp. v. Active Network, Inc.,
790 F.3d 1343, 1348 (Fed. Cir. 2015) (finding claim abstract because
it “contain[ed] no restriction on how the result is accomplished”);
Secured Mail Sols. LLC v. Universal Wilde, Inc., 873 F.3d 905, 911
(Fed. Cir. 2017) (finding claims abstract because they were “not
limited by rules or steps that establish[ed] how the focus of the
methods [wa]s achieved”); ChargePoint, 920 F.3d at 770 (finding
claims directed to abstract idea where broad claim language “would
cover any mechanism for implementing network communication on
a charging station” rather than a specific way of doing so); Interval
Licensing LLC v. AOL, Inc., 896 F.3d 1335, 1345-46 (Fed. Cir.
2018) (claims ineligible “because they consist[ed] of generic and
conventional information acquisition and organization steps that
are connected to, but do not convert, the abstract idea . . . into a
particular conception of how to carry out that concept” (emphasis
added)); Innovation Scis., LLC v. Amazon.com, Inc., 778 F. App’x

19a
Appendix A
Licensing LLC v. AOL, Inc., 896 F.3d 1335 (Fed. Cir.
2018), we reiterated the importance of this distinction in
describing prior Supreme Court cases in which inventors
“lost . . . claim[s] that encompassed all solutions for
achieving a desired result” because the “claims failed to
recite a practical way of applying an underlying idea . . .
[and] instead were drafted in such a result-oriented way
that they amounted to encompassing ‘the principle in the
abstract’ no matter how implemented.” Id. at 1343; see
also Electric Power Grp., LLC v. Alstom S.A., 830 F.3d
1350, 1355-56 (Fed. Cir. 2016) (noting that “the essentially
result-focused, functional character of claim language has
been a frequent feature of claims held ineligible under
§ 101”).
859, 863 (Fed. Cir. 2019) (finding ineligible a claim reciting coverage
“in merely functional, result-oriented terms”); Univ. of Fla. Research
Found., Inc. v. Gen. Elec. Co., 916 F.3d 1363, 1364, 1368 (Fed. Cir.
2019) (finding claims to be “directed to an abstract idea” where
“[n]either the . . . patent, nor its claims, explain[ed] how the drivers
do the conversion that [Appellant] points to.”); Two-Way Media Ltd.
v. Comcast Cable Commc’ns, LLC, 874 F.3d 1329, 1337 (Fed. Cir.
2017) (claim ineligible abstract idea where “[t]he claim require[d] the
functional results of ‘converting,’ ‘routing,’ ‘controlling,’ ‘monitoring,’
and ‘accumulating records,’ but d[id] not sufficiently describe how to
achieve these results in a non-abstract way”); see also Finjan, Inc.
v. Blue Coat Sys., Inc., 879 F.3d 1299, 1305 (Fed. Cir. 2018) (“Apple,
Affinity Labs, and other similar cases hearken back to a foundational
patent law principle: that a result, even an innovative result, is not
itself patentable.”); McRO, Inc. v. Bandai Namco Games Am. Inc.,
837 F.3d 1299, 1314 (Fed. Cir. 2016) (“[In section 101 analysis w]e . . .
look to whether the claims . . . focus on a specific means or method
that improves the relevant technology or are instead directed to
a result or effect that itself is the abstract idea and merely invoke
generic processes and machinery.”).

20a
Appendix A
While many of these cases involved the abstract
idea category, the same principle necessarily applies in
natural law cases. In Mayo, the Court concluded that “to
transform an unpatentable law of nature into a patenteligible application of such a law, one must do more than
simply state the law of nature while adding the words
‘apply it.’” 566 U.S. at 72; see also id. at 82 (“[S]imply
appending conventional steps, specified at a high level
of generality, to laws of nature, natural phenomena,
and abstract ideas cannot make those laws, phenomena,
and ideas patentable.” (emphasis added)). Similarly, in
Diamond v. Diehr, 450 U.S. 175, 101 S. Ct. 1048, 67 L. Ed.
2d 155 (1981), the Court recognized “that when a claim
recites a mathematical formula (or scientific principle
or phenomenon of nature), an inquiry must be made into
whether the claim is seeking patent protection for that
formula in the abstract.” Id. at 191 (emphasis added).
The Supreme Court’s decisions in Le Roy and O’Reilly
may be viewed as applying this principle in the natural
law context. For example, in O’Reilly v. Morse, 56 U.S.
(15 How.) 62, 14 L. Ed. 601 (1853), the Supreme Court
held claim for “use of the motive power of the electric or
galvanic current . . . for marking or printing intelligible
characters . . . at any distances” ineligible because “it
matter[ed] not by what process or machinery the result
[wa]s [to be] accomplished.” Id. at 113-20. Both claim
8 in O’Reilly and claim 22 here recite a natural law
(electromagnetism in O’Reilly and Hooke’s law here) and
a result to be achieved (printing characters at a distance
in O’Reilly and producing a liner to dampen specific
vibrations). And just as claim 8 in O’Reilly did not recite

21a
Appendix A
any engineering or techniques to achieve this result, claim
22 likewise provides no details. Thus, claim 22, like claim
8 in O’Reilly, is directed to a natural law because it clearly
invokes a natural law, and nothing more, to accomplish a
desired result.
More recently, the Supreme Court’s decision in
Parker v. Flook, 437 U.S. 584, 98 S. Ct. 2522, 57 L. Ed.
2d 451 (1978), also exemplified this principle. In Flook,
the Supreme Court considered the patent eligibility
of a method for updating alarm limits during catalytic
conversion processes. 437 U.S. at 585. The method involved
an initial step of measuring temperature, a second step of
using a formula to calculate an updated alarm-limit value,
and a final step in which the alarm limit is adjusted to
the updated value. Id.; see also id. at 596-98 (quoting and
describing claim). What was missing from the claimed
method reflected what was missing from the patent
application as a whole, which “d[id] not purport to explain
how to select . . . any of the . . . variables” involved, or
“purport to contain any disclosure relating to the chemical
process at work, the monitoring of process variables, or
the means of setting off an alarm or adjusting an alarm
system.” Id. at 586.
The Court in Flook held that the claimed method
contained no patent-eligible invention. Id. at 594. Though
the Court recognized that the use of a mathematical
formula or law of nature did not alone make a claim patent
ineligible, it explained that what was required was “an
inventive application of the principle.” Id. at 593-94. Such
an inventive application, the Court concluded, was not
present in the claimed method. Id. at 594.

22a
Appendix A
Diehr, on the other hand, involved a situation in which
a patent application claimed a new and specific process
of molding rubber products “which incorporate[d] in it
a more efficient solution of the [Arrhenius] equation” (a
natural law). 450 U.S. at 188. Though the Supreme Court
in Diehr explained that a mathematical formula itself
was not patent eligible subject matter, it concluded that
the alleged invention claimed in that case was patent
eligible. The invention involved a new rubber-curing
process with a specific and detailed series of steps (one
of which included the use of a natural law) that limited
the possibility of preempting the natural law itself. Id. at
187-88, 191-92. In Diehr, unlike this case, “[t]hese other
steps apparently added to the formula something that in
terms of patent law’s objectives had significance—they
transformed the process into an inventive application of
the formula.” Mayo, 566 U.S. at 81 (discussing Diehr, 450
U.S. at 187). Nevertheless, the Court reaffirmed Flook’s
teaching that “[a] mathematical formula does not suddenly
become patentable subject matter simply by having the
applicant acquiesce to limiting the reach of the patent for
the formula to a particular technological use” nor through
the addition of “token postsolution activity.” Diehr, 450
U.S. at 191-92 & n.14. 8
8. See also Genetic Techs. Ltd. v. Merial L.L.C., 818 F.3d 1369,
1375 (Fed. Cir. 2016) (finding claim to be directed to ineligible law of
nature because it “cover[ed] essentially all applications, via standard
experimental techniques, of the law of linkage disequilibrium
to the problem of detecting coding sequences of DNA”); Athena
Diagnostics, Inc. v. Mayo Collaborative Servs., LLC, 927 F.3d 1333,
1359 (Fed. Cir. 2019) (Moore, J., dissenting) (order denying petition
for en banc rehearing) (“[T]he Supreme Court suggests we should

23a
Appendix A
Like the claims in Flook, claim 22 of the ’911 patent
is directed to the use of a natural law: Hooke’s law. As
in Flook, where the claimed method did not specify
how variables were measured or how the alarm system
functioned, claim 22 here does not specify how target
frequencies are determined or how, using that information,
liners are tuned to attenuate two different vibration modes
simultaneously, or how such liners are tuned to dampen
bending mode vibrations. Claim 22 here simply instructs
the reader to tune the liner to achieve a claimed result,
without limitation to particular ways to do so. This holding
as to step 1 of Alice extends only where, as here, a claim
on its face clearly invokes a natural law, and nothing more,
to achieve a claimed result.
C
As to Mayo/Alice step 2, nothing in claim 22 qualifies
as an “inventive concept” to transform it into patent
eligible matter. AAM contends that claim 22 includes
numerous inventive concepts that were neither previously
known, nor conventional or routine. AAM’s arguments
in this respect essentially amount to an assertion that
prior to the ’911 patent, liners had never been tuned to
damp propshaft vibrations or, at least, had not been used
to damp two different vibration modes simultaneously

consider the level of specificity in the claims to determine whether
the claim is even directed to the natural law.”); id. at 1362 (“The
concreteness and specificity of the claims in Athena move them from
reciting a law of nature to a particular application of a law of nature.”).

24a
Appendix A
(or perhaps just to damp bending mode vibrations). 9 This
amounts to no more than a restatement of the assertion
that the desired results are an advance. We have already
explained that, insofar as claim 22 here merely claims
the achievement of results, they are directed to ineligible
matter. As we held in BSG Tech LLC v. Buyseasons, Inc.,
899 F.3d 1281 (Fed. Cir. 2018), “a claimed invention’s use
of the ineligible concept to which it is directed cannot
supply the inventive concept” required to cross the line
into eligibility. Id. at 1290; see also Trading Techs., 921
F.3d at 1385 (“The abstract idea itself cannot supply the
inventive concept, ‘no matter how groundbreaking the
advance.’” (quoting SAP, 898 F.3d at 1170)); ChargePoint,
920 F.3d at 775 (“[T]he abstract idea itself . . . cannot
supply the inventive concept at step two.”).
Claim 22 discloses no other inventive concept. The real
inventive work lies in figuring out how to design a liner
to damp two different vibration modes simultaneously,
and no such inventive work is recited in claim 22. The
remaining steps of claim 22, like the steps involved in
the Flook patent, amount to no more than conventional
pre-and post-solution activity. There is no other inventive
concept at step two in the claims and no dispute of any
material fact.
9. To the extent that AAM’s opening summary judgment brief
as to § 101 patent eligibility can be understood to argue that there
are disputed issues of material fact as to whether the patent discloses
an inventive concept, it relies only on Dr. Rahn’s testimony that
dual-damping of bending mode and shell mode vibrations was new
and unconventional. AAM Mot. for Summ. J. 8-9, American Axle &
Manuf., Inc. v. Neapco Hldgs. LLC, No. 15-01168 (D. Del. Aug. 11,
2017), ECF No. 160.

25a
Appendix A
Claim 22 is not patent eligible. Claim 3610 is virtually
indistinguishable from claim 22 and was not argued
separately on appeal or in district court. It is thus likewise
not patent eligible.
II. Claims Depending from Claim 22
Having determined that independent claim 22 is
not patent eligible under § 101, we need not separately
determine eligibility of the asserted dependent claims.
The district court found independent claim 22 collectively
representative of all claims dependent from this claim. AAM
10. Claim 36 recites:
A method for manufacturing a shaft assembly of
a driveline system, the driveline system further
including a first driveline component and a second
driveline component, the shaft assembly being
adapted to transmit torque between the first driveline
component and the second driveline component, the
method comprising:
providing a hollow shaft member;
tuning a mass and a stiffness of at least one liner; and
inserting the at least one liner into the shaft member;
wherein a ratio of a mass of the at least one liner to a
mass of the shaft member is about 5% to about 30%;
wherein the at least one liner is a tuned resistive
absorber for attenuating shell mode vibrations; and
wherein the at least one liner is a tuned reactive
absorber for attenuating at least one of bending mode
vibrations and torsion mode vibrations.

26a
Appendix A
did not argue before the district court that the dependent
claims change the outcome of the eligibility analysis. Nor
did AAM make such an argument in its opening brief on
appeal.11 Although at oral argument AAM disagreed that
22 is representative of the others and stated that it never
acceded to such a finding, Oral Arg. 30:07-40, it was unable
to identify any part of its opening brief that presented such
an argument and admitted that it was “not suggesting that
the other claims should come out differently,” id. at 30:4031:16. We therefore find any such argument waived. See
Affinity Labs, 838 F.3d at 1256 n.1 (treating certain claims
as representative where no meaningful argument made
that other claims are materially different); Electric Power,
830 F.3d at 1352. We note that in the rehearing petition
concerning the earlier panel decision, AAM did not argue
that the decision with respect to the dependent claims was
erroneous, other than to say in a footnote that “AAM did
not waive any arguments about these [dependent] claims.”
Petition 14 n.3.
III: Claim 1
Claim 1 is different from claim 22. While it is true that
both claims require “tuning,” claim 1 is more general. It
requires “tuning at least one liner to attenuate at least two
types of vibration transmitted through the shaft member.”
11. While AAM’s Reply Brief for the first time argued that
specific limitations of dependent claims may render these claims
independently eligible, see Reply Br. 27, those arguments were not
properly preserved. SmithKline Beecham Corp. v. Apotex Corp., 439
F.3d 1312, 1319 (Fed. Cir. 2006) (“Our law is well established that
arguments not raised in the opening brief are waived.”).

27a
Appendix A
’911 patent, col. 10, ll. 19-28. The district court construed
this term to mean “controlling characteristics of at
least one liner to configure the liner to match a relevant
frequency or frequencies to reduce at least two types of
vibration transmitted through the shaft member.” J.A.
1046 (emphasis added). The specification indicates or may
suggest that the “characteristics” that can be “tuned” in
claim 1 include variables other than mass and stiffness.12
In addition, claim 1, unlike claim 22 has an additional
limitation of “positioning the at least one liner.”13 ’911
patent, col. 10, ll. 19-28.
12. The specification recites a nonexclusive list of variables that
can be altered to change the frequencies exhibited by a liner and a
solitary example of a tuned liner (though not the process by which
that liner was tuned). These variables include:
mass, length and outer diameter of the liner 204,
diameter and wall thickness of the structural portion
300, material of which the structural portion 300
was fabricated, the quantity of resilient members
302, the material of which the resilient members
302 was fabricated, the helix angle 330 and pitch 332
with which the resilient member 302 are fixed to the
structural portion 300, the configuration of the lip
member(s) 322 of the resilient member 302, and the
location of the liners 204 within the shaft member 200.
’911 patent, col. 7, l. 60-col. 8, l. 2.
13. The claim 22 limitation of “inserting the at least one liner
into the shaft member” is not equivalent to claim 1’s “positioning”
limitation, and AAM never argued otherwise in the district court
or on appeal. As discussed supra in Section II, any argument that
dependent claims 34 and 35 have a “location limitation,” see Dissent
Op. 27-28, have been waived by AAM.

28a
Appendix A
In light of the district court’s construction of claim
1, which requires only controlling characteristics and
positioning the liner, we cannot conclude that it is merely
directed to Hooke’s law. In contrast with claim 22, which
as construed recites nothing more than a desired result
and an instruction to apply Hooke’s law, we cannot say
claim 1 as construed is directed to a particular natural
law and nothing more. The mere fact that any embodiment
practicing claim 1 necessarily involves usage of one or
more natural laws is by itself insufficient to conclude the
claim is directed to such natural laws. The district court’s
opinion suggests that the broader concept of tuning is an
abstract idea, J.A. 16-17, and the same question may be
raised about the broad concept of positioning. On appeal,
Neapco relied on both the natural law and abstract idea
categories of ineligibility in defending the district court’s
decision. See, e.g., Neapco Resp. Br. 21, 24. But the abstract
idea basis was not adequately presented and litigated in
the district court. We think that it is appropriate to vacate
the judgment as to claim 1 and its dependent claims and
remand the case for the district court to address this
alternative eligibility theory in the first instance.
IV
Some brief response to the dissent is required.
First, contrary to the dissent, we are not “depart[ing]
from existing § 101 precedent,” Dissent Op. 9, but rather
faithfully following it in the narrow circumstances of this
case.

29a
Appendix A
Second, the dissent argues that “[o]ne important
difference between this natural law case and every other
one ever decided is that these claims do not actually recite
any particular natural law.” Dissent Op. 7. One problem
with this argument is its characterization of this case
as not involving a recitation of the natural law. Claim 22
expressly requires varying frequency attenuation (tuning)
based on mass and stiffness, as the dissent recognizes
(Dissent Op. 26 (under claim 22, “the liner is tuned to a
given frequency by adjusting its mass and stiffness”)). As
is undisputed, what Hooke’s law does is precisely to relate
frequency to mass and stiffness. See supra at 7. In all but
name, therefore, claim 22 recites Hooke’s law. To be clear,
however, our holding should not be read as an invitation
to raise a validity challenge against any patent claim that
requires the application of an unstated natural law; our
ruling as to claim 1 should make that clear enough. Rather,
our holding is limited to the situation where a patent claim
on its face and as construed clearly invokes a natural law,
and nothing else, to accomplish a desired result.
There is, moreover, a more fundamental problem
with the dissent’s argument about claim recitation of
a natural law. It is true that in Mayo and many other
cases the natural law itself was stated in the claim.
See, e.g., Mayo, 566 U.S. at 74-75. But the longstanding
rejection of eligibility for a claim to a “result” or “effect,”
see Diehr, 450 U.S. at 182 n.7; Corning, 56 U.S. at 268;
Le Roy, 55 U.S. at 175, is not limited to claims that also
state the natural law that produces the result or effect.
Moreover, nothing in Mayo or any other case suggests
that the natural law exception requires an express claim

30a
Appendix A
recitation of a natural law: the analysis is a substantive
one about whether the claim is “directed to” ineligible
matter and, if so, whether there is enough other than the
ineligible matter itself to create eligibility. See Alice, 573
U.S. at 217-18; Mayo, 566 U.S. at 72-73, 77. If patentees
could avoid the natural law exception by failing to recite
the law itself, patent eligibility would depend upon the
“draftsman’s art,” the very approach that Mayo rejected.
Id. at 72. Significantly, both Mayo and O’Reilly rely on a
foundational English case, Neilson v. Harford, Webster’s
Patent Cases 295, 371 (1841), which involved this very
situation, where the patent did not recite the natural law,
because the inventor was “not aware of the nature and
principle of his discovery.” Id. at 344. “[T]he principle,”
“regarded as well known,” “that hot air would promote
the ignition of fuel better than cold,” was not in the patent
but was “embodied in th[e described] machine.” O’Reilly,
56 U.S. at 116; see also Mayo, 566 U.S. at 82-84. The
patent was held eligible only because it “explained how
the principle could be implemented in an inventive way.”
Mayo, 566 U.S. at 83.
Third, the dissent criticizes our analysis as improperly
merging enablement and eligibility, arguing that the
failure of the claims to designate how to achieve the
desired result is exclusively an issue of enablement.
Dissent Op. 23-26. But we think the criticism rests on a
failure to distinguish two different “how” requirements in
patent law. The first such requirement, that of eligibility,
is that the claim itself (whether by its own words or by
statutory incorporation of specification details under
section 112(f)) must go beyond stating a functional result;

31a
Appendix A
it must identify “how” that functional result is achieved
by limiting the claim scope to structures specified at
some level of concreteness, in the case of a product claim,
or to concrete action, in the case of a method claim. The
Supreme Court has so required dating back at least to the
Court’s rejection of Morse’s claim 8 in O’Reilly v. Morse,
and this requirement is an eligibility requirement we have
applied repeatedly, as explained above.14
The second, distinct “how” requirement applies to the
specification, not the claim: once the required concrete
14. In O’Reilly, the specification contains a number of detailed
technical drawings and corresponding descriptions, which all claims
but claim 8 incorporated. See Reissue Patent No. 117 (issued June
13, 1848) (Figure 1-5 and pages 2-3). In contrast, claim 8 of O’Reilly
specifically did not limit itself to the specification and for that reason
was, unlike claims 1-7, found ineligible:
Eighth. I do not propose to limit myself to the specific
machinery, or parts of machinery, described in the
foregoing specifications and claims; the essence of
my invention being the use of the motive power of
the electric or galvanic current, which I call electromagnetism, however developed, for making or
printing intelligible characters, letters, or signs, at
any distances, being a new application of that power,
of which I claim to be the first inventor or discovered.
O’Reilly, 56 U.S. at 86 (emphasis added). Subsequently, the
Supreme Court explained that claim 8 in O’Reilly was struck
down precisely because it “was a claim ‘for a patent for an effect
produced by the use of electro-magnetism, distinct from the
process or machinery necessary to produce it,’” whereas other
claims incorporated the descriptions of how to produce the effect.
Dolbear v. Am. Bell Tel. Co., 126 U.S. 1, 534, 8 S. Ct. 778, 31 L.
Ed. 863, 1888 Dec. Comm’r Pat. 321 (1888).

32a
Appendix A
physical structures or actions are set out in the claim,
the specification must set forth enough information for
a relevant skilled artisan to be able to make and use the
claimed structures or perform the claimed actions. This
is the enablement requirement, which is distinct from
the eligibility requirement.15 Although the word “how”
is used in both contexts, neither requirement replaces
the other. Enablement is concerned with whether “the
specification of a patent . . . teach[es] those skilled in the
art how to make and use the full scope of the claimed
invention.” In re Wright, 999 F.2d 1557, 1561 (Fed. Cir.
1993). Section 101 is concerned with whether the claims are
directed to a natural law, not whether the specification has
adequately described how to make and use the concretely
claimed structures and steps. The Supreme Court in
Mayo made clear that section 101 serves a different
function than enablement. Mayo, 566 U.S. at 90 (“[T]o
shift the patent-eligibility inquiry entirely to these later
[statutory] sections risks creating significantly greater
legal uncertainty, while assuming that those sections can
do work that they are not equipped to do.”).
Fourth, the dissent argues that “[n]o party introduced
evidence that the desired result of claim 22 (reducing
two types of vibration) is accomplished by application
of Hooke’s law and nothing more.” Dissent Op. 11. The
dissent also argues that the claim element “wherein the at
least one liner is a tuned resistive absorber for attenuating
15. In fact, none of the amici, some of whom argued that the
issue is enablement, attempted to distinguish the cases holding
claims that state a goal without a solution to be patent ineligible.
See IPO Br. 6; BIO Br. 9; USIJ Br. 8.

33a
Appendix A
shell mode vibrations” of claim 22 “is not achieved by
Hooke’s law, but rather is achieved by application of a
different natural law—friction damping.” Dissent Op. 13.
The dissent’s arguments do not alter our conclusion that
claim 22 in all but name recites Hooke’s Law and nothing
more to tune the liner to achieve the claimed result of
reducing two types of vibration.
As the dissent observes, the “directed to” inquiry
does not look for all natural laws that are “involved” in a
claimed method. Dissent Op. 6-7. Yet that is the most one
can say about friction damping in the language of claim 22.
What claim 22 says is that “tuning a mass and stiffness of
at least one liner” achieves both the attenuations stated in
the “wherein” clauses—each of which requires a “tuned”
liner.16 Tuning a mass and stiffness, as explained above,
without further guidance is nothing but an invocation of
Hooke’s Law.
Neapco has noted that friction damping is involved
in a liner’s functioning as “a tuned resistive absorber
for attenuating shell mode vibrations,” but AAM has
consistently taken the position that the invention is the
“tuning” that achieves this claimed result. AAM Op. Br. 13
(“The American Axle inventors . . . conceiv[ed] of the novel
and unconventional concept of ‘tuning’ a liner to damp
16. Claim 22 requires: “tuning a mass and a stiffness of at
least one liner” “wherein the at least one liner is a tuned resistive
absorber for attenuating shell mode vibrations and wherein the at
least one liner is a tuned reactive absorber for attenuating bending
mode vibrations.” ’911 patent, col. 11, ll. 31-36.

34a
Appendix A
specific propshaft vibration modes.” (emphasis added)).17
To be sure, the tuned liner is in contact with the propshaft,
and when it is put into use, that contact allows the tuning
to achieve the desired result of friction damping of the
tuning-focused frequencies. This is so because, as the
district court and AAM’s own expert recognized, friction
damping is a law of nature or natural phenomenon for any
contact between two surfaces. J.A. 11 (citing and quoting
J.A. 1930). It is the tuning used to create the liner, not
the post-creation use, that is claimed. And AAM itself has
not pointed to the role of friction damping in dual-mode
attenuation as a reason that the manufacturing claim is
not directed to a natural law under the § 101 test.
We read the district court as effectively adopting
AAM’s own view when it recognized that both Hooke’s
law and friction damping are at least involved but that
their roles are critically different. The court said that
“[t]he claimed methods are applications of Hooke’s law with
the result of friction damping,” J.A. 11 (emphasis added),
and that friction damping is a “result that is achieved from
performing the method rather than an active step in the
17. AAM’s expert Dr. Rahn asserted that “[f]riction damping
is unrelated to . . . ‘tuning a mass and stiffness of at least one liner.’”
J.A. 1930-31. This is also made clear in AAM’s own motion for
summary judgement, where it stated that “[t]he Asserted Claims
are not directed to friction damping[,]” explaining that they are
limited to “tuned liners,” J.A. 4333-34, and that “the Asserted
Claims involve the transformation [of] a liner to a ‘tuned’ liner by
‘controlling its mass and stiffness,’ such that the tuned liner is both a
‘tuned resistive absorber for attenuating shell mode vibrations’ and a
‘tuned reactive absorber for attenuating bending mode vibrations,’”
J.A. 4336 (emphasis added).

35a
Appendix A
method.” Id. at 16. Those conclusions accurately reflect the
role of friction damping in post-manufacturing, unclaimed
use of the device whose manufacture is what is claimed.
The recited alleged invention of “tuning a mass and a
stiffness of at least one liner” does not recite anything
other than the invocation of Hooke’s law.
Moreover, AAM could gain nothing by saying that
claim 22 is directed to both Hooke’s law and friction
damping. That assertion would simply leave it with a claim
directed to two identified natural laws. J.A. 11 (quoting
AAM’s expert, at J.A. 1930, stating that friction damping
“is a property of physics experienced by any two surfaces
in contact”). If claim 22’s language could be properly
interpreted in a way such that it invokes friction damping
as it does with Hooke’s law, the claim would still on its face
clearly invoke natural laws, and nothing more, to achieve
a claimed result.
Finally, the dissent argues that the majority rejected
AAM’s step two arguments “with no explanation at all”
and that “[i]t is inconsistent with precedent to hold claims
ineligible without analyzing the step two arguments.”
Dissent Op. 21. The majority does apply step two. What
it concludes is what this court has elsewhere concluded on
earlier occasions: the only asserted “inventive concept” is
ineligible subject matter. See BSG Tech, 899 F.3d at 1290;
Trading Techs., 921 F.3d at 1385; ChargePoint, 920 F.3d
at 775.

36a
Appendix A
Conclusion
We affirm as to claim 22 and its asserted dependent
claims, and as to claim 36, which claim ineligible subject
matter under § 101. We vacate as to claim 1 and its
dependent claims and remand for further proceedings
consistent with this opinion.
AFFIRMED IN PART, VACATED IN PART, AND
REMANDED
Costs
No costs.

37a
Appendix A
Moore, Circuit Judge, dissenting.
The majority’s decision expands § 101 well beyond its
statutory gate-keeping function and collapses the Alice/
Mayo two-part test to a single step—claims are now
ineligible if their performance would involve application
of a natural law. The majority makes three critical errors
of law and in doing so, has inflated § 101 beyond the
statutory language and Supreme Court precedent. First,
the majority finds claims directed to natural laws, yet they
clearly contain no such natural law. The majority creates
a new test for when claims are directed to a natural law
despite no natural law being recited in the claims, the
Nothing More test. The majority refuses to ask the parties
for supplemental briefing on the application of its new
Nothing More test or to remand to the district court to
assess the applicability of the new test in the first instance.
The majority instead holds that we appellate judges, based
on our background and experience, will resolve questions
of science de novo on appeal. We will determine whether
Hooke’s law and nothing more results in a reduction of two
types of vibration in a propshaft. The majority reaches this
conclusion despite all of the briefing and record evidence
contradicting it. Second, the majority refuses to consider
the unconventional claim elements. Third, the majority
has imbued § 101 with a new superpower—enablement on
steroids. The majority’s blended 101/112 analysis expands
§ 101, converts factual issues into legal ones and is certain
to cause confusion for future cases.
The claims at issue contain a specific, concrete
solution (inserting a liner inside a propshaft) to a problem

38a
Appendix A
(vibrations in propshafts). Although some degree of trial
and error in modifying the mass, stiffness, and location of
the liner to optimize the reduction in vibration of a given
shaft could (if undue) create an enablement concern, that
is not a § 101 problem. American Axle (AAM) and the
many amici believe each of these errors of law are likely
to create confusion for the district courts and to expand
§ 101 profoundly.1 I agree.
The majority claims this is a narrow decision—I think
not. This case turns the gatekeeper into a barricade.
Unstated natural laws lurk in the operation of every
claimed invention. Given the majority’s application of
its new test, most patent claims will now be open to a
§ 101 challenge for being directed to a natural law or
phenomena.
Finally, though not a legal question, I am troubled
by the deprivation of property rights without due
process. The majority declares claims representative
1. See, e.g., USIJ Br. at 1 (“The panel decision, if allowed
to stand, will add further confusion to a body of jurisprudence
regarding patent eligibility that already has proven to be difficult
if not wholly impenetrable to apply with any consistency.”); id. at
5 (quoting Alice) (“The majority decision, in short, threatens to
‘swallow all of patent law,’ because ‘at some level, all inventions . . .
embody, use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.’”); IPO Br. at 8 (“the decision has the
potential to blur the lines between the section 101 and 112 analysis.
This will increase confusion and uncertainty in the law of patent
eligibility and could open the door to hybrid eligibility and written
description-enablement arguments.”); BIO Br. at 2 (“it is now Section
101 that has engulfed the other statutory sections”).

39a
Appendix A
despite the fact that no party argued below or to this
court that there were representative claims, and AAM
argued the import to the § 101 analysis of dependent
claim limitations throughout these proceedings. And the
majority finds against the patentee by reaching a claim
construction issue of the majority’s own creation. The
majority concludes, though no party argued it at any
point in this litigation or appeal, that the claim terms
“positioning” and “inserting” have different meanings.
And only because of its newly proffered, completely sua
sponte construction, claim 22 is deemed ineligible. There
is simply no justification for the majority’s application
of its new Nothing More test other than result-oriented
judicial activism. This is fundamentally unfair. I dissent
from this unprecedented expansion of § 101.
I. These claims are not directed to a natural law
A. The majority’s expansion of “directed to”
The ’911 patent, directed to a method of manufacturing
a drive shaft assembly for a car, is the type of traditional
manufacturing patent of automotive parts which has
been eligible for patent protection since the invention of
the car itself. “Industrial processes such as this are the
types which have historically been eligible to receive the
protection of our patent laws.” Diamond v. Diehr, 450 U.S.
175, 184, 101 S. Ct. 1048, 67 L. Ed. 2d 155 (1981).
T he major ity ’s hold i ng that these cla i ms t o
manufacturing an automotive drive shaft are ineligible
has sent shock waves through the patent community.

40a
Appendix A
“It’s unthinkable the courts found this invention, a
manufacturing process for making a key automotive
part, as patent ineligible.” Rep. Doug Collins. American
Axle is a “poster child for how the current test for patent
eligibility is being applied to reach rather absurd results.”
Perry Cooper, Ball in Federal Circuit’s Court on Patent
Eligibility Clarity, Bloomberg News (Jan. 30, 2020)
(quoting Professor David Taylor). “[I]f ‘industrial-process,’
physically-based patents like these are ineligible under
Mayo/Alice , then seemingly every patent is in ineligibility
jeopardy.” Michel Br. at 7. “‘The optics are challenging
for this, because you’re talking about a way to make a
drive shaft for a car, and that sounds like the kind of
thing that’s been getting patented for 100 years,’ . . . The
decision brings to the foreground an issue that has been
bubbling in patent eligibility cases for some time, which
is that every invention at some level operates according
to natural laws.” Ryan Davis, Drive Shaft Ruling May
Expand Challenges to Patent Eligibility, Law 360 (Oct.
24, 2019). “This is a specific, practical application of the
laws of thermodynamics in an industrial process—an
innovative process deemed patentable by the courts since
the nineteenth century.” Law Profs. Br. at 4. See also
Michael Cicero, Patent Ineligibility Defense Expands
to Mechanical Subject Matter, Bloomberg News (Dec. 4,
2019); Jonathan Osha, American Axle: The Latest Twist
of Patent Eligibility Oshaliang Newsletter (Oct. 17,
2019) (American Axle is “a new low in patent eligibility
jurisprudence . . . if a method of manufacturing a propeller
shaft is not eligible subject matter, it is difficult to imagine

41a
Appendix A
where a future line might be drawn.”). 2 These claims do not
preempt use of a natural law and the majority significantly
broadens the directed to test to find otherwise.
In this case, the natural law which the claims are
purportedly directed to has been a constantly moving
target. Neapco argued and its expert testified that claim
22 was directed to the application of two natural laws
working together to achieve the claimed reductions in
vibration: Hooke’s law (which reduces bending mode
vibration) and friction damping (which reduces shell mode
vibration). The district court held that claim 22 is directed
to “laws of nature: Hooke’s law and friction damping.’” J.A.
10. On appeal, Neapco continues to assert that claim 22 is
directed to the application of two natural laws:
Hooke’s Law and friction damping are two
separate laws of nature. Indeed, the [district
court] opinion states that “the issue presented
is whether the Asserted Claims as a whole are
directed to laws of nature: Hooke’s law and
friction damping.”
Neapco Br. at 56 (emphasis in original). The prior majority
opinion in this case explained that the claimed invention is
“more complex than just a bare application of Hooke’s Law,
2. “Amici once proposed as a reductio ad absurdum that even
an automobile engine can be framed as a mere application of the laws
of thermodynamics and thus deemed unpatentable. Adam Mossoff,
A Brief History of Software Patents (and Why They’re Valid), 56
Ariz. L. Rev. 65, 71 (2014). The panel majority decision has made
this absurdity a legal reality.” Law Prof. Br. at 3.

42a
Appendix A
and that other natural laws may be relevant.” Prior Maj.
at 20. It further explained that the claims are directed to
“Hooke’s law and possibly other natural laws.” Id.
Changing course on rehearing, the majority now
concludes claim 22 is directed to Hooke’s law and only
Hooke’s law “because it simply requires the application of
Hooke’s law to tune a propshaft liner to dampen certain
vibrations.” Maj. at 9. And revising history, the majority
now claims that the district court itself held that the claims
were directed to Hooke’s Law and nothing more. Maj. at
7. This is contrary to both parties’ understanding about
the district court’s holding and the majority’s own prior
conclusion about the district court’s holding:
“The district court concluded that ‘the Asserted
Claims as a whole are directed to laws of nature:
Hooke’s Law and friction damping. J.A. 10.’”
Prior Maj. at 7. Attempting to revise history is not good:
“The past was erased, the erasure was forgotten, the lie
became the truth.” George Orwell, 1984.
1.

The majority’s holding conflicts with precedent

The majority’s holding is in direct conflict with our
precedent and a dramatic expansion of § 101. As we have
explained,
The “directed to” inquiry . . . cannot simply ask
whether the claims involve a patent-ineligible
concept, because essentially every routinely

43a
Appendix A
patent-eligible claim involving physical products
and actions involves a law of nature and/or
natural phenomenon—after all, they take place
in the physical world. Rather, the ‘directed to’
inquiry applies a stage-one filter to claims,
considered in light of the specification, based on
whether “their character as a whole is directed
to excluded subject matter.”
Enfish LLC v. Microsoft Corp., 822 F.3d 1327, 1335
(Fed. Cir. 2016) (citations omitted). “[A]t step one, it is
not enough to merely identify a patent-ineligible concept
underlying the claim; we must determine whether that
patent-ineligible concept is what the claim is directed to.”
ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d 759, 766
(Fed. Cir. 2019) (internal citations omitted). A claim is not
directed to a natural law simply because it touches upon,
implicates, uses or involves a natural law.
The majority cites Diehr, Flook, O’Reilly, and Mayo
as supporting its conclusion that these claims are directed
to a natural law. But, in each of those cases, the natural
law was undeniably, expressly articulated in the claim.
“When a claim recites a mathematical formula (or scientific
principle or phenomena of nature), an inquiry must be
made into whether the claim is seeking patent protection
for that formula in the abstract.” Maj. at 18 (quoting
Diehr). One important difference between this natural
law case and every other one ever decided is that these
claims do not actually recite any particular natural law
and likely implicate many (as all mechanical inventions
must comply with the laws of physics).

44a
Appendix A
Claim 22 does not recite a natural law, about that
there can be no doubt. Hooke’s law is not mentioned by
name or formula anywhere in the claims, specification or
prosecution history. The majority overcomes this defect by
articulating a new test (the Nothing More test) for when a
claim is directed to a natural law despite not reciting one:
This holding as to step 1 of Alice extends
only where, as here, a claim on its face clearly
invokes a natural law, and nothing more, to
achieve the claimed result.
Maj. at 21. The majority explains that claim 22 is directed
to Hooke’s law because the tuning element in claim 22
includes “controlling the mass and stiffness . . . Thus, claim
22 requires use of a natural law.” Maj. at 11-12. Every
mechanical invention requires use and application of the
laws of physics. It cannot suffice to hold a claim directed
to a natural law simply because compliance with a natural
law is required to practice the method.
Section 101 is monstrous enough, it cannot be that
use of an unclaimed natural law in the performance of an
industrial process is sufficient to hold the claims directed to
that natural law. The majority’s only citation in support of
this dramatic expansion of our law is an English case from
1841, Neilson v. Harford, Webster’s Patent Cases 295, 371
(1841). There was no claim in Neilson as claiming practice
did not exist and the English court actually held the patent
eligible: “the plaintiff does not merely claim a principle, but

45a
Appendix A
a machine embodying a principle.” Id.3 I cannot discern
the logic in the majority’s suggestion that this English
case supports its decision to depart from existing U.S.
precedent. It cannot be that a claim is directed to a natural
law when there is no specific natural law discernable in the
claim or even the specification. All physical methods must
comply with, and apply, the laws of physics and the laws of
thermodynamics. The fact that they do does not mean the
claims are directed to all such laws.
The majority also attempts to justify its result by
comparing claim 22 to claim 8 in O’Reilly. Claim 8 in
O’Reilly reads:
Eighth. I do not propose to limit myself to
the specific machinery or parts of machinery
described in the foregoing specification and
claims; the essence of my invention being the use
of the motive power of the electric or galvanic
current, which I call electromagnetism, however
developed for marking or printing intelligible
characters, signs, or letters, at any distances,
being a new application of that power of which
I claim to be the first inventor or discoverer.
3. The majority claims that in O’Reilly and Mayo, the Supreme
Court held that in Neilson the principle “was not in the patent but
was embodied in th[e described] machine.” Maj. at 27. Neither
decision holds nor indicates that the principle was not disclosed in
the patent. When discussing Neilson, the Supreme Court stated: “the
claimed process included not only a law of nature but also several
unconventional steps . . . that confined the claims to a particular,
useful application of the principle.” Mayo, 566 U.S. at 84.

46a
Appendix A
56 U.S. (15 How.) 62, 112, 14 L. Ed. 601 (1854). The Supreme
Court held claim 8 ineligible because the claim was not
limited to “specific machinery or parts of machinery
described,” but instead claimed electromagnetism [(the
natural phenomenon was actually articulated in the claim)]
developed by any means to mark or print at any distance.
Id. The Supreme Court’s concern was not, as the majority
contends, that an artisan would not know “how” to print
at any distance using electromagnetism. The concern
was that Morse’s claim 8 was not limited to any specific
“process or machinery,” and that the expressly limitless
claim would preclude “some future inventor . . . [who]
discover[s] a mode of writing or printing at a distance by
means of the electric or galvanic current, without using
any part of the process or combination set forth in the
plaintiff’s specification” from practicing his invention.
Id. at 112-113. Unlike Morse claim 8, claim 22 does not
preclude all use of, or even expressly recite, the natural
law and it does expressly articulate the “machinery” used
to achieve the result of dampening specific vibrations—the
liner.
Amici are understandably troubled, as am I, by the
majority’s departure from existing § 101 precedent.
“The panel seems to conclude that step one can be
satisfied even if the natural law, or laws, at issue are not
identified. . . . General and non-specific statements should
not be enough to satisfy step one.” IPO Br. at 8-9. “The
specification invokes Hooke’s Law no more than it does
the law of gravity . . . the majority elected to sweep into its
analysis one or more unidentified natural laws in addition
to Hooke’s Law in order to assert that the claims were

47a
Appendix A
indeed ‘directed to’ some number of natural laws.” BIO
Br. at 6. “Just because an invention operates according to
laws of nature (as all inventions must) cannot mean that
it is ‘directed to’ these laws.” BIO Br. at 7.
2.

The majority’s new Nothing More test leaves the
science to the appellate judges to decide de novo

The majority’s Nothing More test, like the great
American work The Raven from which it is surely
borrowing, will, as in the poem, lead to insanity. The
majority has concluded that on appeal, as a matter of law,
we judges can decide as a matter of physics whether claim
22’s results—attenuating two types of vibration—are
accomplished by Hooke’s law and nothing more. To say
this feels like a bit of an overreach is an understatement.
Today, contrary to all arguments in the case, the record,
the district court’s decision, and its own prior opinion, the
majority concludes that claim 22 is directed to “Hooke’s
law and nothing more,” to accomplish the claimed results
of reducing two kinds of vibrations.
The district court did not hold that claim 22’s results—
attenuated shell mode vibration and bending mode
vibration in the propshaft—were achieved by Hooke’s
law and nothing more. In fact, as the majority previously
recognized, the district court clearly held that they were
achieved by the combination of Hooke’s law and friction
damping. Prior Maj. at 7. Neither party argued that claim
22 is directed to Hooke’s law and nothing more. Even
Neapco argued it was the combination of Hooke’s law
and friction damping, “two separate natural laws” which

48a
Appendix A
accomplished the claimed vibration damping. Neapco Br.
at 56.4
No party introduced evidence that the desired result of
claim 22 (reducing two types of vibration) is accomplished
by application of Hooke’s law and nothing more. In
fact, both parties’ experts expressly and unequivocally
testified to the contrary. 5 All evidence in this case is
4. In its summary judgment briefing Neapco argued that
claim 22 was directed to “well-known laws of physics,” including
both Hooke’s law and “the law of nature or natural phenomenon for
friction damping.” J.A. 1248-50. On appeal, Neapco likewise argues
that the claims are “directed to natural laws (Hooke’s laws and the
law of friction damping).” Neapco Br. at 30. Neapco leaves no doubt
when responding to AAM’s argument:
“[The district court opinion] states that Hooke’s law
and friction damping are two separate laws of nature.
Indeed, the opinion states that ‘the issue presented
is whether the Asserted Claims as a whole are
directed to laws of nature: Hooke’s law and friction
damping.’ The opinion goes on to accurately describe
Hooke’s law . . . [and] observed that friction damping,
a separate law of nature, ‘is a property of physics
experience by two surfaces in contact.’”
Id. at 56.
5. AAM’s expert testified that Hooke’s law is not required
to practice claim 22 nor is application of Hooke’s law sufficient to
practice claim 22:
Nor do any of the above claim limitations (and their
constructions) require the application of Hooke’s law
or any variation thereof. Hooke’s law is simply a linear
relationship between the force F and displacement x
of a spring with stiffness k. Taking the first limitation

49a
Appendix A
to the contrary. “The testimony of opposing technical
experts was refreshingly harmonious; perhaps because
these principles of classical electricity are beyond debate.”
Perkin-Elmer Corp. v. Westinghouse Elec. Corp., 822 F.2d
1528, 1536 (Fed. Cir. 1987) (Newman, J., dissenting).
Lest there be any doubt, the accused infringer’s
(Neapco’s) expert analyzes claim 22’s three claim elements
related to reducing vibrations:
1. “tuning a mass and a stiffness of at least one
liner;”
2. “wherein the at least one liner is a tuned
reactive absorber for attenuating bending mode
vibrations;” and
3. “wherein the at least one liner is a tuned
resistive absorber for attenuating shell mode
vibrations.”
J.A. 1602-05, ¶¶ 172-79. Neapco’s expert testifies that
the first two elements can be achieved by application of
Hooke’s law and nothing more:
as an example, e.g., “tuning a mass and stiffness of
at least one liner,” claim 22 involves a method having
the step of “controlling a mass and stiffness of at least
one liner to configure the liner to match a relevant
frequency or frequencies.” One can perform that step,
like the other steps of claim 22, without considering,
applying, or even knowing of Hooke’s law.
J.A. 1928. Experts for both sides agree that claim 22 is not directed
to Hooke’s law and nothing more.

50a
Appendix A
176. Thus, the phrase “tuning a mass and a
stiffness of at least one liner” claims Hooke’s
law. Similarly, the claim element “tuned
reactive absorber for attenuating bending mode
vibrations” claims nothing more than Hooke’s
law again, how one body will react to the mass
spring mass damper.
However, when it comes to the third element (reducing
shell mode vibration), this expert is crystal clear that it
is not achieved by Hooke’s law, but rather is achieved by
application of a different natural law—friction damping:
177. Similarly, the claim element “tuned
resistive absorber for attenuating shell mode
vibrations” claims nothing more than the law
of nature/natural phenomenon for friction
damping. Friction damping has been modeled
as both Coulomb damping and viscoelastic
damping which occur due to the resistive
friction and interaction of two surfaces that
press against each other as a source of energy
dissipation.
Shell mode vibration, according to Neapco, is reduced by
insertion of the liner into the propshaft in a manner to
cause a press fit which will reduce shell mode vibrations
by friction damping.
Neapco’s expert directly contradicts the majority’s
current conclusion. His opinion is that claim 22 is directed
to and requires application of two different natural laws

51a
Appendix A
to achieve the result of reducing two types of vibration
in the propshaft:
179. In short, the claimed invention claims
nothing more than the law of nature and/
or natural phenomenon of Hooke’s Law and
friction damping.
Rather than address these, the parties’ arguments, as
we are bound to do as appellate judges, the majority
recasts these arguments as “the dissent’s arguments” and
dismisses them in conclusory fashion.6 The majority claims
that the “most one can say about friction damping in the
language of claim 22” is that it is merely “involved” in the
claimed method.7 Maj. at 30. Not only can the parties and
6. In an attempt to deflect and cause confusion, the majority
cites AAM’s arguments that claim 22 is not directed to friction
damping or any other natural law. First, AAM has not been given
an opportunity to respond to the majority’s new Nothing More
test. Second, AAM’s argument that claim 22 is not directed to or
preempts friction damping does not in the least support the majority’s
conclusion that Hooke’s law and nothing more achieves the reduction
of two types of vibrations. Finally, even if this twisted logic could be
followed, it would at most create a question of fact about which the
parties disagree and it would thus be improper to grant summary
judgment.
7. Acknowledging in the end, that Hooke’s law alone may not
achieve the reduction of two types of vibration, the majority pivots
and states that the claim is still ineligible if multiple unclaimed
natural laws working together are used to achieve the claimed
results. Maj. at 31-32. The majority’s conclusion that a claim is
ineligible because multiple unclaimed natural laws could be involved
in achieving the claimed results is an incredibly broad ruling and
will invite a § 101 challenge in every case.

52a
Appendix A
the district court say more, they did. The parties and their
experts uniformly agree that the claims are not directed
to Hooke’s law and nothing more. The majority’s conclusion
to the contrary, without so much as acknowledging the
parties’ arguments or evidence, casts a cloud of confusion
not just over the bounds of this case, but over our role as
judges. The majority’s conclusion that Hooke’s law and
nothing more reduces two types of vibration in propshafts
amounts to a clear rule of law—judges, not experts, will
determine as a matter of law, when claims are directed
to a natural law and nothing more. We are the scientific
experts now. Whether Hooke’s law and nothing more
achieves reduction in two types of vibration in propshafts
should be a question of fact, but the majority concludes
otherwise. It decides this question of physics as a matter
of law on appeal in the first instance even at summary
judgment.
The majority also holds that determining whether
a claim “invokes” a natural law, though no natural law
is articulated in the claim is also a question of law for
the court to decide. It is undisputed that claim 22 does
not mention a natural law either by name or formula.
Since Hooke’s law is not mentioned by name or formula
anywhere in the intrinsic record, how can we conclude,
as a matter of law, the claim nonetheless clearly invokes
Hooke’s law?
As appellate judges, we are well-equipped to discern
meaning from legal documents. But things get murkier
as we muddle our way into the intersection of science and
the law. Thus, the Supreme Court has wisely announced

53a
Appendix A
a line between that which we can evaluate de novo (the
intrinsic record, composed largely of legal documents)
and that which we cannot (everything extrinsic to the
record, including expert testimony). See Teva Pharms.
USA, Inc. v. Sandoz, Inc., 574 U.S. 318, 324-28, 135 S. Ct.
831, 190 L. Ed. 2d 719 (2015); see also Aatrix Software,
Inc. v. Green Shades Software, Inc., 882 F.3d 1121, 1125
(Fed. Cir. 2018); Berkheimer v. HP Inc., 881 F.3d 1360,
1365 (Fed. Cir. 2018). Where, as here, nothing in the
intrinsic record so much as mentions Hooke’s law, we are
unquestionably in the extrinsic category. There is nothing
in the ’911 patent that “clearly invokes a natural law.” Yet
the majority concludes, as if it would be apparent to anyone
who looked, that the claim limitations equal Hooke’s law.
One can reach such a conclusion only through factfinding
based on expert testimony. But judges are not fact or
technical experts. The only appropriate fact finder is the
district court and not on summary judgment.
If we are going to embark in a tumultuous area of law
on a new test for ascertaining when claims are directed
to unmentioned natural laws—we should do so with the
benefit of briefing or even better, we should remand for the
district court to apply the test in the first instance since
it requires resort to extrinsic evidence. Future cases will
use this case as a template for how judges can determine
as a matter of law when a claim invokes an unmentioned
natural law and nothing more. All aspects are henceforth
a question of law and the record is irrelevant. We are
the experts and we will determine when a claim invokes
an unmentioned natural law and when nothing but that
natural law is necessary to achieve the claimed results.

54a
Appendix A
A disturbing amount of confusion will surely be
caused by this opinion, which stands for the proposition
that claims can be ineligible as directed to a natural
law even though no actual natural law is articulated in
the claim or even the specification. The majority holds
that claims are directed to a natural law if performance
of the claimed method would use the natural law. The
majority has “open[ed] the door to countless challenges to
mechanical inventions with underpinnings in one or more,
potentially unnamed natural laws.” IPO Br. at 9. Holding
these claims ineligible under a purported natural law
analysis “leaves patentees awash in a sea of uncertainty;
how can one determine if a claim is directed to a natural
law without a natural law being apparent either on the face
of the claim, or under a proper claim construction?” BIO
Br. at 5. And the majority’s addition of its Nothing More
test will add nothing more to the clarity. As we see in this
case, the Nothing More test can be met even when all of
the arguments and evidence are to the contrary and will
not be finally resolved until we judges bring our scientific
acumen to bear on the questions.
B. Claim 1 vs. Claim 22
The majority holds that claim 1 is not directed to
a natural law (Hooke’s law) because of the additional
positioning limitation and the possible inclusion of
variables other than mass and stiffness in the tuning
limitation of claim 1. Maj. at 24-25. I agree that claim 1 is
not directed to a natural law. I would, however, reverse
rather than vacate because under the second step of
the Alice/Mayo test, there are at least factual questions

55a
Appendix A
regarding this claim’s inventive concepts which preclude
summary judgment. See infra Part II. Since we are
remanding, the district court will have an opportunity
to address these fact questions regarding claim 1 in the
first instance.
To hold claim 22 ineligible, the majority holds that
claim 22’s inserting limitation is not equivalent to claim 1’s
positioning limitation “and AAM never argued otherwise.”
Maj. at 25 n.13. The majority is sua sponte interpreting
undisputed, unappealed claim terms with reference to
nothing. They do not cite the patent, the prosecution
history, or any briefs. Neither party ever suggested that
the inserting and positioning limitations had different
meanings. Claim 22 requires tuning and inserting wherein
the liner will function as a tuned resistive absorber
(damp shell mode) and a tuned reactive absorber (damp
bending mode). AAM argued in its Opening Brief that the
location of the liner within the shaft was a characteristic
which impacted attenuation of vibration. See, e.g., AAM
Opening Br. at 64-65 (“The ’911 patent specifically
teaches how to control the characteristics of a liner to
not only match but damp relevant propshaft vibrations,
including the thickness of the liner, the interference fit,
the location of the liner”). “One liner characteristic that
can be controlled—‘location of the liners 204 within the
shaft member 200’—is independent of its structure, e.g.,
its mass and stiffness.” Id. at 42; see also Oral Arg. at
1:36-2:00 (“The specification tells you, here’s what you
control, you control the diameter of the liner, the thickness
of it, where you place the liner, location is important.”).
Neapco’s own expert explained that shell mode vibration is

56a
Appendix A
reduced by the fit achieved when the liner is inserted into
the propshaft. The majority’s sua sponte appellate claim
construction is improper, unfounded and unsupported
by the record. It is not our job on appeal to create our
own claim construction issues to hold claims ineligible
especially when they were never briefed or argued by
the parties.
II. Unconventional claim elements render a claim
eligible even if it fails step one

Even if the majority’s analysis of the claims satisfied
step one of the Alice/Mayo test, which it did not, there is
a step two. Step two is a required inquiry precedent to
holding that claims are ineligible for patenting. The claims
will not be held ineligible (remember § 101 is meant to be
a gatekeeper) if the claims contain an “inventive concept.”
There are many here, articulated in the claims themselves,
about which there exist at least questions of fact which
should have precluded summary judgment. Argued below
and throughout the appeal, AAM maintains that liners had
never been used to reduce bending mode vibration. See
AAM Br. at 12, 25-26, 27, 35, 57-60, 63, and 65 n.5; AAM
Reply Br. at 2, 15 (“Prior art liners were used to provide
general broadband damping of shell mode vibrations, but
liners were not used to dampen bending mode vibrations
prior to the claimed invention.”); Id. at 19 (“It was
inventive to use a liner to damp bending mode vibrations”);
Id. at 24-25, and 29. The argument that liners were never
before used to attenuate bending mode vibrations was
AAM’s first and one of its strongest non-conventionality
arguments. Only to be bolstered by additional strong, fact-

57a
Appendix A
based, arguments such as the unconventional use of liners
to attenuate multiple vibration modes and unconventional
control of characteristics (including mass, stiffness and
location) to damp vibration. AAM’s opening brief set these
forth on the very first page of its step-two argument:
1. The Claims Contain Inventive Concepts and
Are Not Conventional or Routine
***
[T]he asserted claims include at least the
following inventive concepts:
• using a cardboard liner to reduce bending
mode vibrations;
• using a cardboard liner to reduce bending
and shell mode vibrations;
• tuning a cardboard liner by controlling its
characteristics;
• controlling the characteristics of a cardboard
liner such that it matches and damps
bending mode vibrations;
• controlling the characteristics of a cardboard
liner such that it damps bending mode
vibrations by oscillating in opposition to a
specific propshaft bending mode frequency;
and

58a
Appendix A
• controlling the characteristics of a cardboard
liner such that it matches and damps
vibration of multiple different types of
propshaft vibration, e.g., both bending and
shell mode vibrations.
AAM Br. at 57-58.
The patent discloses prior use of plugs, weights,
and dampers to attenuate bending mode vibrations, but
stresses that liners were not used. ’911 patent at 2:29-38.
AAM explained that before the ’911 patent, liners were
not used to damp bending mode vibrations, instead car
manufacturers shoved masses of wadded up cardboard
into the propshaft. Oral Arg. 6:46-7:11. More than a dozen
times in the briefs and during oral argument AAM argued
that the use of liners to attenuate bending mode vibration
was one of its inventive concepts. During oral argument,
AAM corrected the court when a member of the majority
tried to suggest that liners to attenuate bending mode
were known in the prior art:
Judge: “None of that is new, there were liners,
there were changes to the liners to make them
dampen, right? That was not new.”
AAM: “The liners had never been used to damp
bending mode.”
Oral Arg. 6:37-49. Even Neapco acknowledged that the
patent states that liners had not been used to attenuate

59a
Appendix A
bending mode vibrations. See Neapco Br. at 8. 8 It matters
not at all to the majority that AAM alleges that liners had
not been used to reduce bending mode vibration, nor that
Neapco presented no contrary evidence. This majority
opinion ignores this step two argument entirely—it never
addresses it.
In its prior decision, the majority did address AAM’s
argument that one of its inventive concepts was to use
liners to reduce bending mode vibrations: it suggested
that AAM did not make this argument, Prior Maj. at
12 n.3, it made its own fact finding based on evidence
not of record that liners were used to attenuate bending
mode vibrations, id., and then finally, it held (contrary to
Alice/Mayo), “it makes no difference to the section 101
analysis whether the use of liners to attenuate bending
mode vibrations was known in the art,” id. Each of these
positions has been abandoned today, but the result is
the same—this time with no explanation at all. It is
inconsistent with precedent to hold claims ineligible
without analyzing the step two arguments. 9
8. Though Neapco admits that the patent asserts liners had
never been used to attenuate bending mode, it argues that whether it
was previously unknown to use a liner to attenuate bending mode is
“a point that Neapco disputes and the record evidence contradicts.”
Neapco Br. at 36. Given Berkheimer, this, on its face, at least creates
a question of fact regarding step two which should have precluded
summary judgment of ineligibility. Berkheimer v. HP Inc., 881 F.3d
1360 (Fed. Cir. 2018).
9. The majority states in generality only that “a claimed
invention’s use of the ineligible concept to which it is directed cannot
supply the inventive concept.” Maj. at 21-22. AAM has never claimed
that its inventive concept is Hooke’s law (the ineligible natural law).

60a
Appendix A
In Mayo, the Supreme Court reflected on the process
of updating alarm limits held ineligible in Flook. The
Flook claims recited a mathematical formula and did not
explain how the variables used in the formula were to be
selected. 566 U.S. at 81. The Court did not stop at step
one, it considered the inventiveness of every single claim
limitation, and only after concluding that they were all
“well-known” held that “there was no inventive concept
in the claimed application of the formula.” Id. at 82. In
contrast, the majority stops at step one.
According to the majority, “[w]hat is missing is any
physical structure or steps for achieving the claimed
result.” Maj. at 15. The majority never addresses whether
a claim to using a physical, hollow liner inserted inside a
hollow drive shaft to attenuate bending mode vibrations
in the shaft (yes these are all express claim limitations),
was conventional. Much less whether a claim to using
the same physical liner to attenuate both bending mode
and shell mode vibrations was conventional. The result
is not, as the majority claims, a tuned liner; the result
is the reduction of vibration in the propshaft. And these
claims expressly require the reduction of bending mode
and shell mode vibrations employing a liner positioned
inside the hollow shaft, which according to AAM had never
been done before. Goodness sakes, the dependent claims
held ineligible by the majority specify the material the
liner must be made of (cardboard or plastic or fiberglass
or metal (claim 31)) and the actual physical form it must
take (extending helically (claim 27), with fingers (claim
33), circumferentially wrapped (claim 29) or over-molded
(claim 32)) and the place the liners must be positioned

61a
Appendix A
(“symmetrically about a bending anti-node” (claims 34,
35)). See also Oral Arg. at 29:39-57 (“The claims talk
about not only specific locations you put it at anti-nodes
for specific modes. The dependent claims also include
that they have to be directed to the second bending
mode or the second shell mode.”). It is remarkable that
the majority thinks that claims with all of these very
physical, very concrete, very structural limitations are
“missing any physical structure or steps.” A fiberglass
liner with a helically shaped resilient member extending
circumferentially around the liner or over-molded to the
structural portion of the liner certainly feels like the
“physical structure” that the majority says is missing
from the claims.
AAM alleges throughout that the concept of tuning
a liner, i.e. controlling the characteristics of a liner to
dampen vibration of a given system is also an inventive
concept. See id. at 27-28 and 57-67; AAM Reply Br. at 2, 16,
and 18-29. The particular characteristics of the tuned liner
will depend on the characteristics of the propshaft it is
being used in (for example the natural frequencies, which
are inherent properties of each shaft). See ’911 patent at
7:44-55; AAM Br. at 4, 6, 46, and 53. And the ’911 patent’s
specification explains how to tune liners to attenuate
those vibrations. The specification explains that different
characteristics of the liners are controlled corresponding
to the structure of the propshaft. ’911 patent at 7:56-8:43.
It even provides a working example of tuned liners for use
in a propshaft with specific dimensions and frequencies.
Id. at 8:2-23. The claims include limitations which get
progressively more detailed about the structure and

62a
Appendix A
positioning of the liner inside the drive shaft, none of
which are addressed by the majority.
AAM has at least raised factual questions about its
asserted inventive concepts which should have precluded
summary judgment in this case. Rather than confront
AAM’s actual claimed and argued unconventional elements
(such as a liner for attenuating bending mode vibrations),
the majority creates its own strawman to knock down. The
majority argues that AAM may have invented patentable
refinements to sophisticated FEA software or computer
modeling, but that they are not claimed. Maj. at 13-14.
Nowhere in the patent or the briefing does AAM claim
that the ’911 patent’s improvement is FEA or computer
modeling.
The majority never addresses the inventive concepts
alleged by AAM and listed in the above bullets points
directly from AAM’s opening brief. The second step
of Alice/Mayo cannot be disregarded in the eligibility
analysis.
III. Enablement on Steroids
“A more accurate statement of the majority’s view
would have been: ‘Section 101 can do everything 112 doesand then some.’” BIO Br. at 9. The majority’s new blended
101/112 defense concerns the biotech and pharmaceutical
industries who “expend great effort during patent
prosecution to meet the rigorous written description and
enablement requirements.” BIO Br. at 7.

63a
Appendix A
Despite the fact that no party has argued that the
claims are not enabled or that a skilled artisan would not
know how to design a tuned liner and insert it into a given
propshaft to reduce vibration, the majority nonetheless
concludes the claims are ineligible because they don’t
teach how to tune a liner. The majority’s concern is not
preemption of a natural law (which should be the focus),
but rather that the claims do not teach a skilled artisan
how to tune a liner without trial and error. The majority’s
new blended 101/112 defense is confusing, converts fact
questions into legal ones and eliminates the knowledge
of a skilled artisan.
According to the majority, even if the claims are
enabled, they are still ineligible because the claims
themselves didn’t teach how (the majority calls this
the first how requirement). It is certainly correct that
“[a]n improved result, without more stated in the claim, is
not enough to confer eligibility.” Koninklije KPN N.V. v.
Gemalto M2M GmbH, 942 F.3d 1143, 1150 (Fed. Cir 2019);
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350,
1356 (Fed. Cir. 2016) (claims are directed to an ineligible
abstract idea when they “purport to monopolize every
potential solution to the problem”). But such is not the case
here. The goal or the result of the claimed invention is not
a tuned liner; it is a drive shaft with reduced vibrations.
Claims 1 and 22 read:
1. A method for manufacturing a shaft assembly
of a driveline system, the driveline system
further including a first driveline component
and a second driveline component, the shaft

64a
Appendix A
assembly being adapted to transmit torque
between the first driveline component and
the second driveline component, the method
comprising:
providing a hollow shaft member;
tuning at least one liner to attenuate at least
two types of vibration transmitted through the
shaft member; and
positioning the at least one liner within the
shaft member such that the at least one liner
is configured to damp shell mode vibrations in
the shaft member by an amount that is greater
than or equal to about 2%, and the at least one
liner is also configured to damp bending mode
vibrations in the shaft member, the at least
one liner being tuned to within about ±20% of
a bending mode natural frequency of the shaft
assembly as installed in the driveline system.
***
22. A method for manufacturing a shaft
assembly of a driveline system, the driveline
system further including a first driveline
component and a second driveline component,
the shaft assembly being adapted to transmit
torque between the first driveline component
and the second driveline component, the method
comprising:

65a
Appendix A
providing a hollow shaft member;
tuning a mass and a stiffness of at least one
liner, and
inserting the at least one liner into the shaft
member;
wherein the at least one liner is a tuned resistive
absorber for attenuating shell mode vibrations
and wherein the at least one liner is a tuned
reactive absorber for attenuating bending mode
vibrations.
The majority states the claim “must identify ‘how’ that
functional result is achieved by limiting the claim scope to
structures specified at some level of concreteness.” Maj.
at 27-28. It is clear from the claims themselves that the
functional result is a drive shaft assembly with reduced
vibrations. “The present invention relates to . . . a method
for attenuating driveline vibrations transmitted through a
shaft assembly.” ’911 patent at 1:4-7. It is undisputed that
there exist many different ways to attenuate vibrations
in a drive shaft such as dampers, plugs, weights, liners,
even wadded up cardboard. The ’911 patent claims one
specific way to attenuate vibrations, a concretely identified
physical structure—a liner inserted inside the propshaft.
It does not just claim a result (reducing vibration)—it
claims a specific means of accomplishing the result—a
liner positioned in the shaft. Even the amount of required
reduction in vibration is an element in some claims (claim
1). Claim 22 even specifies (as do others) that the liner

66a
Appendix A
is tuned to a given frequency by adjusting its mass and
stiffness. And AAM alleges and the claims require that
the liner’s placement inside the shaft aids in reducing
vibration. There is no question the claims identify a
concrete structure and even specify precise variables
(mass and stiffness) to be adjusted to tune the liner to
the frequency of any given propshaft. The only remaining
question (the majority’s true concern with these claims)
is would a skilled artisan know how to adjust the mass,
stiffness, and positioning of the liner in order to damp
vibration without undue experimentation. See Oral Arg.
at 12:04-11 (Judge) (“Basically it is done by trial-anderror. You start with a computer program and then you
do trial and error to come to the correct result, right?”);
Oral Arg. at 29:20-36 (Judge) (“The claims themselves
don’t even provide you with a list of variables, there are
a lot of different variables, done by trial and error, and
all the claims are telling you is here is a desirable result
and use trial and error to get there.”). This is the question
the majority has and this is a question of enablement, not
eligibility.
I dissent from the majority’s attempt to inject a
heightened enablement requirement into the § 101
analysis. These claims contain a specific, concrete
solution (inserting a liner into a propshaft) to a problem
(vibrations in a propshaft). Some degree of trial and error
in modifying the mass and stiffness of the liner to optimize
the reduction in vibration of a given shaft, could (if undue)
create an enablement concern, but it is not a § 101 problem.
And if § 101 did require an analysis of whether too much
trial and error would be required to reduce vibration of

67a
Appendix A
a given shaft at a particular frequency, surely this would
be a question of fact and not something we decide for the
first time on appeal.
IV. Fundamental Fairness
I do not agree with the majority’s conclusion that
claims 1 and 22 are representative or that AAM waived
its arguments as to the dependent claims. First, Neapco
never argued that claims 1 and 22 are representative
and in fact argued the dependent claims separately. See
Neapco SJ Br. at 32-33. Second, AAM expressly argued
that they are not representative. Oral. Arg. 30:50-31:07.
AAM’s statement that the dependent claims should not
come out differently does nothing more than confirm that
it believes all of the claims are patent-eligible. Third,
the majority inaccurately states AAM did not argue
limitations of the dependent claims. AAM’s briefs provide
multiple references to the type of material and other
limitations found only in the dependent claims. See, e.g.,
AAM’s Opening Br. at 13-14, 36, 57-58, and 64-65. I do not
agree that AAM waived the dependent claims.
As for claim 34 and 35 in particular, there is an even
stronger basis for concluding that the majority is wrong.
At six locations in the Opening Brief, AAM argues
that location of the liners is one of its inventive control
characteristics. Id. at 63 (“controlling its characteristics
(e.g., length, width, interference fit, location, etc.)”); Id. at
64-65 (“The ’911 patent specifically teaches how to control
the characteristics of a liner to not only match but damp
relevant propshaft vibrations, including the thickness of

68a
Appendix A
the liner, the interference fit, the location of the liner”); Id.
at 13 (“The specification of the ’911 patent further explains
that liners are tuned for damping by controlling ‘various
characteristics’ including . . . location of the liners within
the propshaft”); see also id. at 35-36 (same). “One liner
characteristic that can be controlled—“location of the
liners 204 within the shaft member 200—is independent
of its structure, e.g., its mass and stiffness.” Id. at 42. And
during oral argument, AAM explained that it did argue
dependent limitations in the Opening Brief:
“Q: I didn’t see in the Blue Brief separate
argument about features of the dependent
claims?
A: We certainly talked about the location of
the liner, that’s in our briefs, and talked about
at length.”
Oral Arg. at 30:50-31:01.
Given that the majority now sua sponte holds that
claim 22 does not contain a location limitation, it is
unfair to refuse to review the dependent claims which
unquestionably have detailed location limitations. Claim 34
states: “The method of claim 22, wherein a first one of the
liners is positioned along the shaft member symmetrically
about a bending anti-node.” Claim 35 further limits the
location of a second liner placed in the shaft. Under these
circumstances, it is fundamentally unfair for the majority
to hold that AAM did not present arguments regarding
the dependent claim limitations in its Opening Brief.

69a
Appendix A
Finally, contrary to the majority’s assertion (Maj. at 24),
the petition for rehearing did not simply state that AAM
did not waive arguments related to dependent claims. It
pointed to three separate places in the Opening Brief (1314, 57-59 and 64-65) where it expressly argued location of
the liner. Given the Opening Brief’s repeated arguments
about location and the majority’s nascent determination
that claim 22 does not have a location limitation, it is wrong
to hold AAM waived its arguments regarding dependent
claims which contain location limitations.
Conclusion
The majority holds that claims are directed to natural
laws and are ineligible under § 101 if practicing the method
would require application of a natural law and nothing
more to achieve the claimed results, even when all of the
technical experts disagree. The majority has concluded
that the Nothing More question will be decided on appeal
as a matter of law, without briefing and argument, and
without regard to what the experts think. I cannot fathom
the confusion that will be caused by declaring that claims
are ineligible as directed to a natural law, when it is
clear to all involved that this patent does not recite any
particular natural law. Every mechanical invention must
apply the laws of physics—that does not render them all
ineligible, or maybe it does now. Section 101 simply should
not be this sweeping and this manipulatable. And the
majority’s collapse of the two-part Alice/Mayo test into
a one-part test cannot stand. AAM has argued that there
are unconventional elements in these claims, such as using
a liner to attenuate bending mode vibrations; this is not the

70a
Appendix A
natural law itself. The majority offers no explanation for
why this patentee is not entitled to step two consideration,
especially at this, the summary judgment stage.
Our job, our mandate from Congress is to create a
clear, uniform body of patent law. Our inability to do so in
the § 101 space has not been a mess of our making. But, the
unfairness, confusion and uncertainty that will be caused
by this opinion is all us. Today, we make a choice. I dissent
from this choice to extend the notions of ineligibility and
to extend the role of the appellate court. Section 112
adequately protects for exactly the concerns the majority
expresses, though honestly, I see no enablement problem
and none was raised by the defendant. I dissent from the
majority’s chimeric approach to § 101 which is inconsistent
with precedent, a vast expansion of § 101, and bound to
cause confusion in future cases.
I dissent from the conclusion that we judges are the
true scientific experts. We should not be deciding technical
questions, such as whether two types of vibration are
reduced by application of Hooke’s law and nothing more,
as questions of law de novo on appeal.

71a
Appendix
B MOTION OF THE
Appendix B — ORDER
ON
UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED OCTOBER 23, 2020
United States Court of Appeals
for the Federal Circuit
2018-1763
AMERICAN AXLE & MANUFACTURING, INC.,
Plaintiff-Appellant,
v.
NEAPCO HOLDINGS LLC,
NEAPCO DRIVELINES LLC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Delaware in No. 1:15-cv-01168-LPS, Chief
Judge Leonard P. Stark.
ON MOTION
Before Dyk, Moore, and Taranto, Circuit Judges.
Order for the court filed by Circuit Judge Dyk.
Concurring opinion filed by Circuit Judge Moore.
Dyk, Circuit Judge.

72a
Appendix B
ORDER
Plaintiff-appellant American Axle & Manufacturing,
Inc. (“AAM”) filed a motion to stay issuance of the mandate
pending the filing of a petition for writ of certiorari in
the Supreme Court. Defendants-appellees opposed the
motion.
I
Federal Rule of Appellate Procedure 41 provides
that a motion for stay of the mandate “must show that
the petition would present a substantial question and that
there is good cause for a stay.” Fed. R. App. P. 41(d)(1).
The Advisory Committee Notes state that “[t]he Supreme
Court has established conditions that must be met before
it will stay a mandate.” Fed. R. App. P. 41, advisory
committee’s note to 1994 amendment (citing Robert L.
Stern et al., Supreme Court Practice § 17.19 (6th ed. 1986)).
In this respect, the Advisory Committee Notes refer to
the standard established by the in-chambers opinions of
the individual justices. See Stern et al., supra, § 17.19.
The Supreme Court itself has approved this standard in
Hollingsworth v. Perry, 558 U.S. 183, 190, 130 S. Ct. 705,
175 L. Ed. 2d 657 (2010).
This standard requires that the applicant show “(1) a
reasonable probability that four Justices will consider the
issue sufficiently meritorious to grant certiorari; (2) a fair
prospect that a majority of the Court will vote to reverse
the judgment below; and (3) a likelihood that irreparable
harm will result from the denial of a stay. In close cases

73a
Appendix B
the Circuit Justice or the Court will balance the equities
and weigh the relative harms to the applicant and to the
respondent.” Id.
Chief Justice Roberts, acting as the Circuit Justice
for this court, specifically applied that standard in a
patent case, denying a stay solely for lack of irreparable
injury. Teva Pharms. USA, Inc. v. Sandoz, Inc., 572 U.S.
1301, 1301-02, 134 S. Ct. 1621, 188 L. Ed. 2d 754 (2014)
(Roberts, C.J., in chambers). After we held certain of
Teva’s patent claims invalid, Teva sought a stay in order
to prevent market entry by the generic pharmaceutical
company respondents. The Chief Justice noted that the
first two requirements for a stay were met, because the
Supreme Court had already granted certiorari and Teva
had “shown a fair prospect of success on the merits.”
Id. at 1301. But he denied a stay because a likelihood
of irreparable injury was not shown, explaining that
“[r]espondents acknowledge[d] that, should Teva
prevail . . . and its patent be held valid, Teva [would] be
able to recover damages from respondents for past patent
infringement” and therefore “the extraordinary relief that
Teva [sought was] unwarranted.” Id. at 1301-02.
As a matter of Federal Circuit law, we interpret the
Rule as requiring application of the standard articulated
by the Supreme Court in Hollingsworth and the Justices’
in-chambers opinions. See Biodex Corp. v. Loredan
Biomedical, Inc., 946 F.2d 850, 858 (Fed. Cir. 1991)
(Federal Circuit law, not regional circuit law, governs
such matters).

74a
Appendix B
II
In this case, AAM has not made the required showing
of a likelihood of irreparable injury absent a stay. With
respect to claim 22 and related claims, the decision of
this court requires no further action by the district
court since the claims have been held to be unpatentable.
AAM argues that “[i]f the Supreme Court grants review
and decides that the asserted claims of [AAM’s patent]
are patent eligible under § 101, this Court will have to
recall its mandate to conform its disposition with such a
decision.” Mot. 14, ECF No. 136. This action, common to
every case in which the Supreme Court does not affirm,
is not irreparable harm.
With respect to claim 1 and related claims, the decision
of this court remands to the district court for further
proceedings. AAM argues that there is “good cause for
a stay” because it “intends to petition for certiorari with
regard to the entirety” of our judgment and argues that
“[s]ignificant burdens and expenses would accrue” should
the mandate issue because “the parties and district court
would continue to litigate issues related to claim 1.” Id. at
12-13. Continued litigation with respect to claim 1 cannot
be irreparable injury. “Mere litigation expense, even
substantial and unrecoupable cost, does not constitute
irreparable injury.” Renegotiation Bd. v. Bannercraft
Clothing Co., 415 U.S. 1, 24, 94 S. Ct. 1028, 39 L. Ed. 2d 123
(1974); see also Commonwealth Oil Refin. Co. v. Lummus
Co., 82 S. Ct. 348, 349, 7 L. Ed. 2d 334 (1961) (Harlan, J., in
chambers) (denying motion for stay of the mandate where
the only possible harm from denial of the stay was that it

75a
Appendix B
could “set in motion the machinery for arbitration and . . .
other matters affecting the possible future conduct of the
arbitration”); Nara v. Frank, 494 F.3d 1132, 1133 (3d Cir.
2007) (need to “prepar[e] to commence trial within 120
days while simultaneously filing a petition for certiorari”
was not irreparable injury under Rule 41); United States
v. Microsoft Corp., No. 00-5212, 2001 U.S. App. LEXIS
18715, 2001 WL 931170, at *1 (D.C. Cir. Aug. 17, 2001)
(denying motion to stay mandate under Rule 41 because
movant “failed to demonstrate any substantial harm that
would result from the reactivation of proceedings in the
district court during the limited pendency of the certiorari
petition.”).
AAM has cited no authority suggesting that the
prospect of further district court proceedings while the
case is on review could constitute irreparable injury.
AAM points to the Practice Note to this court’s Rule 41,
which reminds litigants that their right to seek certiorari
is unaffected by the issuance of the mandate and,
“[c]onsequently, a motion to stay the mandate should
advance reasons for the stay beyond the mere intention
to apply for certiorari, e.g., to forestall action in the trial
court or agency that would necessitate a remedial order of
the Supreme Court if the writ of certiorari were granted.”
Fed. Cir. R. 41 practice note. But that Practice Note would
not displace the governing stay standard if they conflicted.
Even by its own terms, moreover, the Practice Note’s
language does not support a conclusion that the trial
court proceedings that might occur regarding claim 1 and
related claims would support a stay. Under the standard
applied by the Supreme Court, this is not a situation in

76a
Appendix B
which the Court would issue a “remedial order” staying
our mandate if certiorari were granted since the only
claimed irreparable injury is litigation cost.
We conclude that the irreparable injury requirement
is not satisfied here. On this ground alone a stay is not
warranted, quite apart from the merit or lack of merit of
the petition for certiorari.
Accordingly,
It Is Ordered That:
The motion to stay the mandate pending the filing of
a petition for writ of certiorari in the Supreme Court is
denied.
				For the Court
October 23, 2020		
/s/ Peter R. Marksteiner
				Peter R. Marksteiner
				Clerk of Court

77a
Appendix B
Moore, Circuit Judge, concurring.
Today, we adopt the three-prong test for staying
a mandate adopted by our sister circuits and several
individual Justices. I write separately to elaborate on
how those prongs apply here. While American Axle has
established a reasonable probability that certiorari will
be granted and a fair prospect that the majority of the
Court will reverse, it fails to establish irreparable harm
and thus a stay is not warranted.
I
The Supreme Court often grants certiorari to resolve
circuit splits that render the state of the law inconsistent
and chaotic. See, e.g., Braxton v. United States, 500
U.S. 344, 347, 111 S. Ct. 1854, 114 L. Ed. 2d 385 (1991)
(“A principal purpose for which we use our certiorari
jurisdiction . . . is to resolve conflicts among the United
States courts of appeals and state courts concerning the
meaning of provisions of federal law.”); see also Rogers v.
Grewal, 140 S. Ct. 1865, 1875, 207 L. Ed. 2d 1059 (2020)
(Thomas, J., dissenting from the denial of certiorari)
(“This case gives us an opportunity to provide lower
courts with much-needed guidance, ensure adherence to
our precedents, and resolve a Circuit split. Each of these
reasons is independently sufficient to grant certiorari.”).
What we have here is worse than a circuit split—it is a
court bitterly divided.
As the nation’s lone patent court, we are at a loss as
to how to uniformly apply § 101. All twelve active judges

78a
Appendix B
of this court urged the Supreme Court to grant certiorari
in Athena to provide us with guidance regarding whether
diagnostic claims are eligible for patent protection. There
is very little about which all twelve of us are unanimous,
especially when it comes to § 101. We were unanimous
in our unprecedented plea for guidance. But, as we
acknowledged in our decisions in Athena, that holding was
at heart a reticent application of Mayo to similar claims.
The current case is the progeny of neither Alice nor
Mayo. It is our own dramatic expansion of a judicial
exception to § 101. Section 101 is clear: “[w]hoever invents
or discovers any new and useful process,” like the claims
here, “may obtain a patent.” Yet, we have struggled to
consistently apply the judicially created exceptions to
this broad statutory grant of eligibility, slowly creating
a panel-dependent body of law and destroying the ability
of American businesses to invest with predictability. See
Smart Sys. Innovations, LLC v. Chicago Transit Auth.,
873 F.3d 1364, 1377 (Fed. Cir. 2017) (Linn, J., dissentingin-part and concurring-in-part) (characterizing § 101
doctrine as “indeterminate and often lead[ing] to arbitrary
results”). Our confusion has driven commentators, amici,
and every judge on this court to request Supreme Court
clarification. See Athena Diagnostics, Inc. v. Mayo
Collaborative Servs., LLC, 927 F.3d 1333 (Fed. Cir. 2019).
If a circuit split warrants certiorari, such an irreconcilable
split in the nation’s only patent court does likewise.
This case is a model of our divide. To be sure, natural
laws are “basic tools of scientific and technological work,”
“free to all men and reserved exclusively to none.” Mayo

79a
Appendix B
Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S.
66, 70-71, 132 S. Ct. 1289, 182 L. Ed. 2d 321 (2012). Before
this case, we applied this exception narrowly, because
“all inventions at some level embody, use, reflect, rest
upon, or apply laws of nature, natural phenomena, or
abstract ideas,” so “too broad an interpretation of this
exclusionary principle could eviscerate patent law.” Id.
at 71. In a divided panel here, we struggled to marry
these concepts into an administrable distinction between
eligible and ineligible claims. The majority concluded as
a matter of law that claims to a manufacturing process
are not eligible for patent protection because they are
directed to a law of nature even though no law of nature
appears in the claims, the patent, or the prosecution
history. Under the majority’s new “Nothing More” test,
claims are ineligible when they merely make use of a
natural law. We have strayed too far from the text of the
statute. I dissented, proposing that we follow the narrow
test announced in Alice and that we refrain from usurping
the district court’s factfinding role. Equally divided in a
6-6 vote, the full court denied rehearing en banc and, in
doing so, detailed its further divided views. Am. Axle &
Mfg., Inc. v. Neapco Holdings LLC, 966 F.3d 1347, 1348
(Fed. Cir. 2020) (prompting two opinions concurring in
the denial and three opinions dissenting from the denial).
I believe American Axle has established that there is a
reasonable probability certiorari will be granted.
II
The claims here are not directed to a business
method, internet or financial method, the likes of which

80a
Appendix B
the Court dealt with in Alice or Bilski. Nor does this
case map onto the Court’s holding in Mayo regarding
the patent eligibility of diagnostic inventions, as did our
decisions in Ariosa and Athena. Instead, our decision in
American Axle is a patent killing judicial exception of our
own creation. The claims here are directed to a process
for manufacturing car parts—the type of process which
has been eligible since the invention of the car itself.
They do not preempt the use of a natural law, a building
block of science, which should be freely available to all.
To nonetheless hold these claims ineligible, the majority
broadens the judicial exceptions in a way that threatens to
swallow the whole of the statute. See Am. Axle & Mfg., Inc.
v. Neapco Holdings LLC, 967 F.3d 1285 (Fed. Cir. 2020),
reh’g denied, 966 F.3d 1347, 1365 (Stoll, J., dissenting)
(“I grow more concerned with each passing decision that
we are, piece by piece, allowing the judicial exception to
patent eligibility to ‘swallow all of patent law.’”) (quoting
Alice Corp. Pty. v. CLS Bank Int’l, 573 U.S. 208, 217, 134
S. Ct. 2347, 189 L. Ed. 2d 296 (2014) and citing Mayo,
566 U.S. at 70-73). Such a rejection of the plain language
of the patent statute in favor of a vast and amorphous
judicial exception in which we Federal Circuit judges get
to decide de novo not just the legal principles, but the
application of the science itself, cannot stand. American
Axle has established a fair probability that the Supreme
Court will reverse.
The Supreme Court has often corrected this court
when we have defied precedent or strayed from our
mandate by claiming de novo dominion over factual
issues. See, e.g., Halo Elecs., Inc. v. Pulse Elecs., Inc.,

81a
Appendix B
136 S. Ct. 1923, 1931-34, 195 L. Ed. 2d 278 (2016); Teva
Pharms. USA, Inc. v. Sandoz, Inc., 574 U.S. 318, 324-27,
135 S. Ct. 831, 190 L. Ed. 2d 719 (2015); KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 407, 127 S. Ct. 1727, 167 L.
Ed. 2d 705 (2007). We repeat this mistake again. We hold
as a matter of law that the claimed result (a reduction in
two types of vibration in a drive shaft) was achieved by
nothing more than a natural law that appeared nowhere in
the claims, patent or prosecution history. We approach as
a question of law whether the vibrations in the drive shaft
were reduced by application of Hooke’s Law and nothing
more. And in doing so, we reject the undisputed testimony
of both experts. This is simply not our role as appellate
judges. American Axle has established a fair prospect
that the Supreme Court will reverse our usurpation of
the district court’s fact-finding role and our decision to
expand the natural law exception to cover an automotive
manufacturing process in direct contravention of the plain
statutory language.
III
Our remand to the district court of claim 1 and its
dependent claims will surely cause redundant, expensive
process. We unanimously held that claim 1 and its
dependent claims are not directed to a natural law. But
as the majority explained: “On appeal, Neapco relied
on both the natural law and abstract idea categories of
ineligibility in defending the district court’s decision. But
the abstract idea basis was not adequately presented
and litigated in the district court.” Am. Axle, 967 F.3d at
1300-01. Still, the majority ordered the district court to

82a
Appendix B
consider the abstract idea arguments on remand. Whether
a claim is directed to Hooke’s Law is a different question
than whether a claim is directed to an abstract idea. I
dissented from our remand which requires the district
court to consider a defense which we concluded was not
adequately presented and litigated. Whether to allow such
a new defense ought to be within the sound discretion
of the district court, but the majority’s remand dictates
otherwise. The court and parties will now be forced to
undertake significant, expensive and burdensome process
addressing this new defense.
Due process demands that American Axle be given
the “opportunity to be heard at a meaningful time and in a
meaningful manner” regarding Neapco’s new arguments.
Mathews v. Eldridge, 424 U.S. 319, 333, 96 S. Ct. 893, 47
L. Ed. 2d 18 (1976) (internal quotation marks omitted).
Therefore, discovery must be reopened, new expert
reports permitted, and new summary judgment briefing
allowed. And since the defendant gets to challenge these
patent claims on an entirely different ground (abstract idea
versus natural law), American Axle as the patentee is free
to make whatever arguments it chooses in defense—such
as arguments regarding the factual underpinnings of the
second part of the Alice-Mayo test and the level of detailed
structure present in the dependent claims. The majority’s
forced do-over works both ways. And depending on the
actions of the Supreme Court, there could be significant
wasteful, duplicative or parallel process, including on
American Axle’s dependent claims, which we refused to
separately address. Or American Axle may choose to seek
certiorari on the propriety of our remand as to claim 1,

83a
Appendix B
and the Supreme Court may determine that our remand
instructions were improper.
Although American Axle faces significant expense
and potentially duplicative process, this is not irreparable
harm. Thus, I join the majority’s adoption of the threeprong test and its decision that we cannot stay the
mandate in this case under these circumstances. It bears
noting, however, that although we have not stayed our
mandate, the district court retains “the power to stay
proceedings” as to claim 1 and the dependent claims,
which “is incidental to the power inherent in every court
to control the disposition of the causes on its docket with
economy of time and effort for itself, for counsel, and for
litigants.” Landis v. N. Am. Co., 299 U.S. 248, 254, 57 S.
Ct. 163, 81 L. Ed. 153 (1936) (reviewing decision to stay
for an abuse of discretion).

84a
Appendix
C DISSENT OF THE
Appendix C — OPINION
AND
UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED OCTOBER 3, 2019
United States Court of Appeals
for the Federal Circuit
2018-1763
AMERICAN AXLE & MANUFACTURING, INC.,
Plaintiff-Appellant,
v.
NEAPCO HOLDINGS LLC,
NEAPCO DRIVELINES LLC,
Defendants-Appellees.
October 3, 2019, Decided
Appeal from the United States District Court for
the District of Delaware in No. 1:15-cv-01168-LPS, Chief
Judge Leonard P. Stark.
Before Dyk, Moore, and Taranto, Circuit Judges.
Opinion for the court filed by Circuit Judge Dyk.
Dissenting opinion filed by Circuit Judge Moore.
Dyk, Circuit Judge.

85a
Appendix C
American Axle & Manufacturing, Inc. (“AAM”)
sued Neapco Holdings LLC and Neapco Drivelines LLC
(collectively, “Neapco”) alleging infringement of claims
of U.S. Patent No. 7,774,911 (“the ’911 patent”).1 The
parties filed cross-motions for summary judgment as to
the eligibility of the asserted claims of the ’911 patent
under 35 U.S.C. § 101. The district court granted Neapco’s
motion and held that the asserted claims are ineligible
under § 101. We agree and therefore affirm.
Background
I
The ’911 patent generally relates to a method for
manufacturing driveline propeller shafts (“propshafts”)
with liners that are designed to “attenuat[e] . . . vibrations
transmitted through a shaft assembly.” ’911 patent, col. 1,
ll. 6-7. Propshafts are “employed [in automotive vehicles]
to transmit rotary power in a driveline.” Id. col. 1, ll.
38-39. Because these propshafts are typically made of a
“relatively thin-walled steel or aluminum tubing [they]
can be receptive to various driveline excitation sources.”
Id. col. 1, ll. 40-42. These excitation sources, in turn, can
1. AA M’s complaint alleged infringement of two other
patents—U.S. Patent Nos. 8,176,613 (“the ’613 patent”) and 8,528,180
(“the ’180 patent”). During claim construction, the district court held
the asserted claims of the ’613 patent indefinite. Neapco Mot. for
Summary Judgment at 3, American Axle & Manuf., Inc. v. Neapco
Hldgs. LLC, No. 15-01168 (D. Del. Aug. 11, 2017), ECF No. 150. AAM
also dropped the asserted claims of the ’180 patent. Id. Neither the
’613 nor the ’180 patent is at issue on appeal.

86a
Appendix C
cause the propshaft to vibrate in three modes: bending
mode, torsion mode, and shell mode. Id. col. 1, ll. 42-44.
The ’911 patent describes these vibration modes as follows:
Bending mode vibration is a phenomenon
wherein energy is transmitted longitudinally
along the shaft and causes the shaft to bend at
one or more locations. Torsion mode vibration
is a phenomenon wherein energy is transmitted
tangentially through the shaft and causes
the shaft to twist. Shell mode vibration is
a phenomenon wherein a standing wave is
transmitted circumferentially about the shaft
and causes the cross-section of the shaft to
deflect or bend along one or more axes.
Id. col. 1, ll. 44-52. These vibration modes correspond
to different frequencies. Because such vibrations cause
undesirable noise, “techniques [had, prior to the ’911
patent,] been employed to attenuate vibrations in
propshafts including the use of weights and liners.” Id.
col. 1, ll. 53-54.
One prior art method of attenuation involved the
use of liners. Liners are hollow tubes made of a fibrous
material (like cardboard) with outer resilient members
that “frictionally engage the inner diameter of the
[propshaft].” Id. col. 6, ll. 56-65. Liners, like propshafts,
vibrate at different frequencies, and depending on the
frequencies at which they vibrate, may damp the vibration
of the propshaft into which they are inserted. When
certain variables related to the liner are changed (i.e.,

87a
Appendix C
when the liner is “tuned”), the frequencies at which that
liner vibrates, and therefore the liner’s ability to damp
the vibration of that propshaft, changes. See, e.g., id. col.
7-8. It was known in the prior art to alter the mass and
stiffness of liners to alter their frequencies to produce
dampening. Indeed, this was sufficiently well known that
prior art patents disclosed the use of particular materials
to achieve dampening. See, e.g., id. col. 2, lines 5-37.
Other prior art methods of dampening also existed,
including the use of weights. For example, the ’911 patent
describes plugs or weights that are inserted to frictionally
engage a propshaft and act as resistive attenuation means
to damp bending mode vibrations. Id. col. 1, line 53-col. 2,
l. 4. The patent also discloses a prior art damper that is
inserted into a hollow shaft and frictionally engages the
inside of the shaft by using a pair of resilient members.
Id. col. 2, ll. 5-10.
Two types of attenuation are relevant here: resistive
attenuation and reactive attenuation. “[R]esistive
attenuation of vibration refers to a vibration attenuation
means that deforms as vibration energy is transmitted
through it . . . so that the vibration attenuation means
absorbs . . . the vibration energy.” Id. col. 1, ll. 61-65.
A liner that is properly tuned to attenuate shell mode
vibration through resistive attenuation “matches” the shell
mode vibration (i.e., a particular natural frequency) of the
propshaft such that it absorbs the shell mode vibration
of the propshaft. J.A. 2000-02. “[R]eactive attenuation
of vibration refers to a mechanism that can oscillate in
opposition to the vibration energy [of the propshaft] to

88a
Appendix C
thereby ‘cancel out’ a portion of the vibration energy.” ’911
patent, col. 2, ll. 15-18. Thus, to design a liner to perform
reactive attenuation of a bending mode vibration “the
liner frequency must match the propshaft frequency and
involve translation of the liner to effectively couple with
the propshaft bending mode.” AAM Op. Br. 6 (citing J.A.
2076-77, 4036-37, 5218).
The district court treated independent claims 1 and
22 of the ’911 patent as representative of the asserted
claims (claims 1-6, 12, 13, 19-24, 26, 27, 31, 34-36). Those
two claims recite:
1. A method for manufacturing a shaft assembly
of a driveline system, the driveline system
further including a first driveline component
and a second driveline component, the shaft
assembly being adapted to transmit torque
between the first driveline component and
the second driveline component, the method
comprising:
providing a hollow shaft member;
tuning at least one liner to attenuate at least
two types of vibration transmitted through the
shaft member; and
positioning the at least one liner within the
shaft member such that the at least one liner
is configured to damp shell mode vibrations in
the shaft member by an amount that is greater

89a
Appendix C
than or equal to about 2%, and the at least one
liner is also configured to damp bending mode
vibrations in the shaft member, the at least
one liner being tuned to within about ±20% of
a bending mode natural frequency of the shaft
assembly as installed in the driveline system.
***
22. A method for manufacturing a shaft
assembly of a driveline system, the driveline
system further including a first driveline
component and a second driveline component,
the shaft assembly being adapted to transmit
torque between the first driveline component
and the second driveline component, the method
comprising:
providing a hollow shaft member;
tuning a mass and a stiffness of at least one
liner, and
inserting the at least one liner into the shaft
member;
wherein the at least one liner is a tuned resistive
absorber for attenuating shell mode vibrations
and wherein the at least one liner is a tuned
reactive absorber for attenuating bending mode
vibrations.

90a
Appendix C
’911 patent, col. 10, ll. 10-27; id. col. 11, ll. 24-36 (emphases
added). The district court construed the term tuning to
mean “controlling the mass and stiffness of at least one
liner to configure the liner to match the relevant frequency
or frequencies.” J.A. 15. No party contests the district
court’s construction on appeal.
According to the ’911 patent’s specification, prior
art liners, weights, and dampers that were designed
to individually attenuate each of the three propshaft
vibration modes—bending, shell, and torsion—already
existed. ’911 patent, col. 1, l. 53-col. 2, l. 38. But these
prior art damping methods were assertedly not suitable
for attenuating two vibration modes simultaneously. See
id. Thus, the patent identified “a need in the art for an
improved method for damping various types of vibrations
in a hollow shaft” that “facilitates the damping of shell
mode vibration as well as the damping of bending mode
vibration” simultaneously. Id. col. 2, ll. 39-43. AAM
argues that the inventive concept to which these claims
are directed is the tuning of a liner in order to produce
frequencies that dampen both the shell mode and bending
mode vibrations simultaneously.
AAM urges both that it “conceiv[ed] of the novel
and unconventional concept of ‘tuning’ a liner,” and
that it conceived of a tuned liner that “unlike previous
dampers and absorbers . . . [can] dampen multiple types of
vibration” simultaneously. AAM Op. Br. 13. AAM explains
that “particular liners that are specifically tuned to match
and damp multiple vibration modes and are utilized to
manufacture improved propshafts . . . w[ere] entirely

91a
Appendix C
new and far from well-understood” at the time of the
’911 patent. AAM Op. Br. 27. Neither the claims nor the
specification describes how to achieve such tuning. The
specification also discloses a solitary example describing
the structure of a tuned liner, but does not discuss the
process by which that liner was tuned. ’911 patent, col.
8, ll. 4-23.
II
AAM sued Neapco on December 18, 2015, alleging
infringement of the ’911 patent. The parties filed crossmotions for summary judgment as to patent eligibility
under § 101. On February 27, 2018, the district court
granted Neapco’s motion for summary judgment, and
denied AAM’s cross-motion, holding that the asserted
claims of the ’911 patent were invalid because they claim
ineligible subject matter under § 101.
The district court concluded that “the Asserted Claims
as a whole are directed to laws of nature: Hooke’s law and
friction damping.” J.A. 10. The district court held that the
claims’ direction to tune a liner to attenuate to different
vibration modes amounted to merely “instruct[ing] one
to apply Hooke’s law to achieve the desired result of
attenuating certain vibration modes and frequencies”
without “provid[ing] [a] particular means of how to craft
the liner and propshaft in order to do so.” J.A. 17. Hooke’s
law is an equation that describes the relationship between
an object’s mass, its stiffness, and the frequency at which
the object vibrates. Friction damping is damping that
“occur[s] due to the resistive friction and interaction of

92a
Appendix C
two surfaces that press against each other as a source of
energy dissipation.” J.A. 1604. Because the district court
determined that the claimed “additional steps consist of
well-understood, routine, conventional activity already
engaged in by the scientific community . . . and those steps,
when viewed as a whole, add nothing significant beyond
the sum of their parts taken separately,” it concluded that
the claims were not patent eligible. J.A. 16 (quoting Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S.
66, 79-80, 132 S. Ct. 1289, 182 L. Ed. 2d 321 (2012)).
AAM appeals. We have jurisdiction under 28 U.S.C.
§ 1291. We review a district court’s grant of summary
judgement de novo, applying the same test on review
that the district court applied. Summary judgment is
appropriate where “there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). The issue of patent
eligibility under § 101 is a question of law, reviewed de
novo. In re BRCA1- and BRCA2- Based Hereditary
Cancer Test Patent Litig., 774 F.3d 755, 759 (Fed. Cir.
2014). “While patent eligibility is ultimately a question of
law,” the underlying issue of “[w]hether something is wellunderstood, routine, and conventional to a skilled artisan
at the time of the patent is a factual determination.”
Berkheimer v. HP Inc., 881 F.3d 1360, 1369 (Fed. Cir.
2018).
Discussion
Section 101 provides that “any new and useful process,
machine, manufacture, or composition of matter, or any

93a
Appendix C
new and useful improvement thereof” may be eligible to
obtain a patent. 35 U.S.C. § 101. But the Supreme Court
has long recognized that § 101 “contains an important
implicit exception: Laws of nature, natural phenomena,
and abstract ideas are not patentable.” Ass’n for Molecular
Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 589, 133
S. Ct. 2107, 186 L. Ed. 2d 124 (2013) (brackets omitted)
(quoting Mayo, 566 U.S. at 70). The Supreme Court
has stated that “without this exception, there would be
considerable danger that the grant of patents would ‘tie up’
the use of such tools and thereby ‘inhibit future innovation
premised upon them.’” Id. (quoting Mayo, 566 U.S. at 73).
Our analysis of § 101 follows the Supreme Court’s twostep test established in Mayo and Alice Corp. Pty. Ltd. v.
CLS Bank International, 573 U.S. 208, 134 S. Ct. 2347, 82
L. Ed. 2d 296, 189 L. Ed. 2d 296 (2014). At step one of the
Mayo/Alice test, we ask whether the claims are directed
to a law of nature, natural phenomenon, or abstract idea.
Alice, 573 U.S. at 217 (citing Mayo, 566 U.S. at 77). If the
claims are so directed, we then ask whether the claims
embody some “inventive concept”—i.e., whether the claims
contain “an element or combination of elements that is
‘sufficient to ensure that the patent in practice amounts
to significantly more than a patent upon the ineligible
concept itself.’” Id. at 217-18 (brackets omitted) (quoting
Mayo, 566 U.S. at 72-73).
I
To determine what the claims are “directed to” at
step one, we look to the “focus of the claimed advance.”

94a
Appendix C
See, e.g., Trading Techs Int’l, Inc. v. IBG LLC, 921 F.3d
1378, 1384 (Fed. Cir. 2019). 2 There is no legal principle
that a claim to a method of manufacturing cannot be
directed to a natural law, nor are there any cases saying
so. The ’911 patent discloses a method of manufacturing
a driveline propshaft containing a liner designed such
that its frequencies attenuate two modes of vibration
simultaneously.
The claims are directed to tuning liners—i.e.,
“controlling a mass and stiffness of at least one liner to
configure the liner to match the relevant frequency or
frequencies.” J.A. 15. As is clear from the specification
itself, most aspects of the ’911 patent were well known
in the art. It was known that driveline propshafts were
prone to bending, shell, and torsion mode vibrations. ’911
patent, col. 1, ll. 38-52. It was known that shell mode
vibrations could be damped by resistive attenuation and
that bending mode vibrations could be damped by reactive
attenuation. Id. col. 1, l. 53-col. 2, l. 38. It was also known
that a liner or weight could be designed specifically to
have a frequency that would allow it to function as either
a resistive attenuation means or as a reactive attenuation
means. Id. AAM does not dispute that these features
were known in the art. AAM agrees that the selection
2. Accord Intellectual Ventures I LLC v. Capital One Fin.
Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017); Intellectual Ventures
I LLC v. Erie Indemnity Co., 850 F.3d 1315, 1325 (Fed. Cir. 2017);
Affinity Labs of Tex., LLC v. DIRECTV, LLC, 838 F.3d 1253, 125758 (Fed. Cir. 2016); Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335 (Fed. Cir. 2016); Genetic Techs. Ltd. v. Merial LLC, 818 F.3d
1369, 1375-76 (Fed. Cir. 2016).

95a
Appendix C
of frequencies for the liners to damp the vibrations of
the propshaft at least in part involves an application of
Hooke’s law.
Hooke’s law is a natural law that mathematically
relates the mass and/or stiffness of an object to the
frequency with which that object oscillates (vibrates).
Here, both parties’ witnesses agree that Hooke’s law
undergirds the design of a liner so that it exhibits a desired
damping frequency pursuant to the claimed invention.
For example, Neapco’s expert, Dr. Becker, stated that the
tuning limitations claim “nothing more than Hooke’s law
. . . [and/or] the law of nature / natural phenomenon for
friction damping.” J.A. 1603-05. Dr. Sun, one of the named
inventors of the ’911 patent, stated in his deposition:
Q. But to change the frequency of any damper,
it comes down to basic physics, doesn’t it;
changing the mass or the stiffness of that
damper that will adjust the frequency?
A. You change a tuned liner, yeah, by adjusting
the controlling variables and to get to the
tuning that is needed.
Q. And one of those variables is stiffness,
correct?
A. Correct.
Q. And one of them is the mass, correct?
A. Yes.

96a
Appendix C
J.A. 1757 (92:15-25). AAM’s engineering manager likewise
admitted that “if [one] do[es] something to control the
stiffness [or mass]” of a liner—the variables directly
implicated by Hooke’s law—that person is “directly
controlling tuning.” J.A. 2547 (20:23-21:1). At the same
time, the patent claims do not describe a specific method
for applying Hooke’s law in this context. They simply
state that the liner should be tuned to dampen certain
vibrations. Thus, the problem is that the claims’ instruction
to tune a liner essentially amounts to the sort of directive
prohibited by the Supreme Court in Mayo—i.e. “simply
stat[ing] a law of nature while adding the words ‘apply
it.’” 566 U.S. at 72.
But AAM argues that the claims are not merely
directed to Hooke’s law. A AM points to testimony
suggesting that tuning a liner such that it attenuates
two different vibration modes is a process that involves
more than simple application of Hooke’s law. For example,
AAM’s expert, Dr. Rahn, testified that a “liner is not a
spring with a single stiffness, it is a complex, distributed
object with different stiffnesses in different directions
(e.g., shell and bending) that depend on the location of
the applied force and the measured displacement.” J.A.
1928. Dr. Rahn in numerous instances explained that
liners are different from a single spring-mass system as
they “can bounce, they can rock, they can deform, [and]
they can bend.” J.A. 2505 (137:2-4). In essence, AAM’s
argument is that the system of the invention (a driveline
propshaft and its liner) is too complex to be described by
mere application of Hooke’s law, which itself is a simple
approximation of a single-degree-of-freedom spring-

97a
Appendix C
mass system. AAM also appears to argue that liners had
not previously been used to dampen bending mode—as
opposed to shell mode—vibrations. 3
3. Contrary to the dissent at 6-7, the majority does not assert
that this point was not disputed on appeal. Although raised on
appeal, this argument by AAM was not properly raised below.
In the district court, AAM did not make this claim in arguing for
§ 101 eligibility in any of its relevant summary judgment filings—
its motion for summary judgment in its favor, its reply in support
of that motion, or its opposition to Neapco’s motion for summary
judgment. See J.A. 4330-36, 5236-37, 6094-96; see also J.A. 6194,
7049 (supplemental summary judgment briefings). Instead, in those
filings, AAM identified as an inventive concept only the idea of dualmode dampening we have identified. See J.A. 4330-36, 5236-37, 609496, 6194. Only at the oral hearing on summary judgment, after the
papers that defined the issue were complete, did AAM make this
claim—in passing in one sentence, before immediately invoking the
dual-mode dampening notion as the inventive concept. J.A. 7193-94.
And the argument is not supported by the patent specification.
While noting that certain prior art liners (“[t]hese liners” referenced
at col. 2, lines 23-38 of the ’911 patent) did not dampen bending
mode vibrations, no suggestion that prior art liners generally
did not attenuate bending mode vibrations appears in the patent
specification; and the specification notes that “the damper of the
[1963] ’406 patent appears to be a reactive damper for attenuating
bending mode vibration.” ’911 patent, col. 2, lines 13-15 (citing U.S.
Patent No. 3,075,406). The ’911 specification makes clear that this
damper is a “liner” by incorporating the ’361 patent “as if fully set
forth in its entirety.” ’911 patent, col. 6, lines 49-53. The incorporated
’361 patent states: “Various kinds of vibration dampers have been
proposed heretofore. Typical of such dampers are the liners
disclosed in U.S. Patent No[]. . . 3,075,406 . . . .” U.S. Patent No.
4,909,361, col. 1, lines 16-18. Moreover, AAM’s own testing data shows
that prior art liners did in fact dampen bending mode vibrations, as
admitted by Dr. Sun, one of the named inventors of the ’911 patent.

98a
Appendix C
The problem with AAM’s argument is that the
solution to these desired results is not claimed in the
patent. We have repeatedly held that features that are not
claimed are irrelevant as to step 1 or step 2 of the Mayo/
Alice analysis. Alice, 573 U.S. at 221 (“[W]e must examine
the elements of the claim to determine whether it contains
an ‘inventive concept.’” (emphasis added)); Synopsys, Inc.
v. Mentor Graphics Corp., 839 F.3d 1138, 1149 (Fed. Cir.
2016) (“The § 101 inquiry must focus on the language of
the Asserted Claims themselves.”); Ariosa Diagnostics,
Inc. v. Sequenom, Inc., 788 F.3d 1371, 1379 (Fed. Cir.
2015) (rejecting alleged inventive concept because it was
“not the invention claimed by the . . . patent” (emphasis
added)); see also Ariosa Diagnostics, Inc. v. Sequenom,
Inc., 809 F.3d 1282, 1286 (Fed. Cir. 2015) (Lourie, J.,
concurring) (noting that the appropriate focus is “on the
claims we have rather than those we might have had”
(emphasis added)).
The elements of the method here that AAM argues
take the patent outside the realm of ineligible subject
matter—i.e., the mechanisms for achieving the desired
result—are not actually claimed in claim 1 or claim 22 of
the patent. To be sure, as AAM indicates in its brief, the
process of tuning a liner may involve extensive computer
modelling and experimental modal analysis, a process
Patentee’s technical expert suggested that certain types of liners
have not previously been used to significantly dampen specific
modes of vibration. Yet the representative claims are not limited
to any type of liner or the dampening of specific bending modes. In
any case, it makes no difference to the section 101 analysis whether
the use of liners to attenuate bending mode vibrations was known
in the prior art.

99a
Appendix C
utilized in the prior art. But even the patent specification
recites only a nonexclusive list of variables that can be
altered to change the frequencies exhibited by a liner and
a solitary example of a tuned liner (though not the process
by which that liner was tuned).4 Most significantly, the
claims do not instruct how the variables would need to be
changed to produce the multiple frequencies required to
achieve a dual-damping result, or to tune a liner to dampen
bending mode vibrations.
The trial-and-error process for determining the
desired frequencies was well-known. AAM makes clear
in its opening brief that “methods for determining natural
frequencies and damping are well known in the art,”
including “testing for natural frequencies and damping of
propshafts by performing experimental modal analysis.”
AAM Op. Br. 8-11. While AAM may have discovered
patentable refinements of this process, such as “us[ing]
4. The patent discloses a nonexclusive list of variables related
to a liner that can be altered to change the frequencies exhibited by
the liner so that the liner attenuates certain vibration modes of the
propshaft. These variables include:
mass, length and outer diameter of the liner 204,
diameter and wall thickness of the structural portion
300, material of which the structural portion 300
was fabricated, the quantity of resilient members
302, the material of which the resilient members
302 was fabricated, the helix angle 330 and pitch 332
with which the resilient member 302 are fixed to the
structural portion 300, the configuration of the lip
member(s) 322 of the resilient member 302, and the
location of the liners 204 within the shaft member 200.
’911 patent, col. 7, l. 60-col. 8, l. 2.

100a
Appendix C
sophisticated FEA [finite element analysis] models during
its design process,” id. at 45, neither the specifics of
any novel computer modelling nor experimental modal
analysis are disclosed in the patent, much less included
in the claims themselves, and these unclaimed features
cannot function to remove claims 1 and 22 from the realm
of ineligible subject matter. See ChargePoint, 920 F.3d
at 766. This case might well be significantly different, if,
for example, specific FEA models were included in the
claims. But, the claims’ general instruction to tune a liner
amounts to no more than a directive to use one’s knowledge
of Hooke’s law, and possibly other natural laws, to engage
in an ad hoc trial-and-error process of changing the
characteristics of a liner until a desired result is achieved.
The claiming of a natural law runs headlong into the
very problem repeatedly identified by the Supreme Court
in its cases shaping our eligibility analysis. See Mayo,
566 U.S. at 71-73; Parker v. Flook, 437 U.S. 584, 590-95,
98 S. Ct. 2522, 57 L. Ed. 2d 451 (1978); Mackay Radio &
Telegraph Co. v. Radio Corp. of Am., 306 U.S. 86, 94-101,
59 S. Ct. 427, 83 L. Ed. 506, 1939 Dec. Comm’r Pat. 857
(1939); O’Reilly v. Morse, 56 U.S. (15 How.) 62, 112-17, 14
L. Ed. 601 (1854). As the Supreme Court stated in Le Roy
v. Tatham, 55 U.S. (14 How.) 156, 174-75, 14 L. Ed. 367
(1853), “[a] patent is not good for an effect, or the result of
a certain process, as that would prohibit all other persons
from making the same thing by any means whatsoever.”
The same approach is embodied by this court’s case law.5
5. See e.g., ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d
759, 769-70 (Fed. Cir. 2019) (finding claims directed to abstract
idea where broad claim language “would cover any mechanism for

101a
Appendix C
This distinction between results and means is
fundamental to the step 1 eligibility analysis, including
in law-of-nature cases, not just abstract-idea cases. See
Diamond v. Diehr, 450 U.S. 175, 191, 101 S. Ct. 1048, 67
L. Ed. 2d 155 (1981) (“We recognize, of course, that when
a claim recites a mathematical formula (or scientific
principle or phenomenon of nature), an inquiry must be
made into whether the claim is seeking patent protection
for that formula in the abstract.” (emphasis added)). In
Interval Licensing, we reiterated the importance of this
distinction in describing prior Supreme Court cases in
which inventors “lost . . . claim[s] that encompassed all
solutions for achieving a desired result” because “the
implementing network communication on a charging station” rather
than a specific way of doing so); Interval Licensing LLC v. AOL, Inc.,
896 F.3d 1335, 1345-46 (Fed. Cir. 2018) (claims ineligible “because
they consist of generic and conventional information acquisition and
organization steps that are connected to, but do not convert, the
abstract idea . . . into a particular conception of how to carry out that
concept” (emphasis added)); Electric Power Grp., LLC v. Alstom S.A.,
830 F.3d 1350, 1355-56 (Fed. Cir. 2016); see also Innovation Sci., LLC
v. Amazon.com, Inc., F. App’x , 2019 U.S. App. LEXIS 19753, 2019
WL 2762976, at *4 (Fed. Cir. 2019) (claim directed to patent ineligible
matter where it “s[ought] to capture the broad concept of switching
to a more secure server, rather than a specific way to do so”); Univ.
of Fla. Research Found., Inc. v. Gen. Elec. Co., 916 F.3d 1363, 1368
(Fed. Cir. 2019) (finding claims to be “directed to an abstract idea”
where “[n]either the ’251 patent, nor its claims, explains how the
drivers do the conversion that UFRF points to.”); Two-Way Media
Ltd. v. Comcast Cable Commc’ns, LLC, 874 F.3d 1329, 1337 (Fed.
Cir. 2017) (“The claim requires the functional results of ‘converting,’
‘routing,’ ‘controlling,’ ‘monitoring,’ and ‘accumulating records,’ but
does not sufficiently describe how to achieve these results in a nonabstract way.”).

102a
Appendix C
claims failed to recite a practical way of applying an
underlying idea . . . [and] instead were drafted in such a
result-oriented way that they amounted to encompassing
‘the principle in the abstract’ no matter how implemented.”
896 F.3d at 1343; see also Electric Power, 830 F.3d at 135556 (noting that “the essentially result-focused, functional
character of claim language has been a frequent feature of
claims held ineligible under § 101”). The same reasoning is
applicable here, notwithstanding the fact that the patent
here is directed to a natural law rather than an abstract
idea.
The Supreme Court’s analysis in Parker v. Flook
reinforces our conclusion that a claim to a natural law
concept without specifying the means of how to implement
the concept is ineligible under section 101. In Flook,
the Supreme Court considered the patent eligibility
of a method for updating alarm limits during catalytic
conversion processes. 437 U.S. at 585. The method involved
an initial step of measuring temperature, a second step of
using a formula to calculate an updated alarm-limit value,
and a final step in which the alarm limit is adjusted to the
updated value. Id. But the patent “d[id] not purport to
explain how to select . . . any of the . . . variables” involved,
nor did it “purport to contain any disclosure relating to
the chemical process at work, the monitoring of process
variables, or the means of setting off an alarm or adjusting
an alarm system.” Id. at 586, 588. The patentee argued
that the inventive part of the patent was the mathematical
formula used in the second step of the claimed method. Id.
at 588. The patentee further contended that his claimed
invention should be patent eligible because it was limited

103a
Appendix C
to a particular process and involved post-solution activity
that ensured that the patent did not “wholly preempt [use
of] the mathematical formula.” Id. at 589-90.
Nevertheless, the Court held that the patent
contained no patent-eligible invention. Id. at 594. The
Court explained that “if a claim is directed essentially
to a method of calculating, using a mathematical
formula, even if the solution is for a specific purpose,
the claimed method is nonstatutory.” Id. at 595 (quoting
In re Richman, 563 F.2d 1026, 1030 (C.C.P.A. 1977)). It
first noted that limiting the law of nature described in
the patentee’s mathematical formula to application in
a specific process did not transform the subject matter
to which the patent was directed into eligible matter.
Id. at 593. Though the Court went on to state that the
use of a mathematical formula or law of nature did not
alone make a claim patent ineligible, it explained that
what was required was “an inventive application of the
principle.” Id. at 593-94. Such an inventive application,
the Court concluded, was not present in the patented
method. The process to which the claims were directed
(catalytic conversion of hydrocarbons) was well known, as
were the use of alarm limits to trigger alarms, repeated
recalculation and readjustment of alarm-limit values, and
the use of computers for automatic monitoring-alarming.
Id. at 594. Because the Court found that the purportedly
new formula itself was only a mathematical one, which
it deemed a “principle” akin for eligibility analysis to an
existing natural relationship, id. at 589, and given that
nothing else in the patent claims exhibited more than
conventional pre- and post-solution activity, it concluded

104a
Appendix C
that the patent was directed to nonstatutory matter. Id.
at 594-95.
Diehr, on the other hand, involved a situation in
which a patent claimed a new and specific process of
molding rubber products “which incorporate[d] in it a
more efficient solution of the [Arrhenius] equation” (a
natural law). 450 U.S. at 188. Though the Supreme Court
in Diehr explained that a mathematical formula itself
was not patent eligible subject matter, it concluded that
the alleged invention claimed in that case was patent
eligible. The invention involved a new rubber-curing
process with a specific and detailed series of steps (one
of which included the use of a natural law) that limited
the possibility of preempting the natural law itself. Id. at
187-88, 191-92. In Diehr, unlike this case, “[t]hese other
steps apparently added to the formula something that in
terms of patent law’s objectives had significance—they
transformed the process into an inventive application of
the formula.” Mayo, 566 U.S. at 81 (discussing Diehr, 450
U.S. at 187). Nevertheless, the Court reaffirmed Flook’s
teaching that “[a] mathematical formula does not suddenly
become patentable subject matter simply by having the
applicant acquiesce to limiting the reach of the patent for
the formula to a particular technological use” nor through
the addition of “token postsolution activity.” Diehr, 450
U.S. at 191-92 & n.14.
Like the claims in Flook, the claims of the ’911
patent are directed to the utilization of a natural law
(here, Hooke’s law and possibly other natural laws) in a
particular context. As in Flook, where the patent did not

105a
Appendix C
disclose how variables were measured nor the means by
which the alarm system functioned, the claims here do not
disclose how target frequencies are determined or how,
using that information, liners are tuned to attenuate two
different vibration modes simultaneously. The claims here
simply instruct the reader to tune the liner—a process
that, as explained above, merely amounts to an application
of a natural law (Hooke’s law) to a complex system without
the benefit of instructions on how to do so.6 The breadth
of these claims is illustrated by AAM’s admission during
the claim construction hearing that one could infringe the
claims of the ’911 patent “[e]ven if you didn’t try to [tune]
and didn’t know you did it.” J.A. 699.
Finally, though we recognize that AAM may be
correct in its assertion that the system involved in the
’911 patent is more complex than just a bare application
of Hooke’s law, and that other laws of nature may be
relevant, that does not render the subject matter patent
eligible. What is missing is any physical structure or steps
for achieving the claimed result of damping two different
types of vibrations. The focus of the claimed advance here
6. The specification makes this much clear, as it describes
tuning in terms of the result achieved, rather than the particular
process by which the result is accomplished. For instance, the
specification states that “a liner 204 will be considered to be tuned
to a relevant frequency if it is effective in attenuating vibration at the
relevant frequency.” ’911 patent, col. 8, ll. 28-31. Later in the same
column, the patent gives an example of a “liner [that is] considered
to be tuned to a relevant shell mode frequency if it damps shell mode
vibrations by an amount that is greater than or equal to about 2%.”
Id. at col. 8, ll. 44-47. This makes clear that the concept of tuning
embodied by the patent is merely results-oriented.

106a
Appendix C
is simply the concept of achieving that result, by whatever
structures or steps happen to work.
The dissent suggests that the failure of the claims to
designate how to achieve the desired result is exclusively
an issue of enablement. Dissent Op. at 2, 11-14. Both
the Supreme Court cases and our cases addressing
section 101 have held otherwise, as the earlier discussion
demonstrates. Enablement is concerned with whether
the “the specification of a patent... teach[es] those skilled
in the art how to make and use the full scope of the
claimed invention.” In re Wright, 999 F.2d 1557, 1561
(Fed. Cir. 1993). Section 101 is concerned with whether
the claims at issue recite a natural law, not whether the
specification has adequately described how to make and
use the concretely claimed structures and steps. The
Supreme Court in Mayo made clear that section 101 serves
a different function than enablement. Mayo, 566 U.S. at
90 (“[T]o shift the patent-eligibility inquiry entirely to
these later [statutory] sections risks creating significantly
greater legal uncertainty, while assuming that those
sections can do work that they are not equipped to do.”).
Moreover, even if, as the dissent says, the specification
gives one adequately concrete embodiment, which we
need not decide, that is not enough: O’Reilly established
long ago that an inadequately concrete claim is not saved
from ineligibility by the presence of adequate concrete
recitations in the specification or in other claims. 56 U.S.
at 112-20 (holding eighth claim ineligible while upholding
first seven claims).

107a
Appendix C
II
As to Mayo/Alice step 2, nothing in the claims qualifies
as an “inventive concept” to transform the claims into
patent eligible matter. AAM contends that the claims
include numerous inventive concepts that were neither
previously known, nor conventional or routine. AAM’s
arguments in this respect essentially amount to an
assertion that prior to the ’911 patent, liners had never
been tuned to damp propshaft vibrations and, more
specifically, liners had not been used to damp two different
vibration modes simultaneously. This amounts to no more
than an elaborated articulation of its reasons as to why
the claims are not directed to a natural law (reasons we
have already rejected).
The claimed advance is simply controlling various
known characteristics of the liner so as to achieve
attenuation of two vibration modes simultaneously,
whether that is by changing the mass or thickness of the
liner, altering the location of the liner in the propshaft,
or modifying any other physical attributes that will
produce the claimed dual-attenuation. AAM admits that
it was well known “in the automotive industry [to] test
for natural frequencies and damping of propshafts by
performing experimental modal analysis.” AAM Op.
Br. 8. As explained above, this direction to engage in a
conventional, unbounded trial-and-error process does
not make a patent eligible invention, even if the desired
result to which that process is directed would be new and
unconventional.

108a
Appendix C
Nor does the direction in claim 1 to “position” the liner
within the propshaft add an inventive concept. Under the
claim language itself, and as reaffirmed by the district
court’s now-undisputed construction, positioning is not
part of tuning. And even if it were, the specification makes
clear that it was well known to position dampers in the
propshaft so as to maximize vibration damping. See, e.g.,
’911 patent, col. 1, ll. 57-60. Notably, AAM does not appear
to argue that positioning was more than conventional.
In listing alleged inventive concepts in its opening brief,
AAM does not include positioning.
The remaining steps of claims 1 and 22, like the
steps involved in the Flook patent, amount to no more
than conventional pre- and post-solution activity. As
the Supreme Court made clear in Flook, neither such
conventional additions, nor the limiting of the use of a
natural law or mathematical formula to a particular
process suffices to create patent eligibility.7
Claims 1 and 22 are not patent eligible. 8
7. AAM does not appear to argue on appeal that the numerical
limitations in claim 1 represent an inventive concept. In any event,
as explained above, these limitations describe a desired result but
do not instruct how the liner is tuned to accomplish that result.
8. To the extent that AAM’s opening summary judgment
brief as to § 101 patent eligibility can be understood to argue that
there are disputed issues of material fact as to whether the patent
discloses an inventive concept, it relies only on Dr. Rahn’s testimony
that dual-damping of bending mode and shell mode vibrations was
new and unconventional. AAM Mot. for Summary Judgment at 8-9,
American Axle & Manuf., Inc. v. Neapco Hldgs. LLC, No. 15-01168

109a
Appendix C
III
Having determined that independent claims 1 and 22
are not patent eligible under § 101, we need not separately
determine eligibility of the dependent claims. The district
court found independent claims 1 and 22 collectively
representative of all the asserted claims. AAM did not
argue before the district court that the dependent claims
change the outcome of the eligibility analysis. Nor did
AAM make such an argument in its opening brief on
appeal. Although at oral argument AAM disagreed that
claims 1 and 22 are representative of the others and
stated that it never acceded to such a finding, Oral Arg.
30:07-40, it was unable to identify any part of its opening
brief that presented such an argument and admitted that
it was “not suggesting that the other claims should come
out differently,” id. at 30:40-31:16. We therefore find any
such argument waived. See Affinity Labs, 838 F.3d at
1256 n.1 (treating certain claims as representative where
no meaningful argument made that other claims are
materially different); Electric Power, 830 F.3d at 1352.

(D. Del. Aug. 11, 2017), ECF No. 160. But as addressed in detail
above, dual-damping is merely a desired result and, without more,
is insufficient to make the ’911 patent eligible pursuant to § 101.

110a
Appendix C
Conclusion
Because we conclude that the asserted claims of the
’911 patent are directed to ineligible subject matter under
§ 101, we affirm.
AFFIRMED
Costs
No costs.

111a
Appendix C
Moore, Circuit Judge, dissenting.
The majority’s decision expands § 101 well beyond
its statutory gate-keeping function and the role of this
appellate court well beyond its authority. The majority
opinion parrots the Alice/Mayo two-part test, but reduces
it to a single inquiry: If the claims are directed to a law of
nature (even if the court cannot articulate the precise law
of nature) then the claims are ineligible and all evidence
of non-conventionality will be disregarded or just plain
ignored. The majority rejects the notion that claims which
contain an “inventive concept” survive the gatekeeper. In
the words of the majority, “it makes no difference to the
section 101 analysis whether the use of liners to attenuate
bending mode vibration was known in the prior art.” Maj.
at 13. I am deeply troubled by the majority’s disregard for
the second part of the Alice/Mayo test, its fact finding on
appeal and its repeated misrepresentation of the record, in
each instance to the patentee’s detriment; all when we are
to be applying the summary judgment standard no less.
The majority’s concern with the claims at issue has
nothing to do with a natural law and its preemption
and everything to do with concern that the claims are
not enabled. Respectfully, there is a clear and explicit
statutory section for enablement, § 112. We cannot
convert § 101 into a panacea for every concern we have
over an invention’s patentability, especially where the
patent statute expressly addresses the other conditions of
patentability and where the defendant has not challenged
them.

112a
Appendix C
The district court held that the claims at issue are
ineligible under § 101 because they are directed to a
natural law, specifically, “applications of Hooke’s law with
the result of friction damping.” J.A. 11. Even the majority
does not agree with the district court that the claims are
directed to Hooke’s Law. Instead the majority concludes
that the claims are ineligible because they are “directed
to the utilization of a natural law (here, Hooke’s law and
possibly other natural laws) in a particular context.” Maj.
at 19; see also Maj. at 20 (“though we recognize that AAM
may be correct in its assertion that the system involved in
the ’911 patent is more complex than just a bare application
of Hooke’s law, and that other laws of nature may be
relevant, that does not render the subject matter patent
eligible”). Section 101 is monstrous enough, it cannot be
that now you need not even identify the precise natural
law which the claims are purportedly directed to. The
“focus of the claimed advance,” as repeatedly alleged by
the patentee, is to use liners (a physical liner) positioned
inside a drive shaft to reduce shell mode vibration and
bending mode vibration. The claims at issue are directed
to methods of manufacturing shaft assemblies for
driveline systems for automotive vehicles using liners to
reduce specific types of vibration. See ’911 Patent Claims.
Claim 1, for instance, recites:
A method for manufacturing a shaft assembly of
a driveline system, the driveline system further
including a first driveline component and a
second driveline component, the shaft assembly
being adapted to transmit torque between
the first driveline component and the second
driveline component, the method comprising:

113a
Appendix C
providing a hollow shaft member;
tuning at least one liner to attenuate at
least two types of vibration transmitted
through the shaft member; and
positioning the at least one liner
within the shaft member such that the
at least one liner is configured to damp
shell mode vibrations in the shaft
member by an amount that is greater
than or equal to about 2%, and the at
least one liner is also configured to
damp bending mode vibrations in the
shaft member, the at least one liner
being tuned to within about ±20% of
a bending mode natural frequency of
the shaft assembly as installed in the
driveline system.
As the patentee argues, the dependent claims further
narrow the physical characteristics of the liners to be
used and their positioning within the drive shaft: “Several
dependent claims, for example, recite particular liner
materials (e.g., cardboard or paperboard) and structures
(helically-wrapped resilient member). . . . claims 12, 13, 19,
26, 27, 31.” Appellant’s Reply Br. at 27.1 I do not see how
1. I do not agree with the majority’s conclusion that claims 1
and 22 are representative. First, Neapco never argued that claims
1 and 22 should be representative and in fact argued the dependent
claims separately. See Dkt. 150 (Neapco’s Mot. for Summ. J.) at 3233. Second, AAM expressly argued that they are not representative.

114a
Appendix C
these claims are directed to a natural law. And even if part
one of the Alice/Mayo test was satisfied here, there is a
part two. The claims will not be held ineligible (remember
§ 101 is meant to be a gatekeeper) if the claims contain
an “inventive concept.” There are many here, articulated
in the claims themselves, about which there exist at least
questions of fact which should have precluded summary
judgment. Argued below, and throughout the briefing
on appeal and during oral argument to this panel, the
patentee maintains that liners had never before been
used to reduce bending mode vibration. See Appellant’s
Br. at 12, 25-26, 27, 35, 57-60, 63, and 65 n.5; Appellant’s
Reply Br. at 2, 15 (“Prior art liners were used to provide
general broadband damping of shell mode vibrations, but
liners were not used to dampen bending mode vibrations
prior to the claimed invention.”), 19 (“It was inventive
to use a liner to damp bending mode vibrations”), 24-25,
and 29. The argument that liners were never before used
AAM’s statement that the dependent claims should not come out
differently does nothing more than confirm that it believes all of the
claims are patent-eligible. Third, the majority inaccurately states
the patentee did not argue limitations of the dependent claims.
AAM’s briefs provide multiple references to the type of material and
other limitations found only in the dependent claims as providing
the inventive concepts which are not routine or conventional. See,
e.g., Appellant’s Br. at 13-14, 36, 57-58, and 64-65. Merely by way
of example, dependent claim 31 limits the material for the liner to
cardboard among others. AAM claimed using a “cardboard liner to
reduce bending mode vibrations” was an “inventive concept” and
not “conventional or routine.” Id. at 57-58. It is inappropriate in
light of these facts for the majority to sua sponte declare the claims
representative and ignore the expressly argued dependent claims
and limitations.

115a
Appendix C
to attenuate bending mode vibrations was AAM’s first
and one of its strongest non-conventionality arguments.
AAM’s opening brief set this forth on the very first page
of its step-two argument:
1. The Claims Contain Inventive Concepts and Are
Not Conventional or Routine
***
[T]he asserted claims include at least the following
inventive concepts:
• using a cardboard liner to reduce bending
mode vibrations;
• using a cardboard liner to reduce bending
and shell mode vibrations;
• tuning a cardboard liner by controlling its
characteristics;
• controlling the characteristics of a cardboard
liner such that it matches and damps
bending mode vibrations;
• controlling the characteristics of a cardboard
liner such that it damps bending mode
vibrations by oscillating in opposition to a
specific propshaft bending mode frequency;
and

116a
Appendix C
controlling the cha racter istics of a
cardboard liner such that it matches and
damps vibration of multiple different types
of propshaft vibration, e.g., both bending
and shell mode vibrations.
Appellant’s Br. at 57-58.
The majority rejects this “inventive concept” in its
§ 101 analysis, first as inaccurate (a fact finding made by
the majority on appeal and contrary to all the evidence
of record) and second as irrelevant. Let’s begin with the
majority’s claim that the patent itself discloses the use of
liners to reduce bending mode vibration: “According to
the ’911 patent’s specification, prior art liners, weights,
and dampers that were designed to individually attenuate
each of the three propshaft vibration modes—bending,
shell and torsion—already existed.” Maj. at 6. And again,
citing the patent, the majority claims, “It was also known
that a liner or weight could be designed specifically to
have a frequency that would allow it to function as either
a resistive attenuation means [shell mode vibration] or as
a reactive attenuation means [bending mode vibration].
AAM does not dispute that these features were known in
the art.” Maj. at 10. These statements are false.
The patent admits that liners had been used to reduce
shell mode vibration. ’911 patent at 2:23-36. It then states:
“These liners, however, do not appear to be suitable for
bending mode vibration or torsion mode vibration.” Id. at
2:36-38. The patent discloses prior use of plugs, weights,
and dampers to attenuate bending mode vibrations,

117a
Appendix C
but stresses that liners were not suitable. The patentee
explained that before the ’911 patent, liners were not used,
car manufacturers shoved masses of wadded up cardboard
into the propshaft to reduce bending vibrations. Oral
Arg. 6:46-7:11. More than a dozen times in the briefs and
during oral argument the patentee argued that the use
of liners to attenuate bending mode vibration was one of
its inventive concepts. Without regard for the arguments
made, the majority declares “AAM does not dispute that
these features were known in the art.” Maj. at 10. Yes, it
certainly did dispute this more than a dozen times. 2 In
fact, AAM’s counsel corrected the court when a member
2. In a footnote, the majority suggests that while the patentee
made the argument throughout its briefing and argument on appeal,
it was not properly raised below. Maj. at 12 n.3. There is no doubt
the district court understood the argument as having been made
and Neapco did not argue otherwise:
THE COURT: “So what is it that is not conventional in
the claims other than the application of Hooke’s law?
MR. NUTTALL: Tuning a liner to target a specific
bending mode was new and different and nobody
thought you could do that or should do that before,
much less coupling that with also being tuned to a
shell mode vibration.”
The majority stops short of saying that it deems the argument
waived, and in fact then decides the fact question which was
disputed in the briefs before us by the parties. The majority likely
does not find the argument waived because Neapco never alleges
it was waived and it is axiomatic that one can waive waiver. See,
e.g., Norwood v. Vance, 591 F.3d 1062, 1068 (9th Cir. 2010) (It is
“well-established” that a party can “‘waive waiver’ implicitly by
failing to assert it.”).

118a
Appendix C
of the majority tried to suggest that liners to attenuate
bending mode were known in the prior art:
Judge: “None of that is new, there were liners,
there were changes to the liners to make them
dampen, right? That was not new.”
AAM: “The liners had never been used to damp
bending mode.”
Oral Arg. 6:46-49. Even Neapco acknowledged that the
patent states that liners had not been used to attenuate
bending mode vibrations. See Appellee’s Br. at 8. Neapco
never disputed the patentee’s claim that liners had never
been used to dampen bending mode vibration. It matters
not at all to the majority that the patentee alleges that
liners had not been used to reduce bending mode vibration,
and that Neapco presented no argument or evidence to
contradict that. The majority has decided to make its
own fact finding that prior art liners had been used.
The majority finds that U.S. Patent No. 3,075,406, never
introduced as evidence in this case or cited by either
party, which discloses a rigid cylindrical metal bar with
two circular ends resembling a metal dumbbell—is a
liner. Thus, according to the majority, there is at least one
liner in a single prior art patent which was used to reduce
bending mode. This is a fact question, nobody argued
it, and reasonable minds could disagree over whether
a dumbbell is a liner. Moreover, a disclosure in a single
patent does not establish that the use of liners to attenuate
bending mode vibration was “well-understood, routine,
conventional activity” as required by the Supreme Court.

119a
Appendix C
Doubling down, the majority then claims that the
patentee’s own testing proved that prior art liners “did in
fact dampen bending mode vibrations.” Maj. at 13. I fail to
see how the patentee’s invention that liners could be used,
the very invention for which they have obtained patent
protection, supports the majority’s finding that liners were
known in the prior art to be used to reduce bending mode
vibration. To be clear, there is no record evidence that liners
had been used to dampen bending mode vibration much less
that the use of liners to dampen bending mode vibration was
routine and conventional. The patentee argued throughout
that one of the inventive concepts present in every single
claim of the patent was the novel use of liners to reduce
bending mode vibration. Ultimately, the majority says the
inventive concept “makes no difference to the section 101
analysis.” Maj. at 13. I understand this to be an outright
rejection of the second step of the Alice/Mayo test. The
majority explains: “Section 101 is concerned with whether
the claims at issue recite a natural law, not whether the
specification has adequately described how to make and
use the concretely claimed structures and steps.” Maj. at
21. This statement of law is just plain wrong. Missing is any
recognition that the Alice/Mayo test is a two-part test and
that the second step has meaning. The concretely claimed
structures and steps, as in these claims, are exactly what
can move the claim from ineligible to eligible by virtue of
step 1 or step 2.
There are additional alleged “inventive concepts”
which I will briefly mention. The claims include limitations
which get progressively more detailed about the structure
and positioning of the liner inside the drive shaft. The

120a
Appendix C
patentee argues throughout that the position of the liner
inside the shaft (an express claim element) is one of the
characteristics to be controlled in attenuating bending
mode vibration. See Appellant’s Br. at 14, 36, 42, and
65. The patentee alleges throughout that the concept of
tuning a liner, i.e. controlling the characteristics of a liner
to dampen vibration of any given system is an inventive
concept. See id. at 27-28, and 57-67; Appellant’s Reply
Br. at 2, 16, and 18-29. The particular characteristics of
the tuned liner will depend on the characteristics of the
drive shaft it is being used in (for example the natural
frequencies, which are inherent properties of each shaft). 3
See ’911 patent at 7:44-55; Appellant’s Br. at 4, 6, 46, and
53.
The majority claims: “What is missing is any physical
structure or steps for achieving the claimed result of
damping two different types of vibration. The focus of the
claimed advance here is simply the concept of achieving
that result, by whatever structures or steps happen to
work.” Maj. at 20. The “focus of the claimed advance,”
as repeatedly alleged by the patentee and as expressly
claimed, is to insert a liner (a concretely identified physical
liner) inside a drive shaft to reduce shell mode vibration
and bending mode vibration. See, e.g., claims 1 & 22. The
dependent claim limitations further narrow this “identified
3. And the ’911 patent’s specification explains how to tune
liners to attenuate those vibrations. For example, the specification
explains that different characteristics of the liners are controlled
corresponding to the structure of the propshaft. ’911 patent at 7:568:43. It even provides a particular example of tuned liners for use in
a propshaft with specific dimensions. Id. at 8:2-23.

121a
Appendix C
physical structure.” Claims limit the material from which
the liner can be made, for example, cardboard. See claims
19 & 31. Other claims limit the physical structure of the
liner itself. It can extend helically (claims 13 & 27) or
longitudinally (claims 14 & 28) or circumferentially (claims
15 & 29). The liner includes a “plurality of fingers” (claims
18 & 33). And the claims limit where the liner can be placed
within the shaft. Claim 20 for example requires the liner
to be positioned within the shaft symmetrically about
a bending anti-node. It is remarkable that the majority
thinks that claims with all of these very physical, very
concrete, very structural limitations are nonetheless
“missing any physical structure or steps.” It is not, as the
majority claims, “whatever structures or steps happen to
work.” Maj. at 20. It is a physical liner positioned inside
the shaft.
The tuned liner element is the crux of what bothers
the majority in this case. The majority’s true concern
with these claims is not that they are directed to Hooke’s
Law (because this is clearly a much more complex system
not limited to varying mass and stiffness), but rather the
patentee has not claimed precisely how to tune a liner to
dampen both bending and shell mode vibrations. As the
following quotes from the majority demonstrate, their
problem with these claims is not one of eligibility, but
rather one of enablement:
• “Most significantly, the claims do not
instruct how the variables would need to be
changed to produce the multiple frequencies
required to achieve a dual-damping result.”
Maj. at 14-15.

122a
Appendix C
• “[T]he claims’ general instruction to tune
a liner amounts to no more than a directive
to use one’s knowledge of Hooke’s law, and
possibly other natural laws, to engage in an
ad hoc trial-and-error process of changing
the characteristics of a liner until a desired
result is achieved.” Maj. at 15.
• “The claims here simply instruct the reader
to tune the liner . . . without the benefit of
instructions on how to do so.” Maj. at 19-20.
• “The problem is it really doesn’t tell you
how to do it, right? It says ‘do tuning,’ but it
doesn’t tell you how to do the tuning.” Oral
Arg. at 1:35-42 (Judge).
• “Looking at this patent, you couldn’t tell how
to do it. Someone skilled in the art wouldn’t
know how to do it. You would need additional
information, right?” Oral Arg. at 2:09-2:16
(Judge).
• “That is just a statement of the result, it
doesn’t tell you how to do it . . . it doesn’t
tell you how to change the variables, right?”
Oral Arg. at 5:50-6:15 (Judge).
• “Basically it is done by trial-and-error. You
start with a computer program and then
you do trial and error to come to the correct
result, right?” Oral Arg. at 12:04-11 (Judge).

123a
Appendix C
• “The real question here is do we have
anything more than a result? Even if you
use all of these different variables, it doesn’t
really tell you how to use the variables. And
that’s the problem.” Oral Arg. at 21:40-22:20
(Judge).
• “The more variables there are, the more
difficult it is to know how to do it, and the
more guidance that’s needed, and there is
none as to the use of all these variables other
than just use a lot of variables and figure it
out.” Oral Arg. at 27:10-23 (Judge).
• “The claims themselves don’t even provide
you with a list of variables, there are a lot of
different variables, done by trial and error,
and all the claims are telling you is here is
a desirable result and use trial and error to
get there.” Oral Arg. at 29:20-36 (Judge).
• “At least what I am listening for, and I have
been focused on throughout this is . . . is
it only make and place a liner so that two
damping effects occur, you figure out how?
That seems to me kind of the question that
we are struggling with.” Oral Arg. at 35:1738 (Judge).
“[T]o be enabling, the specification of a patent
must teach those skilled in the art how to make and use
the full scope of the claimed invention without ‘undue

124a
Appendix C
experimentation.’” See Genentech, Inc. v. Novo Nordisk
A/S, 108 F.3d 1361, 1365 (Fed. Cir. 1997). There is undue
experimentation when “the trial and error required
to practice the claimed invention could be unduly
laborious.” Old Town Canoe Co. v. Confluence Holdings
Corp., 448 F.3d 1309, 1320 (Fed. Cir. 2006). And whether
undue experimentation is required is a question of fact.
Transocean Offshore Deepwater Drilling, Inc. v. Maersk
Contractors USA, Inc., 617 F.3d 1296, 1305 (Fed. Cir.
2010). The majority faults the ’911 patent because the
claims themselves fail to describe “how to achieve such
tuning.” Maj. at 7. The majority concludes, apparently de
novo, that too much “trial and error” would be required to
determine how to tune a particular liner to the frequencies
associated with a given propshaft. The majority advises
that if the claims had themselves mentioned using
computer modeling to determine how to tune the liner, it
may have made all the difference. Yet, earlier the majority
explains that such computer modeling and experimental
modal analysis was already used in the prior art. How
does adding a limitation to the claims to “use a computer
program to figure out how to tune the liners” alleviate
the majority’s concern that these claims are directed
to a natural law? Surely, this is the first time adding
software to a claim would make it eligible. The majority
acknowledges that there is a very specific example given
in the patent with precise dimensions, weights, lengths,
materials, positioning, etc. See ’911 patent at 8:2-23.
Whether this disclosure combined with the knowledge of
a skilled artisan would permit that skilled artisan to tune
a liner to a given propshaft in order to reduce bending
mode vibrations without undue experimentation is exactly

125a
Appendix C
and precisely the enablement test pursuant to § 112. A
patentee’s failure to enable his invention renders the
claims invalid under § 112, it does not, however, render
the claims ineligible under § 101. The ’911 patent claims
include a concretely identified physical structure—a
liner inserted inside the propshaft—to reduce vibrations.
According to the majority, it is not enough that a skilled
artisan reading the specification would know how to tune a
liner to the frequency of any given propshaft—the claims
themselves must recite these steps. To be clear, according
to the majority, even if these claims are enabled, they are
still ineligible because the claims themselves didn’t teach
how. This is now the law of § 101. The hydra has grown
another head.
Today, the majority concludes that the ’911 patent
claims are not eligible because they do not teach a
skilled artisan how to tune a liner. The majority holds
that they are directed to some unarticulated number of
possible natural laws apparently smushed together and
thus ineligible under § 101. The majority concludes that
the inventive concepts “make no difference.” Section 101
simply should not be this sweeping and this manipulatable.
It should not be used to invalidate claims under standards
identical to those clearly articulated in other statutory
sections, but not argued by the parties. It should not
subsume § 112. It should not convert traditional questions
of fact (like undue experimentation) into legal ones. The
majority’s validity goulash is troubling and inconsistent
with the patent statute and precedent. The majority
worries about result-oriented claiming; I am worried
about result-oriented judicial action. I dissent.

126a
Appendix d — Appendix
OPINIONDOF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF DELAWARE, DATED FEBRUARY 27, 2018
United States District Court
for the District of Delaware
C.A. No. 15-1168-LPS
AMERICAN AXLE & MANUFACTURING, INC.,
Plaintiff,
v.
NEAPCO HOLDINGS LLC
and NEAPCO DRIVELINES LLC,
Defendants.
MEMORANDUM OPINION
STARK, U.S. District Judge:
Pending before the Court in this patent infringement
action are the following motions:
(i) Plaintiff American Axle & Manufacturing, Inc.’s
(“AAM” or “Plaintiff”) Motion for Summary Judgment of
Infringement (D.I. 155; see also D.I. 206);
(ii) AAM’s Motion for Summary Judgment of No
Invalidity Pursuant to 35 U.S.C. §§ 101 and 102 (as to the
Laskey Reference) (D.I. 159; see also D.I. 206);

127a
Appendix D
(iii) AA M’s Motion to Exclude Portions of the
Testimony of Neapco’s Technical Expert, Steven Becker,
and Neapco’s Damages Expert, Michael Chase (D.1. 157;
see also D.I. 206);
(iv) Defendants Neapco Holdings LLC and Neapco
Drivelines LLC’s (collectively,’ “Neapco” or “Defendants”)
Motion for Summary Judgment of Invalidity and/or NonInfringement (D.I. 149);
(v) Neapco’s Supplemental Motion for Summary
Judgment of Invalidity and/or Non-Infringement as to
the New Claims (D.I. 207); and
(vi) Neapco’s Motion to Preclude Certain Expert
Testimony and Evidence (D.I. 208).
I.

BACKGROUND

AAM filed suit against Neapco on December 18, 2015,
alleging infringement of U.S. Patent Nos. 7,774,911 (the
“’911 patent”), 8,176,613 (the “’613 patent”), and 8,528,180
(the “’180 patent”). (See D.I. 1) The pending motions are
principally (if not entirely) addressed to the ’911 patent.
The ’911 patent “generally relates to shaft assemblies
for transmitting rotary power in a driveline and more
particularly to a method for attenuating driveline
vibrations transmitted through a shaft assembly.”
(’911 patent col. 1:4-7) The reason for attenuating such
vibrations is to reduce the tonal noise that can be heard
by occupants in the vehicle as a result of the vibrations.

128a
Appendix D
(See id. col. 1:8-23) “Modern automotive propshafts
are commonly formed of relatively thin-walled steel or
aluminum tubing and as such, can be receptive to various
driveline excitation sources,” which “can typically cause
the propshaft to vibrate in a bending (lateral) mode, a
torsion mode and a shell mode.” (Id. col. 1:39-44) Several
techniques existed in the prior art “to attenuate vibrations
in propshafts including the use of weights and liners.” (Id.
col. 1:53-54) However, many of the prior art liners only
attenuate shell mode vibrations and not also bending or
torsion mode vibrations. (See id. col. 2:34-38) The ’911
patent purports to provide “an improved method for
damping various types of vibrations in a hollow shaft,”
which facilitates the damping of shell mode vibration
as well as bending mode vibration and/or torsion mode
vibration. (Id. col. 2:40-43)
On April 7, 2017, the Court issued its Claim Construction
Opinion (D.I. 113), which found certain claims of the ’911
patent indefinite.
On August 11, 2017, the parties filed motions with
respect to the claims that remained asserted after the
Court’s Claim Construction Opinion. In particular, the
motions were directed to ’911 patent claims 22-24, 26, 27,
31, and 34-36 (the “Original Claims”). (D.I. 149, 155, 157,
159) The parties completed briefing on their initial motions
on September 15, 2017.
In the meantime, on September 6, 2017, the Court
granted AA M’s motion for reconsideration of the
Claim Construction Opinion, finding that new evidence

129a
Appendix D
demonstrated that Defendants had failed to prove that
any of the claims of the ’911 patent were indefinite.
(D.I. 180) The Court then ordered the parties to submit
supplemental briefing to address how the pending
motions might apply to the claims that had been initially
invalidated as indefinite, but were now newly-revived in
the case. In particular, the supplemental briefing relates
to claims 1-6, 12, 13, and 19-21 of the ’911 patent (the
“New Claims,” and collectively with the Original Claims,
the “Asserted Claims”). (D.I. 188) The parties submitted
supplemental briefs and motions on December 1, 2017 and
responsive briefs on December 18, 2017.
Collectively, the parties filed a total of 287 pages of
briefing in relation to their many motions. The Court heard
oral argument on January 18, 2018. (D.I. 217 “(“Tr.”))
Independent claim 22 is representative of the Original
Claims and reads:
A method for manufacturing a shaft assembly of
a driveline system, the driveline system further
including a first driveline component and a
second driveline component, the shaft assembly
being adapted to transmit torque between
the first driveline component and the second
driveline component, the method comprising:
providing a hollow shaft member;
tuning a mass and a stiffness of at least one
liner; and

130a
Appendix D
inserting the at least one liner into the shaft
member;
wherein the at least one liner is a tuned resistive
absorber for attenuating shell mode vibrations
and wherein the at least one liner is a tuned
reactive absorber for attenuating bending mode
vibrations.
Independent claim 1 is representative of the New
Claims and reads:
A method for manufacturing a shaft assembly of
a driveline system, the driveline system further
including a first driveline component and a
second driveline component, the shaft assembly
being adapted to transmit torque between
the first driveline component and the second
driveline component, the method comprising:
providing a hollow shaft member;
tuning at least one liner to attenuate at least
two types of vibration transmitted through the
shaft member; and
positioning the at least one liner within the
shaft member such that the at least one liner
is configured to damp shell mode vibrations in
the shaft member by an amount that is greater
than or equal to about 2%, and the at least one
liner is also configured to damp bending mode

131a
Appendix D
vibrations in the shaft member, the at least
one liner being tuned to within about ±20% of
a bending mode natural frequency of the shaft
assembly as installed in the driveline system.
II. LEGAL STANDARDS
Under Rule 56(a) of the Federal Rules of Civil
Procedure, “[t]he court shall grant summary judgment if
the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law.” The moving party bears the burden of
demonstrating the absence of a genuine issue of material
fact See Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio
Corp., 475 U.S. 574, 585-86, 106 S. Ct. 1348, 89 L. Ed.
2d 538 (1986). An assertion that a fact cannot be — or,
alternatively, is — genuinely disputed must be supported
either by “citing to particular parts of materials in the
record, including depositions, documents, electronically
stored information, affidavits or declarations, stipulations
(including those made for purposes of the motion only),
admissions, interrogatory answers, or other materials,”
or by “showing that the materials cited do not establish
the absence or presence of a genuine dispute, or that an
adverse party cannot produce admissible evidence to
support the fact.” Fed. R. Civ. P. 56(c)(1)(A) & (B). If the
moving party has carried its burden, the nonrnovant must
then “come forward with specific facts showing that there
is a genuine issue for trial.” Matsushita, 475 U.S. at 587
(internal quotation marks omitted). The Court will “draw
all reasonable inferences in favor of the nonmoving party,
and it may not make credibility determinations or weigh

132a
Appendix D
the evidence.” Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133, 150, 120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000).
To defeat a motion for summary judgment, the
nonmoving party must “do more than simply show that
there is some metaphysical doubt as to the material facts.”
Matsushita, 475 U.S. at 586; see also Podobnik v. US.
Postal Serv., 409 F.3d 584, 594 (3d Cir. 2005) (stating party
opposing summary judgment “must present more than
just bare assertions, conclusory allegations or suspicions
to show the existence of a genuine issue”) (internal
quotation marks omitted). The “mere existence of some
alleged factual dispute between the parties will not defeat
an otherwise properly supported motion for summary
judgment;” a factual dispute is genuine only where “the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48, 106 S. Ct. 2505, 91 L.
Ed. 2d 202 (1986). “If the evidence is merely colorable, or
is not significantly probative, summary judgment may be
granted.” Id. at 249-50 (internal citations omitted); see
also Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct.
2548, 91 L. Ed. 2d 265 (1986) (stating entry of summary
judgment is mandated “against a party who fails to
make a showing sufficient to establish the existence of an
element essential to that party’s case, and on which that
party will bear the burden of proof at trial”). Thus, the
“mere existence of a scintilla of evidence” in support of
the nonmoving party’s position is insufficient to defeat a
motion for summary judgment; there must be “evidence on
which the jury could reasonably find” for the nonmoving
party. Anderson, 477 U.S. at 252.

133a
Appendix D
III.	DISCUSSION
As explained below, the Court has determined that
the Asserted Claims are not directed to patentable subject
matter. Therefore, the Court will rule only on the motions
implicating 35 U.S.C. § 101. The Court will deny as moot
all other motions that address only the ’911 patent—the
motions relating to infringement and invalidity of the
Asserted Claims of the ’911 patent — and will defer ruling
on the remaining motions until after conferring with the
parties on how the case should now proceed.1
A.

Section 101: Applicable Law

The parties have filed cross-motions for summary
judgment on the issue of patent eligibility under 35 U.S.C.
§ 101. (See D.I. 149, 159) The Court will address both
motions together.
Under 35 U.S.C. § 101, “[w]hoever invents or discovers
any new and useful process, machine, manufacture, or
composition of matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject to the
conditions and requirements of this title.” There are three
1. At the hearing, Neapco advised the Court they did not
think the Court would need to resolve infringement issues if it
determined the patent is not eligible for patentability. (See Tr. at
54) While AAM stated it preferred the Court to rule on all the
issues before it, AAM recognized that the Court could exercise its
discretion on this matter. (See id. at 74) It appears that the only
motion that may arguably remain ripe is AAM’s motion to preclude
Neapco’s damages expert, Mr. Chase. (D.I. 157)

134a
Appendix D
exceptions to § 101’s broad patent-eligibility principles:
“laws of nature, physical phenomena, and abstract ideas.”
Diamond v. Chakrabarty, 447 U.S. 303, 309, 100 S. Ct.
2204, 65 L. Ed. 2d 144 (1980). “Whether a claim recites
patent eligible subject matter is a question of law which
may contain disputes over underlying facts.” Berkheimer
v. HP Inc., 881 F.3d 1360, 2018 WL 774096, at *6 (Fed.
Cir. Feb. 8, 2018).
In Mayo Collaborative Services v. Prometheus
Laboratories, Inc., 566 U.S. 66, 132 S. Ct. 1289, 182 L.
Ed. 2d 321 (2012), the Supreme Court set out a two-step
“framework for distinguishing patents that claim laws of
nature, natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those concepts.”
Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct. 2347,
2355, 82 L. Ed. 2d 296, 189 L. Ed. 2d 296 (2014). First,
courts must determine if the claims at issue are directed
to a patent-ineligible concept (“step one”). See id. If so,
the next step is to look for an “inventive concept’ — i.e.,
an element or combination of elements that is sufficient to
ensure that the patent in practice amounts to significantly
more than a patent upon the [ineligible concept] itself”
(“step two”). Id. The two steps are “plainly related” and
“involve overlapping scrutiny of the content of the claims.”
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353
(Fed. Cir. 2016).
At step one, “the claims are considered in their
entirety to ascertain whether their character as a whole
is directed to excluded subject matter.” Internet Patents
Corp. v. Active Network, Inc., 790 F.3d 1343, 1346 (Fed.

135a
Appendix D
Cir. 2015) (emphasis added); see also Affinity Labs of
Texas, LLC v. DIRECTV, LLC, 838 F.3d 1253, 1257
(Fed. Cir. 2016) (stating first step “calls upon us to look
at the ‘focus of the claimed advance over the prior art’ to
determine if the claim’s ‘character as a whole’ is directed
to excluded subject matter”).
Courts should not “oversimplif[y]” key inventive
concepts or “downplay” an invention’s benefits in
conducting a step one analysis. See Enfish, LLC v.
Microsoft Corp., 822 F.3d 1327, 1337-38 (Fed. Cir. 2016);
see also McRO, Inc. v. Bandai Namco Games Am. Inc.,
837 F.3d 1299, 1313 (Fed. Cir. Sept. 13, 2016) (“[C]ourts
‘must be careful to avoid oversimplifying the claims’ by
looking at them generally and failing to account for the
specific requirements of the claims.”) (quoting In re TLI
Commc’ns LLC Patent Litig., 823 F.3d 607, 611 (Fed.
Cir. 2016)). “Whether at step one or step two of the Alice
test, in determining the patentability of a method, a court
must look to the claims as an ordered combination, without
ignoring the requirements of the individual steps.” McRO,
837 F.3d at 1313.
At step two, courts must “look to both the claim as
a whole and the individual claim elements to determine
whether the claims contain an element or combination
of elements that is sufficient to ensure that the patent in
practice amounts to significantly more than a patent upon
the ineligible concept itself.” Id. at 1312 (internal brackets
and quotation marks omitted). The “standard” step two
inquiry includes consideration of whether claim elements
“simply recite ‘well-understood, routine, conventional

136a
Appendix D
activit[ies].’“ Bascom Glob. Internet Servs., Inc. v. AT&T
Mobility LLC, 827 F.3d 1341, 1350 (Fed. Cir. 2016) (quoting
Alice, 134 S. Ct. at 2359). “Simply appending conventional
steps, specified at a high level of generality, [is] not enough
to supply an inventive concept.” Alice, 134 S. Ct. at 2357
(internal quotation marks omitted) (emphasis in original).
However, “[t]he inventive concept inquiry requires
more than recognizing that each claim element, by itself,
was known in the art.” Bascom, 827 F.3d at 1350. In
Bascom, the Federal Circuit held that “the limitations of
the claims, taken individually, recite generic computer,
network and Internet components, none of which is
inventive by itself,” but nonetheless determined that an
ordered combination of these limitations was patenteligible under step two. Id. at 1349. The Federal Circuit
has looked to the claims as well as the specification in
performing the “inventive concept” inquiry. See Affinity
Labs of Texas, LLC v. Amazon.com Inc., 838 F.3d 1266,
1271 (Fed. Cir. 2016) (“[N]either the claim nor the
specification reveals any concrete way of employing a
customized user interface.”).
The Federal Circuit recently elaborated on the step
two standard, stating that “[t]he question of whether
a claim element or combination of elements is wellunderstood, routine and conventional to a skilled artisan
in the relevant field is a question of fact. Any fact, such
as this one, that is pertinent to the invalidity conclusion
must be proven by clear and convincing evidence.”
Berkheimer, 881 F.3d 1360, 2018 WL 774096, at *5; see
also Aatrix Software, Inc. v. Green Shades Software,

137a
Appendix D
Inc., 882 F.3d 1121, 2018 U.S. App. LEXIS 3463, 2018 WL
843288, at *5 (Fed. Cir. Feb. 14, 2018) (“While the ultimate
determination of eligibility under § 101 is a question of
law, like many legal questions, there can be subsidiary
fact questions which must be resolved en route to the
ultimate legal determination.”); Automated Tracking
Sols., LLC v. Coca-Cola Co., 723 Fed. Appx. 989, 2018 U.S.
App. LEXIS 3779, 2018 WL 935455, at *5 (Fed. Cir. Feb.
16, 2018) (“We have held that ‘whether a claim element
or combination of elements is well-understood, routine
and conventional to a skilled artisan in the relevant field
is a question of fact.’“) (quoting Berkheimer, 881 F.3d
1360, 2018 WL 774096, at *5). “Whether a particular
technology is well-understood, routine, and conventional
goes beyond what was simply known in the prior art. The
mere fact that something is disclosed in a piece of prior
art, for example, does not mean it was well-understood,
routine, and conventional.” Berkheimer, 881 F.3d 1360,
2018 WL 774096, at *6. “When there is no genuine issue
of material fact regarding whether the claim element or
claimed combination is well-understood, routine, [and]
conventional to a skilled artisan in the relevant field, this
issue can be decided on summary judgment as a matter
of law.” Id.
B. Step One
With respect to step one, the issue presented is
whether the Asserted Claims as a whole are directed to
laws of nature: Hooke’s law and friction damping. AAM
does not dispute that Hooke’s law is the linear relationship
between force F and displacement x of a spring with

138a
Appendix D
stiffness k, specifically F=kx. (See D.I. 160 at 6; D.I. 160-4
at ¶ 389) AAM also does not dispute that the frequency
is affected by a change in mass m or stiffness k. (See
D.I. 150 at 29-30; D.I. 151 at 496 (inventor Sun testifying
frequency is changed by adjusting mass and stiffness);
D.I. 153 at 142 (AAM executive director testifying, “the
natural frequency is strictly a function of stiffness and
mass”); D.I. 160 at 6) Furthermore, AAM’s expert stated
that friction damping, or the reduction in friction, “is a
property of physics experienced by any two surfaces in
contact.” (D.I. 172 at 6 (quoting D.I. 160-4 at ¶ 396); see
also D.I. 150 at 30-31)
Neapco argues, “[t]he Asserted Claims do nothing
more than use a prior art liner design (e.g., cardboard
having, for certain embodiments, elastomer winding) and
apply (or just characterize) the physics behind ‘tuning’
and vibration attenuation or damping.” (D.I. 150 at 28)
Therefore, Neapco asserts, in order to “tune” the liner,
one merely applies Hooke’s law and then measures the
amount of damping. (See D.I. 150 at 29; Tr. at 53)
The Court agrees with Neapco. There is no dispute
that adjusting the mass and stiffness of the liner will
change the amount of damping of a certain frequency.
The claimed methods are applications of Hooke’s law with
the result of friction damping. (See, e.g., D.I. 151 at 496
(inventor Sun testifying that “tuning” is “basic physics”))
AAM’s arguments to the contrary are unavailing.
AAM contends that the Asserted Claims are patenteligible because they are directed to industrial processes

139a
Appendix D
for manufacturing very large automotive components,
rather than any law of nature or natural phenomenon.
(See D.I. 160 at 5; Tr. at 21 (arguing “[m]ethod of
manufacturing a prop shaft is not some law of nature”))
But the Asserted Claims do not disclose a method of
manufacturing a propshaft; instead, considered as a whole,
they are directed to the mere application of Hooke’s law,
and they fail to instruct how to design the tuned liners or
manufacture the driveline system to attenuate vibrations.
See Elec. Power, 830 F.3d at 1355-56 (discussed further in
step two). AAM’s other argument - that the tuned liners
in the propshaft make up a complex system with multiple
degrees of freedom, so Hooke’s law, which relates to “a
very simple spring and mass,” does not apply (see D.I. 160
at 6; Tr. at 22) - also fails. There is no genuine dispute of
material fact that a liner with multiple degrees of freedom
may be broken down mathematically into multiple, single
degrees of freedom, and Hooke’s law can then be applied
to each individually. (See, e.g., D.I. 151 at 512 (inventor Sun
testifying, “a tunable liner theoretically or mathematically
can be simplified as just single degree[s] of freedom[] of
mass spring systems,” and if one breaks down each of the
modes, “they’re all a combination of [] single degree[s] of
freedom[]”); D.I. 173-1 at 45 (Neapco’s expert explaining
if one has a multi-degree of freedom system, then “you’re
going to be applying Hooke’s Law in a couple of axes”))
Looking at the “focus” of the claims and their
“character as a whole,” Elec. Power, 830 F.3d at 1353,
Neapco has met its burden at step one.

140a
Appendix D
C.

Step Two

A claimed method “is not unpatentable simply because
it contains a law of nature or a mathematical algorithm.”
Diamond v. Diehr, 450 U.S. 175, 187, 101 S. Ct. 1048, 67
L. Ed. 2d 155 (1981) (internal quotation marks omitted).
In fact, it is “commonplace that an application of a law
of nature or mathematical formula to a known structure
or process may well be deserving of patent protection.”
Id. In the present case, then, it is necessary to proceed to
step two, and consider “what the claim elements add,” and
specifically whether they identify an “inventive concept.”
Elec. Power, 830 F.3d at 1353.
In Mayo, 566 U.S. at 72, the claims covered “processes
that help doctors who use thiopurine drugs to treat
patients with autoimmune diseases determine whether a
given dosage level is too low or too high” by “describing
the relationships between the concentration in the blood
of certain thiopurine metabolites and the likelihood that
the drug dosage will be ineffective or induce harmful sideeffects.” The Supreme Court held that the claims there
were not patent-eligible because they “inform a relevant
audience about certain laws of nature; any additional steps
consist of well-understood, routine, conventional activity
already engaged in by the scientific community; and those
steps, when viewed as a whole, add nothing significant
beyond the sum of their parts taken separately.” Id. at
79-80.
As in Mayo, the question before the Court is whether
the process claimed in the ’911 patent “has additional

141a
Appendix D
features that provide practical assurance that the process
is more than a drafting effort designed to monopolize the
law of nature itself.” Id. at 77. Patentees should not obtain
claims that “simply recite a law of nature and then add
the instruction ‘apply the law.’“ Id. at 77-78.
Since claims must be considered as a whole, it is
important to consider the “ordered combination” of the
method’s steps, id. at 79, because “a new combination of
steps in a process may be patentable even though all the
constituents of the combination were well known and in
common use before the combination was made,” Diehr,
450 U.S. at 188. For example, in Diehr, even though
the “process used a known mathematical equation,” the
Supreme Court “found the overall process patent eligible
because of the way the additional steps of the process
integrated the equation into the process as a whole.”
Mayo, 566 U.S. at 80. The combination of steps was not
“obvious, already in use, or purely conventional.” Id. at
81; see also Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc.,
827 F.3d 1042, 1050-51 (Fed. Cir. 2016) (finding that new
and improved claimed method of freezing and thawing
hepatocytes twice, as result of discovered phenomenon
that hepatocytes can survive multiple freeze-thaw cycles,
was patent-eligible because, even though the individual
steps were known in the art, repetition of the process was
previously taught away from).
However, adding instructions to the claimed method
that “add nothing specific to the laws of nature other
than what is well-understood, routine, conventional
activity, previously engaged in by those in the field,” is

142a
Appendix D
insufficient to constitute an inventive concept. Mayo, 566
U.S. at 82. For example, in Parker v. Flook, 437 U.S. 584,
585-86, 98 S. Ct. 2522, 57 L. Ed. 2d 451 (1978), the claim
was not patent-eligible because it simply applied a novel
mathematical algorithm to the otherwise well-known steps
of a method in a particular technological environment. See
also Mayo, 566 U.S. at 81-82 (discussing Flook). Thus,
“[t]he process itself, not merely the mathematical
algorithm, must be new and useful.” Flook, 437 U.S. at
591; see also Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371, 1377 (Fed. Cir. 2015) (“For process claims
that encompass natural phenomenon, the process steps
are the additional features that must be new and useful.”).
“[A]ppending routine, conventional steps to a natural
phenomenon, specified at a high level of generality, is not
enough to supply an inventive concept.” Ariosa, 788 F.3d
at 1378.
Here, as the ’911 patent itself explains, the method of
manufacturing a shaft assembly of a driveline system by
inserting a liner into the propshaft was well-known in the
prior art. 2 (See, e.g., ’911 patent col. 2:23-34) What AAM
claims is new – for example, in independent claim 22 – are
2. Since the hearing on these motions, the Federal Circuit
has expressly observed that the patent eligibility inquiry, which is
a question of law, may involve issues of fact. See Berkheimer, 881
F.3d 1360, 2018 WL 774096, at *6. But here the record reveals no
genuine disputes of material fact. The parties here do not dispute
that the non-tuning claim limitations are well-understood, routine,
and conventional. Nor is there any genuine dispute of material
fact that the tuning limitations are non-inventive applications
of Hooke’s law. Thus, “this issue can be decided on summary
judgment as a matter of law.” Id.

143a
Appendix D
two claim elements. First is the claim limitation “tuning a
mass and a stiffness of at least one liner,” which the Court
has construed as “controlling a mass and stiffness of at
least one liner to configure the liner to match a relevant
frequency or frequencies.” (D.I. 113 at 6) But this claim
limitation is just the application of Hooke’s law. 3 AAM
argues that this element makes the claim inventive because
“[p]rior to this invention, people used untuned liners and
just put them in the prop shaft in hopes of getting some
general damping,” whereas the claimed method requires
one “to actually target certain frequencies and modes.” (Tr.
at 23) One’s intentional act of controlling the characteristics
of a liner is not inventive, because, as Neapco explained at
oral argument, controlling the characteristics of a liner
“is just an inherent part of any design process.” (Tr. at 33)
Since Hooke’s law governs the relationship between mass,
stiffness, and frequency, the “tuning” claim limitation does
nothing more than suggest that a noise, vibration, and
harshness (“NVH”) engineer (D.I. 156 at 5) consider that
law of nature when designing propshaft liners to attenuate
driveline vibrations.
AAM argues that a second inventive concept is that
the Asserted Claims cover a dual-tuned liner to absorb
vibrations in both bending and shell modes (see Tr. at 223. The same result applies to claim 1, which has as a claim
limitation “tuning at least one liner to attenuate at least two types
of vibration transmitted through the shaft member,” which the
Court construed as “controlling characteristics of at least one liner
to configure the liner to match a relevant frequency or frequencies
to reduce at least two types of vibration transmitted through the
shaft member.” (D.I. 113 at 5)

144a
Appendix D
24), as reflected in the claim limitation “wherein the at
least one liner is a tuned resistive absorber for attenuating
shell mode vibrations and wherein the at least one liner is
a tuned reactive absorber for attenuating bending mode
vibrations.” In the Court’s view, this claim limitation is,
instead, the result that is achieved from performing the
method rather than an active step in the method.
In sum, as in Mayo, 566 U.S. at 79-80, the Asserted
Claims “inform a relevant audience [NVH engineers]
about certain laws of nature [Hooke’s law and friction
damping]; any additional steps consist of well-understood,
routine, conventional activity already engaged in by
the scientific community [inserting liners with certain
characteristics into propshafts to attenuate driveline
vibrations]; and those steps, when viewed as a whole, add
nothing significant beyond the sum of their parts taken
separately [having the same, but potentially slightly
improved, effect of attenuating certain frequencies and
modes of driveline vibrations].” Hence, as in Mayo, the
Asserted Claims here are not patent-eligible.
The Court further agrees with Neapco that another
obstacle to the Asserted Claims being patent-eligible is
that they “are not directed to any specific, discrete liner
design but rather a solution to the problem of attenuating
shell and bending mode vibrations generally by applying
physics.” (D.I. 172 at 9) Electric Power Group, 830 F.3d
at 1350, provides support for this conclusion. That case
involved patents that “describe and claim systems and
methods for performing real-time performance monitoring
of an electric power grid by collecting data from multiple

145a
Appendix D
data sources, analyzing the data, and displaying the
results.” Id. at 1351. The Court searched for an inventive
concept in “how the desired result is achieved,” and
found that the claims did not include any requirement
for performing the claimed functions with anything other
than “off-the-shelf, conventional . . . technology.” Id. at
1355. Then, pointing to “an important common-sense
distinction . . . between desired results (functions) and
particular ways of achieving (performing) them,” the
Court explained, “there is a critical difference between
patenting a particular concrete solution to a problem and
attempting to patent the abstract idea of a solution to the
problem in general.” Id. at 1356 (internal quotation marks
omitted). “[C]laims, defining a desirable [] result and not
limited to inventive means of achieving the result, fail
under § 101.” Id. at 1351; see also McRO, 837 F.3d at 1314
(“A patent may issue for the means or method of producing
a certain result, or effect, and not for the result or effect
produced.”) (internal quotation marks omitted).
Here, the Asserted Claims simply instruct one to apply
Hooke’s law to achieve the desired result of attenuating
certain vibration modes and frequencies. They provide no
particular means of how to craft the liner and propshaft
in order to do so. Thus, like the claims in Electric Power
Group, the claims here are invalid under § 101.
D.	Preemption
AAM further argues that “the Asserted Claims
provide no risk of preempting Hooke’s law in its entirety.”
(D.I. 160 at 7) However, “[w]here a patent’s claims are

146a
Appendix D
deemed only to disclose patent ineligible subject matter
under the Mayo framework, as they are in this case,
preemption concerns are fully addressed and made moot.”
Ariosa, 788 F.3d at 1379.
E. Machine or Transformation Test
AAM also argues that the Asserted Claims are patenteligible under the machine-or-transformation test. (See
D.I. 160 at 9-10) This test provides that a process claim is
patent-eligible if “(1) it is tied to a particular machine or
apparatus, or (2) it transforms a particular article into a
different state or thing.” Bilski v. Kappos, 561 U.S. 593,
600, 130 S. Ct. 3218, 177 L. Ed. 2d 792 (2010). To satisfy
the test, the use of a machine “must impose meaningful
limits on the claim’s scope.” In re Bilski, 545 F.3d 943, 961
(Fed. Cir. 2008). “In other words, the machine must play
a significant part in permitting the claimed method to be
performed.” CyberSource Corp. v. Retail Decision, Inc.,
654 F.3d 1366, 1375 (Fed. Cir. 2011) (internal quotation
marks omitted).
Here, because the Asserted Claims are nothing more
than applying a law of nature to a conventional method to
achieve an abstract solution to a problem, the Asserted
Claims fail to provide any meaningful limits on the scope
of the claim. The machine or transformation test does not
help AAM.
IV. CONCLUSION
The Asserted Claims of the ’911 patent are invalid

147a
Appendix D
under § 101, as they are directed to nonpatentable subject
matter. Thus, the Court will grant Neapco’s motion for
summary judgment with respect to § 101 and will deny
AAM’s cross-motion on the same issue. The other motions
– with the exception of AAM’s motion directed to striking
testimony from Neapco’s damages expert – will be denied
as moot. An appropriate Order follows.

148a
AppendixON
E PETITION FOR
Appendix E — ORDER
PANEL REHEARING OF THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL
CIRCUIT, DATED JULY 31, 2020
United States Court of Appeals
for the Federal Circuit
2018-1763
AMERICAN AXLE & MANUFACTURING, INC.,
Plaintiff-Appellant,
v.
NEAPCO HOLDINGS LLC,
NEAPCO DRIVELINES LLC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Delaware in No. 1:15-cv-01168-LPS, Chief
Judge Leonard P. Stark.
ON PETITION FOR PANEL REHEARING
Before Dyk, Moore, and Taranto, Circuit Judges.
Per Curiam.
ORDER
It is Ordered that:
The Petition for Panel Rehearing is granted to the extent that the previous precedential opinion and judgment
issued October 3, 2019, are withdrawn and replaced

149a
Appendix E
with the modified precedential opinion and judgment
accompanying this order.
				

For the Court

July 31, 2020			
/s/ Peter R. Marksteiner
Date				Peter R. Marksteiner
				Clerk of Court

150a
AppendixON
F PETITION FOR
Appendix f — ORDER
REHEARING EN BANC OF THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL
CIRCUIT, DATED JULY 31, 2020
United States Court of Appeals
for the Federal Circuit
2018-1763
AMERICAN AXLE & MANUFACTURING, INC.,
Plaintiff-Appellant,
v.
NEAPCO HOLDINGS LLC,
NEAPCO DRIVELINES LLC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Delaware in No. 1:15-cv-01168-LPS, Chief
Judge Leonard P. Stark.
ON PETITION FOR REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’m alley, Reyna , Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Dyk, Circuit Judge, with whom Wallach and Taranto,
Circuit Judges, join, concurs in the denial of the petition
for rehearing en banc.

151a
Appendix F
Chen, Circuit Judge, with whom Wallach, Circuit
Judge, joins, concurs in the denial of the petition for
rehearing en banc.
Newman, Circuit Judge, with whom Moore, O’malley,
Reyna, and Stoll, Circuit Judges, join, dissents from the
denial of the petition for rehearing en banc.
Stoll, Circuit Judge, with whom Newman, Moore,
O’malley, and Reyna, Circuit Judges, join, dissents from
the denial of the petition for rehearing en banc.
O’malley, Circuit Judge, with whom Newman, Moore,
and Stoll, Circuit Judges, join, dissents from the denial
of the petition for rehearing en banc.
Lourie, Circuit Judge, dissents without opinion from
the denial of the petition for rehearing en banc.
Per Curiam.
ORDER
Appellant American Axle & Manufacturing, Inc. filed
a combined petition for panel rehearing and rehearing en
banc. A response to the petition was invited by the court
and filed by appellees Neapco Holdings LLC and Neapco
Drivelines LLC. Several motions for leave to file amici
curiae briefs were filed and granted by the court. The
petition for rehearing, response, and amici curiae briefs
were first referred to the panel that heard the appeal,
which granted the petition in part as indicated in the

152a
Appendix F
accompanying order. Thereafter, the petition was referred
to the circuit judges who are in regular active service. A
poll was requested, taken, and failed.
Upon consideration thereof,
It Is Ordered That:
1)	The petition for rehearing en banc is denied.
2)	The mandate of the court will issue on
September 8, 2020.
				

For the Court

July 31, 2020			
/s/ Peter R. Marksteiner
Date				Peter R. Marksteiner
				Clerk of Court

153a
Appendix F
Dyk, Circuit Judge, with whom Wallach and Taranto,
Circuit Judges, join, concurring in the denial of the
petition for rehearing en banc.
We agree that en banc review was not warranted.
The panel opinion is both consistent with precedent and
narrow in its scope. Claim 22 and related claims instruct
only the use of mass and stiffness to match relevant
frequencies to tune a propshaft liner so that the liner,
when used, will produce certain results (reducing two
modes of vibration from the propshaft). Contrary to Judge
Stoll’s dissent, these claims in no way “recite the process
and machinery necessary to produce the desired effect of
reducing vibrations in a shaft assembly.” Stoll Dissent Op.
at 2-3. Because claim 22 contains no further identification
of specific means for achieving those results, but merely
invokes the natural law that defines the relation between
stiffness, mass, and vibration frequency, it is ineligible
under a long line of cases beginning at about the time
of O’Reilly v. Morse, 56 U.S. (15 How.) 62, 14 L. Ed. 601
(1853), which held ineligible a claim to “printing intelligible
characters . . . at any distances” by the use of “electromagnetism,” precisely because, unlike the other upheld
claims in O’Reilly, it lacked any identification of specific
means to use electromagnetism.1 Id. at 113-20.
1. Judge Stoll’s dissent suggests that “several of Samuel Morse’s
other claims [in O’Reilly] were held eligible in that very same case,
and [that] they more closely resemble the claims at issue here.” Stoll
Dissent Op. at 2. Unlike claim 8, however, the other claims in O’Reilly
all incorporated by express reference descriptions and illustrations
from the specification of the patent addressed by the Court. The
specification contained a number of detailed technical drawings and

154a
Appendix F
“Morse’s eighth claim would have covered, among other
things, telephone, radio, television, microwave, wireless, and
Internet communication, although they were all invented by
others much later.” Jay Dratler, Jr., Alice in Wonderland
Meets the U.S. Patent System, 38 Akron L. Rev. 299, 321
(2015). Allowing the patentability of such broad claims
impairs rather than promotes innovation and denies patent
protection to real inventors—those who discover particular
ways to achieve the desired result. “[T]here is a danger
that the grant of patents that tie up the[] use [of laws of
nature] will inhibit future innovation premised upon them,
a danger that becomes acute when a patented process
amounts to no more than an instruction to ‘apply the natural
law,’ or otherwise forecloses more future invention than
the underlying discovery could reasonably justify.” Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66,
86, 132 S. Ct. 1289, 182 L. Ed. 2d 321 (2012).
The inventors here may well have invented a specific
means of achieving the claimed result, but they chose not to
include such means in the claims we hold ineligible. Those
claims, which invoke only a natural law, are ineligible under
O’Reilly and other cases invalidating claims that merely
state a result without providing specific detail as to the
corresponding descriptions. See Reissue Patent No. 117 (issued June
13, 1848) (Figure 1-5 and pages 2-3). In contrast, claim 8 of O’Reilly
specifically did not limit itself to the specification and for that reason
was found ineligible. O’Reilly, 56 U.S. at 62 (“Eighth. I do not propose
to limit myself to the specific machinery, or parts of machinery,
described in the foregoing specification . . . .”). In the Telephone Cases,
the Supreme Court explained that O’Reilly’s singling out of claim 8
rested on this exact distinction. Dolbear v. Am. Bell Tel. Co., 126 U.S.
1, 534, 8 S. Ct. 778, 31 L. Ed. 863, 1888 Dec. Comm’r Pat. 321 (1888).

155a
Appendix F
“how”—the means for achieving the result. See Mayo,
566 U.S. at 71-73 (“[T]o transform an unpatentable law of
nature into a patent-eligible application of such a law, one
must do more than simply state the law of nature while
adding the words ‘apply it.’”); Parker v. Flook, 437 U.S. 584,
586, 98 S. Ct. 2522, 57 L. Ed. 2d 451 (1978) (invalidating
a claimed method that did not “purport to explain how to
select . . . any of the . . . variables” involved, or “purport to
contain any disclosure relating to the chemical process at
work, the monitoring of process variables, or the means
of setting off an alarm or adjusting an alarm system”);
Mackay Radio & Telegraph Co. v. Radio Corp. of Am.,
306 U.S. 86, 94-101, 59 S. Ct. 427, 83 L. Ed. 506, 1939
Dec. Comm’r Pat. 857 (1939); O’Reilly, 56 U.S. at 112-17
(holding a claim for “use of the motive power of the electric
or galvanic current . . . for marking or printing intelligible
characters . . . at any distances” ineligible because “it
matter[ed] not by what process or machinery the result
[wa]s [to be] accomplished”); Le Roy v. Tatham, 55 U.S. (14
How.) 156, 175, 14 L. Ed. 367 (1852) (holding that claiming
a concept without the particular steps of carrying it out
“would prohibit all other persons from making the same
thing by any means whatsoever,” and that such claims
are ineligible for patentability); Corning v. Burden, 56
U.S. (15 How.) 252, 268, 14 L. Ed. 683 (1853) (“It is for the
discovery or invention of some practicable method or means
of producing a beneficial result or effect, that a patent is
granted, and not for the result or effect itself.”), quoted by
Diamond v. Diehr, 450 U.S. 175, 182 n.7, 101 S. Ct. 1048,
67 L. Ed. 2d 155 (1981). 2
2. See also SAP Am., Inc. v. InvestPic, LLC, 898 F.3d 1161,
1167 (Fed. Cir. 2018) (holding that as “reflected repeatedly in our
cases,” to avoid ineligibility, a claim must “ha[ve] the specificity

156a
Appendix F

required to transform [the] claim from one claiming only a result
to one claiming a way of achieving it”); Affinity Labs of Texas, LLC
v. DIRECTV, LLC, 838 F.3d 1253, 1258 (Fed. Cir. 2016) (claim was
directed to an ineligible abstract idea because “[t]here [wa]s nothing
in the claim that [wa]s directed to how to implement out-of-region
broadcasting on a cellular telephone”); Apple, Inc. v. Ameranth,
Inc., 842 F.3d 1229, 1241 (Fed. Cir. 2016) (claims found ineligible
and “directed to an abstract idea” because they “d[id] not claim a
particular way of programming or designing the software to create
menus . . . , but instead merely claim[ed] the resulting systems”);
Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1348
(Fed. Cir. 2015) (finding claim abstract because it “contain[ed] no
restriction on how the result [wa]s accomplished”); Secured Mail
Sols. LLC v. Universal Wilde, Inc., 873 F.3d 905, 911 (Fed. Cir.
2017) (finding claims abstract because they were “not limited by
rules or steps that establish[ed] how the focus of the methods [wa]s
achieved”); ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d 759,
770 (Fed. Cir. 2019), cert. denied, 140 S. Ct. 983, 206 L. Ed. 2d 135
(2020) (finding claims directed to abstract idea where broad claim
language “would cover any mechanism for implementing network
communication on a charging station” rather than a specific way
of doing so); Interval Licensing LLC v. AOL, Inc., 896 F.3d 1335,
1345-46 (Fed. Cir. 2018) (claims ineligible “because they consist[ed]
of generic and conventional information acquisition and organization
steps that [we]re connected to, but d[id] not convert, the abstract
idea . . . into a particular conception of how to carry out that concept”
(emphasis added)); Innovation Sci., LLC v. Amazon.com, Inc., 778
F. App’x 859, 863 (Fed. Cir. 2019) (finding ineligible a claim reciting
coverage “in merely functional, result-oriented terms”); Univ. of
Fla. Research Found., Inc. v. Gen. Elec. Co., 916 F.3d 1363, 1364,
1368 (Fed. Cir. 2019) (claims “directed to an abstract idea” where
“[n]either the . . . patent, nor its claims, ex-plain[ed] how the drivers
d[id] the conversion that [Appellant] points to.”); Two-Way Media
Ltd. v. Comcast Cable Commc’ns, LLC, 874 F.3d 1329, 1337 (Fed.
Cir. 2017) (claim directed to ineligible abstract idea where “[t]he
claim require[d] the functional results of ‘converting,’ ‘routing,’

157a
Appendix F
The assertions that the panel decision holds that “any
reliance on a scientific principle in the claimed subject
matter affects eligibility” or calls into question the
patentability of basic inventions such as “the telegraph,
telephone, light bulb, and airplane” are quite incorrect.
Newman Dissent Op. at 5; Stoll Dissent Op. at 7. What
the decision calls into question is claims, such as claim
8 in O’Reilly, that claim only a result (the telegraph,
electric light bulb, the combustion engine) and disclose
nothing more than a natural law (electromagnetic force,
incandescence, chemical combustion) to achieve that
result. Nothing in the panel opinion suggests that claims
that describe how the objective (light bulb, etc.) is to be
achieved are patent ineligible. Such claims have long been
held patentable. Such claims continue to be patentable. A
contrary result would deny a true inventor (an individual
who determined a specific means to achieve the claimed
result) the fruits of his or her invention.
‘controlling,’ ‘monitoring,’ and ‘accumulating records,’ but d[id] not
sufficiently describe how to achieve these results in a non-abstract
way”); Finjan, Inc. v. Blue Coat Sys., Inc., 879 F.3d 1299, 1305 (Fed.
Cir. 2018) (“Apple, Affinity Labs, and other similar cases hearken
back to a foundational patent law principle: that a result, even an
innovative result, is not itself patentable.”); McRO, Inc. v. Bandai
Namco Games Am. Inc., 837 F.3d 1299, 1314 (Fed. Cir. 2016) (“[In
section 101 analysis w]e . . . look to whether the claims . . . focus on a
specific means or method that improves the relevant technology or
are instead directed to a result or effect that itself is the abstract
idea and merely invoke generic processes and machinery.”).
As the foregoing cases illustrate, the same concern is significant
under the abstract idea branch of ineligibility analysis, which we leave
for consideration as to the claims that are the subject of our remand.

158a
Appendix F
Contrary to Judge Stoll’s dissent from denial of
rehearing en banc, see Stoll Dissent Op. at 6-7, there is
also no fact issue here. If the suggestion is that it is a
factual question whether more than Hooke’s Law might
be needed to make a device that actually produces the
claimed result, that is not the proper eligibility question.
In O’Reilly, it was plain from the specification and the
other claims that more than electromagnetism was needed
to produce the claimed result, but the Supreme Court held
claim 8 ineligible precisely because it omitted any such
implementation means. The omission of needed specifics in
the claim was the problem, not a reason to find eligibility.
The step-one “directed to” inquiry in this case, as in
O’Reilly, is what the claim says. As to that question, the
panel does not suggest that there can never be a factual
issue, but there is no such factual issue here. Both parties’
witnesses agreed that Hooke’s law relates an object’s
frequency of vibration to its mass and stiffness, see Maj.
Op., slip op. at 12-13, and neither party disputes the claim
construction given to the claim language “tuning a mass
and a stiffness of at least one liner,” namely, “controlling
a mass and stiffness of at least one liner to configure the
liner to match a relevant frequency or frequencies,” J.A.
15, 1047. Nor is there a conflict in evidence about what
“mass” or “stiffness” means to the relevant skilled artisan.
The claim language thus invokes the very relation between
frequency and mass and stiffness stated by Hooke’s law,
as the district court determined. J.A. 11 (“The claimed
methods are applications of Hooke’s law with the result
of friction damping.” (emphasis added)).

159a
Appendix F
Claim 22 does not name Hooke’s law, but the name is
immaterial. The Supreme Court has not required reciting
the natural law by name and has rejected a “draftsman’s
art” approach to § 101 analysis. See, e.g., Mayo, 566
U.S. at 72, 77 (explaining that the “laws of nature” set
forth in the claims are unnamed “relationships between
concentrations of certain metabolites in the blood and the
likelihood that a dosage of a thiopurine drug will prove
ineffective or cause harm”).
Judge O’Malley’s dissent suggests that the panel
majority “decide[s] questions on grounds that were neither
argued before the district court nor briefed on appeal” and
that it “announces a new test for patentable subject matter
at the eleventh hour and without adequate briefing.”
O’Malley Dissent at 2. But there is no new ground here.
Both in district court and on appeal, Neapco Holdings
LLC and Neapco Drivelines LLC (collectively, “Neapco”)
argued that the claims invoked a natural law, and nothing
more, to accomplish a desired result. Neapco argued
in summary judgment briefings that “the claims are
ineligible because they are directed to laws of nature and/
or natural phenomena related to controlling the natural
frequency of an object and the physics behind vibration
attenuation.” J.A. 4596. Neapco’s expert stated that “the
asserted claims of the ’911 patent do nothing more than
attempt to claim well-known laws of nature or natural
phenomen[a].” J.A. 2704. American Axle & Manufacturing,
Inc. (“AAM”) opposed this characterization of the claims in
its briefing to the district court: “Neapco oversimplifie[d]
the Asserted Claims to allege that they ‘do nothing more
than attempt to claim well-known laws of nature or natural

160a
Appendix F
phenomenon . . . . [Its] arguments are without merit.” J.A.
4331 (quoting Neapco’s expert’s testimony). Ultimately,
the district court found that the claims “are directed
to the mere application of Hooke’s law, and they fail to
instruct how to design the tuned liners or manufacture
the driveline system to attenuate vibrations.” J.A. 11-12.
On appeal, Neapco reiterated that “[o]ther than providing
the relationship set by the natural law itself, the claims tell
those of skill nothing else about how to purportedly ‘tune’
a liner.” Neapco Br. 25; see also id. at 38 (“[T]he claims
here specifically lack[] any instruction or disclosure for
how to design or manufacture the tuned liners to attenuate
vibration (other than telling an engineer to ‘apply’ Hooke’s
law).”); Oral Arg. 13:38-56 (explaining that the invention
“is a claim to a goal, the result . . . of tuning a liner to
dampen two different modes of vibration”). 3 The panel
opinion appropriately addresses the case as argued.
There is also no “new test” in stating that claim 22
is “nothing more” than a natural law, i.e., that it contains
no information as to how to achieve the claimed result.
This linguistic formulation has previously been used by
this court in describing the test for § 101.4 This “nothing
3. AA M argued that “[t]he district court [in its § 101
analysis] . . . applied an erroneous legal standard finding that the
asserted claims did not ‘disclose’ or ‘instruct how’ to design tuned
liners. There is no such standard, even under § 112, requiring the
claims of the ’911 patent to ‘instruct how to design the tuned liners
or manufacture the driveline system to attenuate vibrations.’” AAM
Op. Br. 54 (quoting J.A. 11).
4. See, e.g., Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc., 827
F.3d 1042, 1048 (Fed. Cir. 2016) (“In recent cases, we found claims

161a
Appendix F
more” formulation was also repeatedly used by Neapco, 5
by Neapco’s expert,6 and by AAM to describe Neapco’s
position.7 The same linguistic formulation was used by
the district court. J.A. 15 (“Since Hooke’s law governs the
relationship between mass, stiffness, and frequency, the
‘tuning’ claim limitation does nothing more than suggest
that a noise, vibration, and harshness . . . engineer . . .
‘directed to’ a patent-ineligible concept when they amounted to
nothing more than observing or identifying the ineligible concept
itself.” (emphasis added)); ChargePoint, 920 F.3d at 769 (finding
ineligible at step 1 “claims that claim nothing more than the broad
law . . . underlying the claims” (emphasis added)); Genetic Veterinary
Scis., Inc. v. LABOKLIN GmbH & Co. KG, 933 F.3d 1302, 1318 (Fed.
Cir. 2019) (finding ineligible claims “directed to nothing more than
‘observing or identifying’ the natural phenomenon of a mutation in
the SUV39H2 gene” (emphasis added)).

5. Neapco Br. 12 (“The claimed ‘tuning’ is nothing more than
a recitation of Hooke’s law . . . .” (emphasis added) (capitalization
removed)); id. at 21 (“[T]he asserted claims do nothing more than
recite the abstract concept of ‘tuning’ a liner according to a natural
law.” (emphasis added)); id. at 32 (“The asserted claims ‘fail to
provide any meaningful limits on the scope of the claim,’ and are
thus ‘nothing more than applying a law of nature to a conventional
method to achieve an abstract solution to a problem.’” (emphasis
added) (quoting J.A. 18)).
6. J.A. 2704 (Neapco’s expert stating that “the asserted claims
of the ’911 patent do nothing more than attempt to claim well-known
laws of nature or natural phenomen[a]” (emphasis added)).
7. J.A. 4331 (AAM arguing that “Neapco oversimplifie[d] the
Asserted Claims to allege that they ‘do nothing more than attempt
to claim well-known laws of nature or natural phenomenon . . . . [Its]
arguments are without merit.” (emphasis added) (quoting Neapco’s
expert)).

162a
Appendix F
[would] consider that law of nature when designing
propshaft liners to attenuate driveline vibrations.”
(emphasis added)); J.A. 18 (“Here, because the Asserted
Claims are nothing more than applying a law of nature
to a conventional method to achieve an abstract solution
to a problem, the Asserted Claims fail to provide any
meaningful limits on the scope of the claim.”).

163a
Appendix F
Chen, Circuit Judge, with whom Wallach, Circuit
Judge, joins, concurring in the denial of the petition for
rehearing en banc.
I concur in the court’s decision not to rehear this case
en banc because the principles applied by the district
court and panel majority in holding claim 22 invalid are
consistent with long-standing precedent. Contrary to
the dissent’s view, the panel majority did not announce
a new patent-eligibility test. Rather, its rationale is a
straightforward application of the Supreme Court’s
decision in O’Reilly v. Morse, 56 U.S. (15 How.) 62, 14 L.
Ed. 601 (1853). Moreover, the district court applied the
same test as the panel majority and for that reason no
remand is required as to claim 22.
What the dissent dubs the new “nothing more” test
is actually a principle that has been part of patent law
since at least 1853: a claim may be held ineligible if it
invokes a natural law to achieve some desired result
without reciting any further limitations as to the means for
accomplishing that result. In O’Reilly, the Supreme Court
ruled that Samuel Morse’s eighth claim, reciting nothing
more than the use of electromagnetism to generate and
send messages at a distance, was ineligible. Id. at 112-13.
Today’s panel decision tracks that precise reasoning. As
construed, claim 22 calls for nothing more than the use of
Hooke’s law to produce a particular result: the reduction
of two types of vibration in a liner. The claim is devoid
of any other element for producing that result. Because
claim 22, as drafted and construed, is substantively the
same as Mr. Morse’s claim 8, I do not see a way to logically
distinguish O’Reilly in this case.

164a
Appendix F
Some amici suggest that the panel’s understanding of
O’Reilly is undercut because other claims of Mr. Morse’s
patent were found eligible and are analogous to AAM’s
claims. See Law Prof. Br. 6-8. They suggest that Mr.
Morse’s upheld claims merely begin with a natural law
and end with a desired result without reciting any further
requirements. To the contrary, each of Mr. Morse’s claims,
with the exception of ineligible claim 8, limits itself to the
specific implementation details disclosed in Mr. Morse’s
specification. Take claim 1 for example:
Having thus fully described my invention, I wish
it to be understood that I do not claim the use
of the galvanic current or current of electricity
for the purpose of telegraphic communications
generally; but [w]hat I specially claim as my
invention and improvement is—
1. Making use of the motive power of magnetism
when developed by the action of such current
or currents, substantially as set forth in the
foregoing description of the first principal
part of my invention, as means of operating
or giving motion to machinery which may be
used to imprint signals upon paper or other
suitable material, or to produce sounds in any
desired manner for the purpose of telegraphic
communication at any distances.
U.S. Reissue Patent No. 117 (issued June 13, 1848)
(emphasis added). Claim 1 does not simply invoke “the
motive power of magnetism” to produce the desired

165a
Appendix F
result of “telegraphic communication at any distances,”
but instead further confines the claim’s scope to the
application of current “substantially as set forth in the
foregoing description of the first principal part of [Mr.
Morse’s] invention” to achieve the desired result. Id. The
remaining claims likewise incorporate implementation
details from Mr. Morse’s specification. Id. (claiming
what was “substantially as set forth in the foregoing
description,” the “combination of machinery herein
described,” “substantially by the means herein described,”
“substantially as herein set forth and illustrated,” and “as
herein described”).
In contrast, Mr. Morse’s claim 8 disavows any
implementation details from his specification:
8. I do not propose to limit myself to the specific
machinery or parts of machinery described in
the foregoing specifications and claims, the
essence of my invention being the use of the
motive power of the electric or galvanic current,
which I call “electro-magnetism,” however
developed, for marking or printing intelligible
characters, signs, or letters at any distances,
being a new application of that power of which
I claim to be the first inventor or discoverer.
Id. (emphasis added). As the Supreme Court later explained
in Dolbear v. Am. Bell Tel. Co., the distinguishing feature
of Mr. Morse’s invalidated claim 8 was that it claimed
“the use of magnetism as a motive power, without regard
to the particular process with which it was connected

166a
Appendix F
in the patent.” 126 U.S. 1, 534, 8 S. Ct. 778, 31 L. Ed.
863, 1888 Dec. Comm’r Pat. 321 (1888). In contrast, the
Court explained that Mr. Morse’s claim 1, although also
“making use of the motive power of magnetism,” was
patent eligible because that claim specified the use of
magnetism in connection with the particular process
disclosed in the patent. Id. Following these principles, the
Court in Dolbear held eligible a claim to “transmitting
vocal or other sounds telegraphically, as herein described,
by causing electrical undulations, similar in form to the
vibrations of the air accompanying the said vocal or other
sound, substantially as set forth.” Id. at 532 (emphasis
added).
The amici’s understanding of Mr. Morse’s upheld
claims as merely reciting the motive power of magnetism
to produce telegraphic communication thus suffers from
multiple grave problems. First, it ignores the claim
language incorporating implementation details from the
specification. Second, if the amici’s reading were correct,
it would render the O’Reilly decision hopelessly in conflict
with itself, given that the Court invalidated claim 8. Third,
the Court in Dolbear, in reiterating the principle that
invoking a law of nature to achieve a result, without more,
is not a patent-eligible claim, characterized Mr. Morse’s
upheld claims in a way that is clearly incompatible with
the amici’s views. Thus, nothing in O’Reilly helps AAM’s
cause in this case.
Contrary to the dissent’s position that a remand is
needed to allow the district court to apply the O’Reilly test
in the first instance, the district court here already applied

167a
Appendix F
the principles of O’Reilly in the same way and based on
the same claim interpretation as the panel majority when
it held claim 22 invalid as merely invoking Hooke’s law to
accomplish a desired result. The district court’s decision
noted that “Neapco asserts, in order to ‘tune’ the liner,
one merely applies Hooke’s law and then measures the
amount of damping.” J.A. 11. “[A]gree[ing] with Neapco,”
the district court explained that “[t]he claimed methods
are applications of Hooke’s law with the result of friction
damping.” Id. (emphasis added); see also J.A. 11-12 (finding
the asserted claims “are directed to the mere application
of Hooke’s law, and they fail to instruct how to design
the tuned liners or manufacture the driveline system to
attenuate vibrations.”) (first emphasis added); J.A. 15
(finding, under the court’s claim construction “controlling
a mass and stiffness of at least one liner to configure the
liner to match a frequency or frequencies,” that “this
claim limitation is just the application of Hooke’s law”)
(emphasis added); J.A. 17 (“Here, the Asserted Claims
simply instruct one to apply Hooke’s law to achieve the
desired result of attenuating certain vibration modes and
frequencies. They provide no particular means of how to
craft the liner and propshaft in order to do so.”) (emphasis
added). Thus, while the district court initially identified
the issue in the case as whether the asserted claims are
directed to both “Hooke’s law and friction damping,” J.A.
10, the court ultimately concluded that claim 22 invokes
Hooke’s law, with nothing more, to achieve a desired
result. J.A. 11, 11-12, 15, 17. Notably, this understanding
of the claims directly follows from the undisputed claim
construction that the claim calls for controlling mass and
stiffness to control frequency. See J.A. 10-12 (analyzing

168a
Appendix F
why controlling mass and stiffness to control frequency
is a reference to applying Hooke’s law). And given that
the district court analyzed the content of the claim and
found nothing other than this reference to Hooke’s law
for accomplishing the claimed results of attenuating shell
mode and bending mode vibrations, its reasoning and
conclusion as to claim 22’s invalidity follows the principle
established by the Supreme Court in O’Reilly. The district
court’s understanding of the claim and its rationale for
holding claim 22 patent ineligible thus are identical to the
panel majority’s analysis and a remand is not necessary.
While some question the correctness of the panel
majority and district court’s application of the O’Reilly
test to AAM’s claim 22, the application of law to fact in
the section 101 context has always been a case by case
judgment. Such context-driven analysis is made in many
areas of patent law, for example in determining whether
a claim is invalid for obviousness or construing a claim
limitation in light of the specification. The same is true
for the judicial exceptions to section 101 and the legal
assessment as to whether a claim is directed to a patentineligible concept or a patent-eligible application of that
concept. As Judge Learned Hand famously remarked
about the similarly difficult problem in copyright law of
distinguishing between idea and expression: “Nobody has
ever been able to fix that boundary, and nobody ever can.”
Nichols v. Universal Pictures Corp., 45 F.2d 119, 121 (2d
Cir. 1930). In the present case, given (1) the claim language
of tuning the liner’s mass and stiffness, (2) the undisputed
construction of the relevant claim language as referring
to tuning said mass and stiffness to match frequencies,

169a
Appendix F
(3) the undisputed mathematical relationship, per Hooke’s
law, between mass, stiffness, and frequency, and (4) the
district court’s analysis rejecting AAM’s arguments that
claim 22, as construed, is not referring to Hooke’s law (J.A.
11-12), it seems reasonable to me for the panel majority
to view claim 22 as on par with Mr. Morse’s claim 8 and
thus likewise fall on the side of ineligibility.
Importantly, the majority’s opinion in this case does
not, and should not be read to, announce a new test for
patent eligibility. It holds that the O’Reilly test remains
good law and applies when a claim recites a limitation
that, as construed, expressly invokes a particular law of
nature. Maj. at 26. The majority opinion emphasizes that
its holding “should not be read as an invitation to raise a
validity challenge against any patent claim that requires
the application of an unstated natural law.” Id. That a
claim implicitly or inherently requires compliance with a
natural law for any embodiment to be operational is not a
basis for concluding that the claim expressly invokes that
natural law. In this case, the undisputed construction of
claim 22 tunes mass and stiffness to match frequency,
which is the very formula for Hooke’s law.
The narrow scope of the majority’s holding is
illustrated by the differences in the outcomes between
claims 1 and 22. If claim 22 had omitted any reference
to mass and stiffness, such that the claim simply recited
“tuning to match the relevant frequency or frequencies,”
there would be no basis to say that the claim invokes
Hooke’s law. This is the scenario of claim 1, which recites
“tuning at least one liner to attenuate at least two types

170a
Appendix F
of vibration transmitted through the shaft member” and
“positioning the at least one liner within the shaft member
such that the at least one liner is configured to damp shell
mode vibrations in the shaft member by an amount that
is greater than or equal to about 2%, and the at least one
liner is also configured to damp bending mode vibrations
in the shaft member, the at least one liner being tuned to
within about ±20% of a bending mode natural frequency
of the shaft assembly as installed in the driveline system.”
U.S. Patent No. 7,774,911 at claim 1. Because claim 1
nowhere mentions “mass” and “stiffness,” it cannot
properly be read to expressly invoke the Hooke’s law
relationship between mass, stiffness, and frequency. As
the specification confirms, tuning for a desired frequency
can be accomplished through variables other than mass
and stiffness. Id. at col. 7 l. 60-col. 8 l. 2. Thus, unlike claim
22, claim 1 cannot be said to expressly call for Hooke’s
law.1 Because of the differences between the two claims,
I cannot say it was wrong for the panel majority to hold
that the district court erred by treating the two claims
in the same way. As evidenced by the majority opinion’s
conclusion that claim 1 is not directed to a natural law, the
narrow holding of this case should not be read to open the
door to eligibility challenges based on the argument that a
claim is directed to one or more unspecified natural laws.
1. This distinction between claim 22, which expressly invokes
Hooke’s law, and claim 1, which is entirely silent as to mass and
stiffness, exists regardless of whether “positioning” in claim 1 is
construed to have the same, or different meaning to “inserting” in
claim 22. While claim 1 is not directed to Hooke’s law, the district
court will address on remand whether it is directed to an abstract
idea.

171a
Appendix F
To the extent AAM and amici contend that mechanical
or industrial inventions can be categorically excluded
from the ambit of section 101 concerns, I cannot agree.
The origins of the judicial exceptions to patent eligibility
arise from such cases during the Industrial Revolution.
Mr. Morse’s patent claimed the invention of the electromagnetic telegraph. O’Reilly, 56 U.S. at 77. In Wyeth
v. Stone, Justice Story, riding circuit, considered the
eligibility of a patent that described a particular apparatus
for cutting ice, and a method for using the inventor’s
apparatus to cut ice. 30 F. Cas. 723, F. Cas. No. 18107
(C.C.D. Mass. 1840) (finding ineligible a claim to “the art
of cutting ice by means of any power, other than human
power”). Likewise, in Tilghman v. Proctor, the Court
evaluated the eligibility of a claim to “the manufacturing
of fat acids and glycerine from fatty bodies by the action
of water at a high temperature and pressure.” 102 U.S.
707, 729, 26 L. Ed. 279, 1881 Dec. Comm’r Pat. 163 (1880).
To exclude manufacturing methods such as AAM’s
from the section 101 inquiry would be inconsistent with
longstanding Supreme Court precedent dating back to
the origins of the eligibility inquiry.
I also do not agree with the dissent’s assertion that the
panel majority’s decision creates a heightened enablement
provision. As the majority opinion explains, section 101
imposes a threshold constraint on the claims, whereas
enablement applies a second, different requirement to
the specification’s support of those claims. Maj. at 27-29.
Moreover, the panel opinion goes no farther than what is
required by O’Reilly, which the Supreme Court has repeatedly identified as a case about the judicial exceptions to

172a
Appendix F
section 101. See Interval Licensing LLC v. AOL, Inc., 896
F.3d 1335, 1343 (Fed. Cir. 2018) (citing Supreme Court section 101 opinions discussing O’Reilly). And as made clear
by the lengthy list of both Supreme Court and Federal
Circuit cases cited in Judge Dyk’s concurrence, resultoriented claim drafting raises concerns under section 101
independent from section 112. Dyk Concurrence Op. at
3-4 and n.2. The lesson to patent drafters should now be
clear: while not all functional claiming is the same, simply
reciting a functional result at the point of novelty poses
serious risks under section 101. See, e.g., SAP Am., Inc.
v. InvestPic, LLC, 898 F.3d 1161, 1167 (Fed. Cir. 2018)
(stressing that, as “reflected repeatedly in our cases,” a
claimed invention must embody a concrete solution to a
problem having “the specificity required to transform a
claim from one claiming only a result to one claiming a
way of achieving it”); Le Roy v. Tatham, 55 U.S. (14 How.)
156, 175, 14 L. Ed. 367 (1853) (“A patent is not good for an
effect, or the result of a certain process,” for such patents
“would prohibit all other persons from making the same
thing by any means whatsoever.”); Athena Diagnostics,
Inc. v. Mayo Collaborative Servs., LLC, 927 F.3d 1333,
1344-49 (Fed. Cir. 2019) (Chen, J., concurring in denial of
rehearing en banc) (explaining how the Supreme Court
in Mayo Collaborative Services v. Prometheus Laboratories, Inc., 566 U.S. 66, 132 S. Ct. 1289, 182 L. Ed. 2d
321 (2012) and Alice Corp. Pty. v. CLS Bank Int’l, 573 U.S.
208, 134 S. Ct. 2347, 189 L. Ed. 2d 296 (2014) resurrected
the point of novelty inquiry from Parker v. Flook, 437
U.S. 584, 98 S. Ct. 2522, 57 L. Ed. 2d 451 (1978), which
many, including this court, thought had been rejected in
Diamond v. Diehr, 450 U.S. 175, 101 S. Ct. 1048, 67 L.
Ed. 2d 155 (1981)).

173a
Appendix F
Consider the example of an automaker CEO who announces a stretch goal to her engineers to produce a car,
powered by electricity, that can be driven 1,000 miles
without a recharge. That declaration from the CEO does
not make her an “inventor” and the section 101’s judicial
exceptions bar the grant of a patent for such a claim, for
it fails to recite any arguable act of invention to reach
the claimed result. Like Mr. Morse’s claim 8, this claim
recites a law of nature, and also like Mr. Morse’s claim
8, the claim’s fundamental problem is there is no there
there. Without any content in the claim that can even be
arguably regarded as some form of a means or method
beyond the use of electricity, the claim is invalid under
O’Reilly without having to consider other validity grounds,
such as enablement, for example.
Assessing claim validity under section 101 is difficult
work and our court over a series of many decisions in recent
years has attempted to extract principles articulated in
Supreme Court opinions, both old and new. Differences of
opinion within our court on how to apply those principles to
a particular case inevitably arise from time to time, given
the inherently imprecise nature of the legal framework.
But today’s panel majority decision is consistent with both
Supreme Court and our court’s precedent and its decision
as to claims 1 and 22 does not strike me as warranting en
banc intervention.

174a
Appendix F
Newman, Circuit Judge, with whom Moore, O’malley,
Reyna, and Stoll, Circuit Judges, join, dissenting from
denial of the petition for rehearing en banc.
The court’s rulings on patent eligibility have become so
diverse and unpredictable as to have a serious effect on the
innovation incentive in all fields of technology. The victim
is not only this inventor of this now-copied improvement
in driveshafts for automotive vehicles; the victims are the
national interest in an innovative industrial economy, and
the public interest in the fruits of technological advance.
I share the concerns of my colleagues in dissent, and I
write to emphasize the far-reaching consequences of the
court’s flawed Section 101 jurisprudence.
The court’s new spin on Section 101 holds that when
technological advance is claimed too broadly, and the
claims draw on scientific principles, the subject matter
is barred “at the threshold” from access to patenting. As
here, where the invention is found to embody a principle
of physics called “Hooke’s law,” the court rules that the
invention is ineligible for patenting as a matter of law.
All technology is based on scientific principles—
whether or not the principles are understood. The
Supreme Court long ago recognized that what is required
for patentability is that the inventor describes the
useful application of discovery. The Court then and now
understood the distinction between the basic principles of
science and their practical application. See, for example,
Le Roy v. Tatham, 55 U.S. 156, 14 L. Ed. 367 (1852):

175a
Appendix F
The word principle is used by elementary
writers on patent subjects, and sometimes in
adjudications of courts, with such a want of
precision in its application, as to mislead. It
is admitted, that a principle is not patentable.
A principle, in the abstract, is a fundamental
truth; an original cause; a motive; these cannot
be patented, as no one can claim in either of
them an exclusive right.
Id. at 174-75 (emphasis in original). This understanding
is fundamental to the system of patents, implementing
the constitutional purpose of promoting the progress of
science and useful arts. The Court further stated:
[T]he processes used to extract, modify, and
concentrate natural agencies, constitute the
invention. The elements of the power exist;
the invention is not in discovering them, but in
applying them to useful objects.
Id. at 175. The Supreme Court has reiterated this balance
between abstract principle and practical application:
[ W ]e tread carefully in constr uing this
exclusionary principle lest it swallow all of
patent law. At some level, “all inventions . . .
embody, use, reflect, rest upon, or apply laws of
nature, natural phenomena, or abstract ideas.”
Thus, an invention is not rendered ineligible for
patent simply because it involves an abstract
concept. “Applications” of such concepts “to

176a
Appendix F
a new and useful end,” we have said, remain
eligible for patent protection.
Alice Corp. v. CLS Bank Int’l, 573 U.S. 208, 217, 134 S.
Ct. 2347, 189 L. Ed. 2d 296 (2014) (internal citations and
alterations omitted).
Precedent illustrates application of these principles
to evolving technologies; for example, radio: “While a
scientific truth, or the mathematical expression of it, is
not patentable invention, a novel and useful structure
created with the aid of knowledge of scientific truth may
be.” Mackay Radio & Telegraph Co. v. Radio Corp. of Am.,
306 U.S. 86, 94, 59 S. Ct. 427, 83 L. Ed. 506, 1939 Dec.
Comm’r Pat. 857 (1939). See also, e.g., Diamond v. Diehr,
450 U.S. 175, 101 S. Ct. 1048, 67 L. Ed. 2d 155 (1981):
Our earlier opinions lend support to our
present conclusion that a claim drawn to
subject matter otherwise statutory does not
become nonstatutory simply because it uses a
mathematical formula, computer program, or
digital computer. . . . It is now commonplace
that an application of a law of nature or
mathematical formula to a known structure
or process may well be deserving of patent
protection.
Id. at 187 (emphasis in original). Until recently, Federal
Circuit precedent appropriately implemented the law;
for example, Enfish, LLC v. Microsoft Corp., 822 F.3d
1327, 1335 (Fed. Cir. 2016) (“The ‘directed to’ inquiry,

177a
Appendix F
therefore, cannot simply ask whether the claims involve
a patent-ineligible concept, because essentially every
routinely patent-eligible claim involving physical products
and actions involves a law of nature and/or natural
phenomenon—after all, they take place in the physical
world.”); see also In re TLI Comm’cns LLC Patent Litig.,
823 F.3d 607, 611 (Fed. Cir. 2016) (“But in determining
whether the claims are directed to an abstract idea,
we must be careful to avoid oversimplifying the claims
because ‘[a]t some level, ‘all inventions . . . embody,
use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.’’” (quoting Alice Corp., 573
U.S. at 217)).
However, the case now before us departs from these
rulings, adding to the concerns of amici curiae that
“[t]he panel majority’s decision reflects a five-year trend
of courts severely narrowing the range of inventions and
discoveries eligible for patent protection under the twostep Mayo-Alice inquiry, contrary to historical practice
and precedent.” 12 Law Profs. Br. 2.
Section 101 of the patent statute is designed as an
all-encompassing introduction to the subject matter of
invention and discovery:
35 U.S.C. § 101. Whoever invents or discovers any
new and useful process, machine, manufacture,
or composition of matter, or any new and
useful improvement thereof, may obtain a
patent therefor, subject to the conditions and
requirements of this title.

178a
Appendix F
A valid patent must meet the “conditions and requirements”
of the patent statute; eligibility under Section 101 is not
the same as patentability under the substantive statutory
provisions of novelty (§ 102), non-obviousness (§ 103), and
description and enablement (§ 112). Yet the court accepts
the argument made by defendant Neapco, the admitted
copier of the American Axle invention, that “it always
has been, the breadth of a claim is critically material to
the § 101 inquiry. The fact that breadth is also material
to enablement (and written description, novelty, and
obviousness as well) does not mean that it cannot be
relevant to § 101.” Neapco Br. 4. That is incorrect.
Breadth of claiming is a matter of the scope and con
tent of the description and enablement in the specification,
considered in light of the prior art, as investigated during
PTO examination. The notion that any reliance on a
scientific principle in the claimed subject matter affects
eligibility under Section 101 itself warrants en banc
rehearing.
The panel majority holds that some claims hereof are,
“without more,” a claim to a scientific principle, and that it
is irrelevant whether the application is new, non-obvious,
and enabled. This theory has found support in half of the
court, now declining en banc review. Our missteps are
conspicuous in the panel majority’s treatment of “Hooke’s
law,” which is stated to be the basis for the majority’s
ruling of ineligibility, although we are not told Hooke’s
law or how it invalidates American Axle’s new automotive
driveshaft.

179a
Appendix F
Hooke’s law is not defined in the parties’ briefs.
However, it is reported in the Encyclopædia Britannica,
at https://www.britannica.com/science/Hookes-law:
Mathematically, Hooke’s law states that the
applied force F equals a constant k times the
displacement or change in length x, or F = kx.
The value of k depends not only on the kind of
elastic material under consideration but also on
its dimensions and shape.
The panel majority does not explain how Hooke’s formula
F = kx for the compression of springs renders the ’911
patent’s automotive driveshaft ineligible for access to the
patent system. One need only look at claim 1, the broadest
claim, to observe that this is a straightforward form of
claim, for which eligibility is routine:
1.	A method for manufacturing a shaft assembly
of a driveline system, the driveline system
further including a first driveline component
and a second driveline component, the shaft
assembly being adapted to transmit torque
between the first driveline component
and the second driveline component, the
method comprising: providing a hollow
shaft member; tuning at least one liner to
attenuate at least two types of vibration
transmitted through the shaft member; and
positioning the at least one liner within the
shaft member such that the at least one liner
is configured to damp shell mode vibrations

180a
Appendix F
in the shaft member by an amount that
is greater than or equal to about 2%, and
the at least one liner is also configured to
damp bending mode vibrations in the shaft
member, the at least one liner being tuned
to within about ±20% of a bending mode
natural frequency of the shaft assembly as
installed in the driveline system.
’911 patent, col. 10, ll. 10-27.
Our colleagues apparently find differences in
eligibility between claim 1 and claim 22:
22.	A method for manufacturing a shaft assembly
of a driveline system, the driveline system
further including a first driveline component
and a second driveline component, the shaft
assembly being adapted to transmit torque
between the first driveline component
and the second driveline component, the
method comprising: providing a hollow shaft
member; tuning a mass and a stiffness of at
least one liner; and inserting the at least one
liner into the shaft member; wherein the at
least one liner is a tuned resistive absorber
for attenuating shell mode vibrations and
wherein the at least one liner is a tuned
reactive absorber for attenuating bending
mode vibrations.
’911 patent, col. 11, ll. 24-36. Our colleagues, writing to
support denial of rehearing en banc, propose that there

181a
Appendix F
is a Section 101 distinction between claim 1 and claim 22,
and draw analogy to claim 8 of Samuel Morse’s telegraph
patent, Judge Dyk explaining that “claim 8 of O’Reilly
specifically did not limit itself to the specification and for
that reason was found ineligible.” J. Dyk concurrence at
2 n.1. However, claim 8 was not rejected because it was
not limited to the specification, it was rejected because
it proposed to claim electromagnetism as a scientific
principle. If the panel majority is holding that eligibility to
claim an invention employing a scientific principle depends
on whether the principle is mentioned in the specification,
clear instructions must be given.
For the American Axle claims, neither the district
court nor this court considered the prior art or other
patentability factors including written description and
enablement. Yet it is apparent that these claims are for
an automotive driveshaft, not for an abstract idea or law
of nature or mathematical formula. We are not told how
F = kx renders these claims ineligible for patenting.
The distinction between basic scientific principle
and practical embodiment is the story of technology and
industry. The amici curiae 12 Law Professors remind
us that: “All inventions of practically applied processes
and machines are reducible to mathematical abstractions
and algorithms; for example, a patentable method for
operating a combustion engine is really just an application
of the law of PV=nRT, the principles of thermodynamics,
and other laws of nature comprising the principles of
engineering.” 12 Law Profs. Br. 9 (quoting Adam Mossoff,
A Brief History of Software Patents (and Why They’re
Valid), 56 Ariz. L. Rev. Syllabus 65, 71 (2014)).

182a
Appendix F
Nonetheless, the majority deems irrelevant whether
the claimed subject matter meets the requirements of
Sections 102, 103, and 112. We don’t know whether there
are substantive issues of claim scope related to invalidity
or infringement. I take note of the protestations that this
opinion is limited, but if the court indeed intends to limit
its holding to driveshafts for automotive vehicles, en banc
instruction is a necessity. Instead, the court furthers the
debilitation of Section 101. As stated by amicus curiae
Biotechnology Innovation Organization:
[T]here continues to be unabated uncertainty
about the patent eligibility of inventions
across an expanding range of technologies,
including biotechnology. The unstable state of
patent-eligibility jurisprudence affects modern
biotechnologies ranging from biomarkerassisted methods of dr ug treatment to
companion diagnostic tests, fermentation
products, industrial enzyme technology, and
marker-assisted methods of plant breeding.
BIO Br. 1. Other amici curiae reinforce these concerns.
As summarized by amicus curiae Judge Paul R. Michel
(Ret.), “the § 101 rulings-at-issue threaten to undercut
patent law and its innovation-promoting goals. . . . The
panel’s decision is legally incorrect and ill-advised.” Michel
Br. 1. And amicus curiae practitioner Jeremy C. Doerre
states that “the implicit judicial exception to 35 U.S.C.
§ 101 for natural laws is ill-suited to police overbroad
[claims].” Doerre Br. 4-5.

183a
Appendix F
The need for judicial provision of stable and
comprehensible patent law is of increasing urgency.
“Legal protection of inventions and discoveries that once
was a defining characteristic of U.S. industrial policy
has become increasingly irrelevant, no longer providing
adequate comfort to investors willing to make high risk
commitments of time and capital or to inventors who
would leave secure jobs to pursue visions of breakthrough
technologies and challenge entrenched incumbents.”
Alliance of U.S. Startups & Inventors for Jobs Br. 2-3
(showing survey results conducted by Professor Taylor
at SMU, documenting “[t]he growing unwillingness of
inventors and investors to rely on patents in tackling
promising but risky new technologies harbingers badly
for the United States”). Amicus curiae Alliance states
that “If left standing, the decision has the potential for
expanding ineligibility under Section 101 to threaten most
every invention for which a patent has ever been granted,”
id. at 5,—as exemplified in the case here before us.
The court’s notion that the presence of a scientific
explanation of an invention removes novel and non-obvious
technological advance from access to the patent system,
has moved the system of patents from its once-reliable
incentive to innovation and commerce, to a litigation
gamble. It is essential to restore the incentive role of the
system of patents, for technology is the foundation of the
nation’s economy, trade, and strength.
There is no room for second best in our dependence on
correct, just, and wise application of the law. I respectfully
dissent from the court’s denial of the request for rehearing
en banc.

184a
Appendix F
S toll , Circuit Judge, with whom New m a n, Moore ,
O’M alley, and Reyna, Circuit Judges, join, dissenting
from the denial of the petition for rehearing en banc.
I write to dissent from the denial of the petition
for rehearing en banc because the majority’s decision
extends § 101 to place in doubt the patent eligibility of
historically eligible mechanical inventions, and thus
presents “a question of exceptional importance” that
warrants consideration by the full court. Fed. R. App.
P. 35(a)(2). I share Judge Moore’s concerns about the
majority’s “nothing more” test and its application in
this case, particularly on this procedural posture. The
majority has, to a limited extent, cabined the scope of
its prior decision on panel rehearing, but I am concerned
that its new decision only serves to introduce additional
questions—including how to apply the “nothing more”
test—that would benefit from further development and
contemplation through en banc review.
The majority asserts that its “nothing more” test
is not new, and is instead firmly grounded in precedent
such as O’Reilly v. Morse, 56 U.S. 62, 14 L. Ed. 601
(1853). I disagree. The claim held ineligible in O’Reilly
is distinguishable on its face. It was not limited to any
particular machinery and was instead broadly directed
to the use of electromagnetism, “however developed,” for
transmitting information. Id. at 112. And as amici point out,
several of Samuel Morse’s other claims were held eligible
in that very same case, and they more closely resemble
the claims at issue here. See Law Prof. Br. 6-8; see also
O’Reilly, 56 U.S. at 85-86 (listing claims). For example, one

185a
Appendix F
of the patent-eligible claims expressly recites applying a
natural law, “the motive power of magnetism,” to produce
a result, “telegraphic communication at any distances.”
O’Reilly, 56 U.S. at 85 (quoting U.S. Reissue Patent No.
117). It is difficult to square that outcome in O’Reilly with
the majority’s application of the “nothing more” test here.
The majority, along with Judge Dyk and Judge Chen
in their concurrences, contend that the O’Reilly Court held
these claims eligible because they include phrases such as
“substantially as set forth in the foregoing description,”
which, in their view, incorporated subject matter from
the specification into the claims. But O’Reilly does not
expressly rely on any such incorporation by reference.
Instead, it characterizes the ineligible claim as being
directed to “an effect produced by the use of electromagnetism,” as opposed to “the process or machinery
necessary to produce” that effect. 56 U.S. at 120. That
distinction is entirely consistent with the eligibility of
the claims at issue here, for they recite the process and
machinery necessary to produce the desired effect of
reducing vibrations in a shaft assembly. And, although
O’Reilly does describe the ineligible claim as “outside”
and “beyond” the specification, id. at 119-20, it does not
necessarily follow that the other claims were eligible
because of any particular incorporation by reference. See
Dolbear v. Am. Bell Tel. Co., 126 U.S. 1, 534, 8 S. Ct. 778,
31 L. Ed. 863, 1888 Dec. Comm’r Pat. 321 (1888) (“The
effect of [O’Reilly] was . . . that the use of magnetism as
a motive power, without regard to the particular process
with which it was connected in the patent, could not
be claimed, but that its use in that connection could.”

186a
Appendix F
(emphasis added)). Thus, the majority’s “nothing more”
test appears to be a new development with potentially
far-reaching implications in an already uncertain area of
patent law. On that basis alone, this case deserves en banc
review, including an opportunity for the parties and other
stakeholders, such as the U.S. Patent and Trademark
Office, to address the merits of the new “nothing more”
test.
Judge Chen also claims in his concurrence that the
majority did not create a new test, characterizing the
majority’s decision as a “straightforward application” of
the “ O’Reilly test” that is “consistent with long-standing
prec-edent.” E.g., Chen Concurring Op. 1, 4, 6. While I
appreciate the importance of O’Reilly as Supreme Court
precedent addressing eligibility, I note that Judge Chen
does not identify any prior court opinions or articles that
specifically refer to an “O’Reilly test,” nor am I aware
of any. To the extent that the Supreme Court has cited
O’Reilly, it has been for the general propositions that
there is an implicit exception to § 101 and that preemption
is an important concern in patent law. See, e.g., Alice
Corp. v. CLS Bank Int’l, 573 U.S. 208, 216, 134 S. Ct.
2347, 189 L. Ed. 2d 296 (2014) (citing O’Reilly in support
of the implicit exception to § 101); Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 85, 132 S.
Ct. 1289, 182 L. Ed. 2d 321 (2012) (discussing O’Reilly to
illustrate preemption con-cerns); Diamond v. Diehr, 450
U.S. 175, 187-88, 101 S. Ct. 1048, 67 L. Ed. 2d 155 (1981)
(cit-ing O’Reilly to underscore that an application of a
law of nature or mathematical formula may be patent
eligible). Perhaps most notably, the district court opinion

187a
Appendix F
in this case never even mentions O’Reilly. Finally, if this
case presented such a straightforward application of the
longstanding “O’Reilly test,” why did the majority’s initial
opinion not even mention this test?
In his concurrence, Judge Dyk also suggests that
the “nothing more” test is not new because the same
“linguistic formulation” has been used by this court,
the district court, and by the parties. Dyk Concurring
Op. 8-10 & n.4-7. In doing so, the concurrence provides
nothing to further elucidate what the “nothing more”
test entails, and in my view, makes the test even more
confusing and uncertain. The fact that the phrase “nothing
more” has been employed a few times in our recent § 101
jurisprudence provides little insight into its scope and
application as a legal test. These scattered references,
furthermore, provide little assurance that any legal test
is being applied consistently and in accordance with the
principles set forth by the Supreme Court in cases like
O’Reilly. Indeed, the fact that “nothing more” has begun
to appear in our § 101 precedent only further confirms that
it would be prudent to review its application now. I am left
even more convinced that we should hear this case en banc.
The majority’s reasoning also introduces further
uncertainty by blurring the line between patent eligibility
and enablement. While the eligibility inquiry may take
into account whether a claim has “the specificity required
to transform a claim from one claiming only a result to
one claiming a way of achieving it,” SAP Am., Inc. v.
InvestPic, LLC, 898 F.3d 1161, 1167-68 (Fed. Cir. 2018)
(emphasis added) (collecting cases), the majority’s “how

188a
Appendix F
to” analysis seems to go further, potentially incorporating
a heightened enablement requirement into § 101. In
my view, a claim can be specific enough to be directed
to an application of a law of nature—which is patent
eligible—without reciting how to perform all the claim
steps. The majority’s conclusion that claim 22 is ineligible
demonstrates the flaws in its “how to” test. Even assuming
that claim 22 applies Hooke’s law (or any other unnamed
law of nature), the claim seems sufficiently specific to
qualify as an eligible application of that natural law. The
claim identifies specific variables to tune, including “a
mass and a stiffness of at least one liner.” U.S. Patent
No. 7,774,911 col. 11 l. 31. It requires that the tuned liner
attenuate specific types of vibration, including “shell mode
vibrations” and “bending mode vibrations,” and further
requires that the tuned liner is inserted in a “hollow
shaft member.” Id. at col. 11 ll. 30-36. With this level of
specificity, claim 22 appears to be properly directed to
“the application of the law of nature to a new and useful
end,” not to the law of nature itself. Funk Bros. Seed
Co. v. Kalo Inoculant Co., 333 U.S. 127, 130, 68 S. Ct.
440, 92 L. Ed. 588, 1948 Dec. Comm’r Pat. 671 (1948)
(collecting cases). Yet this level of detail is insufficient
in the majority’s view, and it remains unclear how much
more “how to” would have been sufficient to render the
claim eligible under the majority’s approach. Here too, en
banc review would provide an opportunity for the parties
and other stakeholders to address, and the full court to
consider, where eligibility analysis stops and enablement
analysis begins.
Beyond the uncertainty introduced by the majority’s
application of the “nothing more” and “how to” tests, the

189a
Appendix F
result reached by the majority should also give us pause.
The majority invokes § 101 to hold ineligible a method for
manufacturing a drive shaft assembly for a car—a class
of invention that has historically been patent eligible. See,
e.g., Diehr, 450 U.S. at 184 (“Industrial processes . . . have
historically been eligible to receive the protection of our
patent laws.”). In my view, the result in this case suggests
that this court has strayed too far from the preemption
concerns that motivate the judicial exception to patent
eligibility. The claims at issue here are far removed from
the canonical ineligible claim that “simply state[s] the
law of nature while adding the words ‘apply it.’” Mayo,
566 U.S. at 72 (citing Gottschalk v. Benson, 409 U.S. 63,
71-72, 93 S. Ct. 253, 34 L. Ed. 2d 273 (1972)). Indeed, the
claims at issue do not recite any particular law of nature,
much less preempt the use of Hooke’s law in any particular
context. Instead, they are directed to a specific “method
for manufacturing a shaft assembly” with a liner that
attenuates certain types of vibrations. ’911 patent col. 11 ll.
24-36. Even assuming that Hooke’s law is required to tune
the claimed liner (despite not being mentioned anywhere
in the specification or claims), so are innumerable other
laws of nature. And there remain innumerable ways
to apply Hooke’s law to achieve the goal of mitigating
problematic vibrations in a shaft assembly—perhaps, for
instance, by using something other than a liner tuned to
attenuate at least two different kinds of vibrations.
I also believe that it is inappropriate for us to announce
this new “nothing more” test, and then resolve it on our
own when the resolution is subject to factual disputes. This
is particularly so here, on review of the district court’s

190a
Appendix F
summary judgment of ineligibility. As Judge Moore’s
dissent points out, significant evidence, including expert
testimony, contradicts the notion that the two types of
vibrations identified in the claims can be reduced by
Hooke’s law and “nothing more.” In my view, whether
the claimed process involves application of Hooke’s law,
and whether it involves “nothing more” than Hooke’s law,
are both questions of fact. Whether the claims in this
case invoke Hooke’s law is not purely a question of claim
construction involving intrinsic evidence because nothing
in the intrinsic evidence even refers to Hooke’s law. As the
Supreme Court has explained, we can evaluate certain
evidence de novo (the intrinsic record, composed largely
of legal documents), but we must evaluate other evidence
with deference due to fact findings (everything extrinsic to
the record, including expert testimony). See Teva Pharms.
USA, Inc. v. Sandoz, Inc., 574 U.S. 318, 324-28, 135 S.
Ct. 831, 190 L. Ed. 2d 719 (2015). The scientific question
of whether Hooke’s law and “nothing more” reduces the
two types of vibration identified in the claims presents a
question analogous to the conventionality of a particular
technology in eligibility analysis, inherency or anticipation
in prior art analysis, or the second (comparing) step in an
infringement analysis—all of which are factual inquiries.
See, e.g., Berkheimer v. HP Inc., 881 F.3d 1360, 1368
(Fed. Cir. 2018) (the conventionality of a claim element is
a question of fact); Monsanto Tech. LLC v. E.I. DuPont
de Nemours & Co., 878 F.3d 1336, 1342 (Fed. Cir. 2018)
(anticipation and inherent disclosure are questions of fact);
Ecolab, Inc. v. Envirochem, Inc., 264 F.3d 1358, 1369 (Fed.
Cir. 2001) (the comparing step of infringement analysis is
a question of fact). If the “nothing more” test were treated

191a
Appendix F
as involving questions of fact, as it should be, there would
be no question that this case would have to be vacated
and remanded for fact development at the district court.
Finally, I remain concerned about the practical effect
of the majority’s decision, notwithstanding its newly
introduced warning that its “holding should not be read
as an invitation to raise a validity challenge against any
patent claim that requires the application of an unstated
natural law.” Maj. 26. In one colorful example, amici
suggest that the majority’s original approach would have
placed the combustion engine at risk of ineligibility—a
proposition that would have seemed absurd just a few
years ago, but now seems eerily plausible. Law Prof. Br. 9.
Although the majority has dialed back its original decision
to some degree on panel rehearing, one can still reasonably
ponder whether foundational inventions like the telegraph,
telephone, light bulb, and airplane—all of which employ
laws of nature—would have been ineligible for patenting
under the majority’s revised approach. See, e.g., id. at
5-9; IPO Ass’n Br. 9. Despite the majority’s cautionary
language, the uncertainty introduced by its analysis will
likely invite eligibility challenges to many other patents
directed to mechanical inventions or otherwise. See Michel
Br. 7 (“[I]f ‘industrial-process,’ physically-based patents
like these are ineligible under Mayo/Alice, then seemingly
every patent is in ineligibility jeopardy.”). Without clear
direction from this court, the Patent Office and district
courts will likely reach inconsistent results when assessing
the patent eligibility of mechanical inventions. Inventors,
the patent system, and our innovation-focused economy
will bear the cost of the resulting unpredictability. See
BIO Br. 7-9; USIJ Br. 8-11.

192a
Appendix F
En banc review would provide this court with
an opportunity to hear from the parties and various
stakeholders, including the Patent Office, which deals
with § 101 issues on a daily basis, about how the judicial
exception to patent eligibility should apply in the context
of mechanical and other inventions that employ unnamed
laws of nature. By declining to rehear this case en banc,
we have abdicated our responsibility to address patent
eligibility head on. In the face of our unwillingness to
consider patent eligibility as a full court, I grow more
concerned with each passing decision that we are, piece by
piece, allowing the judicial exception to patent eligibility
to “swallow all of patent law.” Alice, 573 U.S. at 217 (citing
Mayo, 566 U.S. at 70-73). I respectfully dissent.

193a
Appendix F
O’malley, Circuit Judge, with whom Newman, Moore,
and Stoll, Circuit Judges, join, dissenting from the denial
of the petition for rehearing en banc.
The revised majority opinion issued today attempts
to address the many concerns raised by American Axle
& Manufacturing, Inc. (“American Axle”) and the halfdozen amici curiae who objected to the substance of the
majority’s original opinion. It does this, however, with
little concern for proper process—instead achieving
its chosen result by whatever means it could conjure.
The Advisory Committee on Appellate Rules recently
for warded to all Courts of Appeals a letter from
the American Academy of Appellate Lawyers (“the
Academy”). The Academy’s letter proposed a rule that
would require us, as an appellate court, to “give notice
[when] considering a previously unaddressed ground and
provide [the parties] an opportunity to brief it.” Letter
from the Academy to Hon. Michael Chagares, Chair
Federal Advisory Committee on Appellate Rules (April
26, 2019), available at https://www.appellateacademy.
org/pub-lications/Chagares_proposal.pdf. The Advisory
Committee’s cover letter noted a growing belief among
appellate lawyers that Courts of Appeals have shown an
increasing tendency to decide questions on grounds that
were neither argued before the district court nor briefed
on appeal. The Advisory Committee explained that it felt
the Academy’s concerns were legitimate, but decided that,
rather than implement a mandate, it would ask Courts of
Appeals, including this one, to voluntarily correct course.
It is my hope that we, as an institution, will rise to the

194a
Appendix F
Advisory Committee’s challenge.1 Thus, while I share
all the substantive and policy concerns raised by Judge
Newman, Judge Moore and Judge Stoll in their dissents, I
write separately to emphasize the procedural norms that
the majority ignores.
The problems I perceive with the majority opinion
are threefold: (1) it announces a new test for patentable
subject matter at the eleventh hour and without adequate
briefing; (2) rather than remand to the district court to
decide the issue in the first instance, it applies the new
test itself; and (3) it sua sponte construes previously
undisputed terms in a goal-oriented effort to distinguish
claims and render them patent ineligible, or effectively
so. These obstacle-avoiding maneuvers fly in the face of
our role as an appel late court.
First, the majority announces that a claim is patent
ineligible if it “clearly invokes a natural law, and nothing
more, to accomplish a desired result.” Maj. 19. The majority
contends that this statement of law stems directly from a
19th century Supreme Court case, O’Reilly v. Morse, 56
U.S. 62, 14 L. Ed. 601 (1853). As Judge Stoll explains in
her dissent, however, this case does not present a clear-cut
application of O’Reilly. It is, instead, an expansion that
would likely render ineligible claims found patent eligible
1. I confess that I have not always stayed on the correct side
of the line the Academy would have us draw. That does not free me
from the obligation to work harder in the future to avoid deciding
cases on unbriefed grounds. And it should not free us as an institution
from attempting to rein in egregious instances where our colleagues
cross that line.

195a
Appendix F
by the O’Reilly court itself. Despite this, the majority
forges on, adopting a test that was proposed by no one. One
might ask why, if appellate judges will reach their desired
result regardless of outside input and untethered from the
arguments of others, we should bother with the dog and
pony show of the full development of a trial record or our
admonition to raise all issues in one’s appellate briefs or
suffer waiver? Just as the majority was persuaded by the
outcry of the public in response to the original opinion, it
may have benefited from, or even changed course in view
of, comments on this new test. The parties and the public
should have been given a chance to weigh in.
Second, the majority’s choice to apply its new test to
this case, again without briefing, is troubling. As Judge
Moore and Judge Stoll each explain, the “nothing more”
test presents factual questions. Does the claim clearly
invoke a natural law? Which one? How do we know there
is nothing more? Where, as here, the claims say nothing
about any natural law, these are scientific questions that
must be answered by reference to expert testimony—
testimony which, as developed to date in this case, does not
answer these questions as the majority now does. While
the district court made some general statements about
Hooke’s Law and friction damping, it was not applying
the test articulated by the majority today. The district
court opinion makes no mention of O’Reilly and certainly
did not find “nothing more.” See Am. Axle & Mfg., Inc.
v. Neapco Holdings LLC, 309 F. Supp. 3d 218, 225 (D.
Del. 2018). Given this, at minimum the majority should
have remanded with an instruction for the district court
to consider the factual record and decide the issue in the

196a
Appendix F
first instance. Or, assuming arguendo that the majority
is correct to treat this as question of law, it should have
remanded for the district court to consider the issue afresh
using that lens. It seems that the majority was just too
deep in the § 101 hole it originally dug to give up control.
Thus, rather than follow the prudent path, the majority
took it upon itself to invalidate these claims today. The
decision ignores that we are a court of review and steps
far outside the bounds of our role as appellate judges.
Finally, the majority’s treatment of claim 1 is perhaps
most emblematic of the concerns raised by the Academy.
Sua sponte, and without the aid of supplemental briefing,
the majority construes claims 1 and 22 to have a patentably
distinct difference—”inserting” versus “positioning” of
the claimed liner. Maj. 25 n.13. No one argued that these
terms are meaningfully, much less patentably, different
and no one asked the trial court to compare or assess
them. While the majority points out that no one argued
the terms share the same meaning, that is irrelevant
and unsurprising. That the parties failed to raise this
argument only underlies that this was not an important
issue, either before the district court or on appeal. The
majority uses the minor wording difference as a hook and
notes that claim 1 is “more general” than claim 22, so that
it can set up the framework for an abstract idea-based
§ 101 decision. It then remands to the district court to
effectuate that goal, even though this issue was not argued
to the district court in the first instance. Maj. 24-26. This
unrequested second chance for Neapco Holdings LLC is
unwarranted and leaves American Axle trapped in § 101
purgatory. It is not our role as an appellate court to direct

197a
Appendix F
the litigation strategy of the parties or to pressure the
district court into invaliding claims on grounds never
argued to it before.
The active judges of this Court were evenly divided,
6-6, in our vote on whether to take this case en banc
based on the serious substantive concerns the new
majority opinion raises. In such circumstances, important
institutional concerns such as the ones discussed above
should push the vote over the line. I respectfully dissent
from the full Court’s unwillingness to put us back on
course and force adherence to the limitations imposed on
us as a court of review.

198a
Appendix
G
APPENDIX
G — RELEVANT
STATUTORY PROVISIONS
35 U.S.C.A. § 101
§ 101. Inventions patentable
Whoever invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any
new and useful improvement thereof, may obtain a patent
therefor, subject to the conditions and requirements of
this title [35 U.S.C.A. §§ 1 et seq.].

199a
Appendix G
35 U.S.C.A. § 112
§ 112. Specification
(a) In General.--The specification shall contain a written
description of the invention, and of the manner and process
of making and using it, in such full, clear, concise, and exact
terms as to enable any person skilled in the art to which
it pertains, or with which it is most nearly connected, to
make and use the same, and shall set forth the best mode
contemplated by the inventor or joint inventor of carrying
out the invention.
(b) Conclusion.--The specification shall conclude with one
or more claims particularly pointing out and distinctly
claiming the subject matter which the inventor or a joint
inventor regards as the invention.
(c) Form.--A claim may be written in independent or, if
the nature of the case admits, in dependent or multiple
dependent form.
(d) Reference in Dependent Forms.- - Subject to
subsection (e), a claim in dependent form shall contain a
reference to a claim previously set forth and then specify
a further limitation of the subject matter claimed. A claim
in dependent form shall be construed to incorporate by
reference all the limitations of the claim to which it refers.
(e) Reference in Multiple Dependent Forms.--A claim
in multiple dependent form shall contain a reference, in
the alternative only, to more than one claim previously set

200a
Appendix G
forth and then specify a further limitation of the subject
matter claimed. A multiple dependent claim shall not
serve as a basis for any other multiple dependent claim. A
multiple dependent claim shall be construed to incorporate
by reference all the limitations of the particular claim in
relation to which it is being considered.
(f) Element in Claim for a Combination.--An element in
a claim for a combination may be expressed as a means or
step for performing a specified function without the recital
of structure, material, or acts in support thereof, and
such claim shall be construed to cover the corresponding
structure, material, or acts described in the specification
and equivalents thereof.

201a
Appendix H PETITION FOR
Appendix H — COMBINED
PANEL REHEARING AND REHEARING EN
BANC OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
DATED NOVEMBER 18, 2019
United States Court of Appeals
for the Federal Circuit
No. 18-1763
AMERICAN AXLE & MANUFACTURING, INC.,
Plaintiff-Appellant,
v.
NEAPCO HOLDINGS LLC
AND NEAPCO DRIVELINES LLC,
Defendants-Appellees.
Appeal from the United States District Court for the
District of Delaware in C.A. No. 15-cv-1168, United
States District Court Judge Leonard P. Stark

202a
Appendix H
COMBINED PETITION FOR
PANEL REHEARING AND REHEARING
EN BANC OF PLAINTIFF-APPELLANT
James R. Nuttall
(Lead Counsel)
jnuttall@steptoe.com
John L. Abramic
Katherine H. Johnson
Robert F. Kappers
STEPTOE & JOHNSON LLP
227 West Monroe Street, Suite 4700
Chicago, IL 60606
Telephone: (312) 577-1300
Facsimile: (312) 577-1370
Christopher A. Suarez
STEPTOE & JOHNSON LLP
1330 Connecticut Ave., NW
Washington, DC 20036
Telephone: (202) 429-8131
Facsimile: (202) 429-3902
Counsel for Plaintiff-Appellant,
American Axle & Manufacturing, Inc.
November 18, 2019

203a
Appendix H
[TABLES INTENTIONALLY OMITTED]

204a
Appendix H
STATEMENT OF COUNSEL
Based on my professional judgment, I believe this
appeal requires an answer to one or more precedentsetting questions of exceptional importance:
1) Whether courts can find patent claims
ineligible without identifying any precise
ineligible concept the claims are allegedly
directed to.
2) Whether, on summary judgment, the Federal
Circuit can disregard facts establishing
several inventive concepts, and find, for
the first time on appeal and based on prior
art and arguments never raised, that the
inventive concepts taught by the patent
were instead well understood, routine, and
conventional.
3) Whether Section 101 can be interpreted
to swallow the enablement requirement of
Section 112, and whether it is appropriate
to require the claims of a patent to meet
enablement requirements under Section
101.
Based on my professional judgment, I believe the
panel decision is contrary to at least the following decisions
of the Supreme Court of the United States and precedents
of this Court: Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573
U.S. 208 (2014); Mayo Collaborative Servs. v. Prometheus

205a
Appendix H
Labs., 566 U.S. 66 (2012); Diamond v. Diehr, 450 U.S. 175
(1981); Berkheimer v. HP Inc., 881 F.3d 1369 (Fed. Cir.
2018); Berkheimer v. HP Inc., 890 F.3d 1369 (Fed. Cir.
2018); Vanda Pharm. Inc. v. West-Ward Pharm. Int’l Ltd.,
887 F.3d 1117 (Fed. Cir. 2018); Rapid Litig. Mgmt. Ltd. v.
CellzDirect, Inc., 827 F.3d 1042 (Fed. Cir. 2016).
		

/s/ James R. Nuttall

		
		

Counsel for Plaintiff-Appellant,
American Axle & Manufacturing, Inc.

206a
Appendix H
PRELIMINARY STATEMENT
There is much debate about the bounds of patenteligible subject matter under 35 U.S.C. § 101. But there
should be no debate here. The majority’s opinion would
vastly expand the test for ineligibility and push the law
past its already fragile position. U.S. Patent No. 7,774,911
(“’911 patent”) relates to automotive driveshafts used in
pickup trucks. Appx2021, Appx2375; Appx59-60. With
the ’911 patent, AAM invented novel and unconventional
methods of manufacturing improved driveshafts that
include “liners”—low cost, hollow tubes made of a fibrous
material (such as cardboard).

Appx2021; Appx26.
Before the ’911 patent, it had only been well understood
to use liners in driveshafts to attenuate a single type of
vibration called “shell mode” vibration. Appx30; Appx1911.
Neapco admitted that prior art liners had only attenuated

207a
Appendix H
shell mode vibration, and “presented no argument or
evidence to contradict that” fact on appeal. Dissent at
8; Appx1327; Appx1309; Appx23; Appx3281; Appx828.
As explained in the ’911 patent, prior art liners were not
suitable (let alone well understood) to attenuate another
type of vibration called “bending mode” vibration. Appx30
(2:36-38). And liners certainly were not well understood
to attenuate both bending and shell mode vibration.
AAM solved these problems. It was the first to
discover that liners could be “tuned” to attenuate bending
mode vibration, or the combination of both bending and
shell mode vibration. Majority at 3; Appx30. The claims of
the ’911 patent recite these solutions. Independent claim
1 of the ’911 patent recites the following:
1. A method for manufacturing a shaft assembly
of a driveline system, the driveline system
further including a first driveline component
and a second driveline component, the shaft
assembly being adapted to transmit torque
between the first driveline component and
the second driveline component, the method
comprising:
providing a hollow shaft member;
tuning at least one liner to attenuate
at least t wo ty pes of v ibrat ion
t r a n sm it t ed t h rough t he sha f t
member; and

208a
Appendix H
positioning the at least one liner within
the shaft member such that the at least
one liner is configured to damp shell
mode vibrations in the shaft member
by an amount that is greater than or
equal to about 2%, and the at least one
liner is also configured to damp bending
mode vibrations in the shaft member,
the at least one liner being tuned to
within about ±20% of a bending mode
natural frequency of the shaft assembly
as installed in the driveline system.
Appx34 (emphases added).1 “Tuning at least one liner,”
as construed by the District Court, requires “controlling
characteristics of at least one liner to configure the liner
to match a relevant frequency or frequencies.” Appx1046.
Numerous characteristics that must be controlled to
properly tune a liner are disclosed in the ’911 patent,
including the mass, length, thickness, material, the
quantity and configuration of external members attached
to the liner, and the positioning of the liner in the
driveshaft. Appx33 (7:56-8:2). Other examples disclosed
in the patent (e.g., Figs. 10-14) illustrate how tuned liners
may be structured in several distinct ways. Appx2829. Dependent claims 12, 13, and 19-21 recite further
requirements for properly “tuning” and “positioning”
liners, including requirements about how (and where)
the tuned liners can be inserted (claims 12, 20, and 21) or
configured structurally (claims 12, 13, and 19). Appx34-35.
1. Claims 1-6, 12, 13, 19-24, 26, 27, 31, and 34-36 are at issue
on this appeal.

209a
Appendix H
Thus, far from simply reciting a natural law and
simply telling practitioners to “apply it,” the ’911 patent
instructs persons of ordinary skill how to tune and position
a liner to attenuate both bending and shell modes. These
teachings fulfilled a long-felt need in the driveshaft
industry. Just ask Defendant Neapco, which itself had an
“issue” with damping both types of vibration—until, of
course, it discovered the ’911 patent. On March 24, 2014,
Neapco explained:
Current focus [s]hould be understanding AAM
v. NDL. Obviously, knowingly or unknowingly,
they have solved the issue with an extremely
low cost solution [of reducing bending and shell
mode vibrations]. I want to know the mechanics.
Appx3513. Neapco admitted that it had “more homework
to do to really understand how to tune a liner.” Appx19151916. Thus, in order to “catch up” with AAM, Neapco
circulated AAM’s ’911 patent on March 25, 2014, among
its engineers with the instruction that it taught “what
[Neapco was] trying to achieve” for its liner products.
Appx828; Appx3510; AAM Opening, Statement of Facts
IV.B. Soon after, Neapco began manufacturing the
liners accused of infringement in this case. Appx3531;
Appx3538-3539; Appx6013-6018. And as a result of the
’911 patent, both AAM and Neapco now use “tuned” liners.
Appx4232; Appx4234-4243; Appx3459-3462.
The majority’s decision (at summary judgment no
less) forecloses AAM’s patent infringement action at the
eligibility gate based on a faulty premise that the claims at

210a
Appendix H
issue recite laws of nature, not methods of manufacturing.
The majority, however, could not articulate a concrete law
of nature (or even combination of laws), that applies under
step one of the Alice test.
The majority also erred in applying the second,
“inventive concept” step of the Alice framework, which
renders patents eligible when a claim involves more
than the performance of “well-understood, routine, [and]
conventional activities previously known to the industry.”
Alice, 573 U.S. at 225. At a minimum, it was not well
understood, routine, and conventional to use a properly
tuned and positioned liner to attenuate bending mode
vibrations of driveshafts (much less both shell and bending
mode vibrations) in 2006 when the ’911 patent application
was filed. This is why Neapco needed the disclosures of
the ’911 patent to manufacture liners that attenuated both
shell and bending mode vibration. It is also why Neapco
was forced to admit that AAM was the first to tune liners
to attenuate bending mode vibrations:
Q: [Y]ou’re not aware of any liners being tuned
to a bending mode frequency prior to 2006?
A: Correct.
Appx1327. The majority ignored these facts. “[S]ummary
judgment is inappropriate” when there is “a genuine issue
of material fact” as to whether the claims are directed
toward “well-understood, routine, and conventional
activities.” Berkheimer, 890 F.3d at 1370.

211a
Appendix H
The majority also applied a new and erroneous Section
101 standard that subsumes the enablement requirement
of Section 112. Enablement was not raised on appeal by
Neapco, involves underlying questions of fact, and requires
an assessment of whether the specification’s teachings
allow a person of ordinary skill to make and use a claimed
invention without “undue experimentation.” Transocean
Offshore Deepwater Drilling, Inc. v. Maersk Drilling
USA, Inc., 699 F.3d 1340, 1355 (Fed. Cir. 2012). These
fact issues, even if raised here, are themselves not ripe
for summary judgment. The majority nonetheless made
an end-run around these requirements, holding that the
claims are ineligible under Section 101 because, in its view,
the asserted claims of the ’911 patent do not sufficiently
inform judges how to make and use the invention.
The Court should review and vacate the majority
decision, correct the error as to the ’911 patent, and
restore the Court’s precedent to avoid significant and
improper expansion of the law on patent eligibility.
ARGUMENT
Congress defines patent-eligible subject matter
broadly. The law-of-nature exception is purely judicial,
and, given the breadth of Section 101, the Supreme Court
has repeatedly cautioned against its expansive use:
“[T]oo broad an interpretation of this exclusionary
principle could eviscerate patent law.” Mayo, 566 U.S.
at 71. That is why this Court must “tread carefully in
construing this exclusionary principle.” Alice, 573 U.S.
at 217. Methods applying natural laws have always been

212a
Appendix H
eligible. Diehr, 450 U.S. at 187. “Industrial processes,”
more specifically, “have historically been eligible to receive
patent-law protection.” Id. at 175. Here, the majority
expands Section 101 precedent past the Rubicon, holding
that virtually any method of manufacturing or industrial
process can be declared ineligible at summary judgment,
so long as the method of manufacturing, no matter how
detailed, can be associated with some undefined natural
law.
I.

The Majority Could Not Articulate What Natural
Law(s) or Abstract Idea The Claims Are Allegedly
Directed To

This case has been percolating through the courts
for four years. During that time, not one of Neapco, the
District Court, or the majority has been able to articulate
a precise natural law or abstract idea to which the claims
are directed at step one of the Alice framework. Neapco
first argued that the claims were directed to two different
laws of nature—(1) Hooke’s law for bending modes and
(2) friction damping for shell modes. Appx1248-1251;
Appx1604-1605. Then, the District Court found the claims
directed to something different, “applications of Hooke’s
law with the result of friction damping.” Appx11. Neapco
changed course on appeal and argued the claims were
directed to an abstract idea instead of natural laws,
and the majority held that the claims were directed to
“Hooke’s law, and possibly other natural laws.” Majority
at 15. This articulation of the natural law or abstract idea
that allegedly applies here is, ironically, itself abstract.
And the inability of anyone to clearly and consistently

213a
Appendix H
articulate the “natural law” to which the claims are
directed underscores that these claims, despite the
majority’s best efforts, are neither abstract nor directed
to a law of nature.
This Court has made plain that it “must be careful
to avoid oversimplifying the claims because ‘[a]t some
level, ‘all inventions…embody, use, reflect, rest upon, or
apply laws of nature, natural phenomena, or abstract
ideas.’” In re TLI Comm’cns LLC Patent Litigation, 823
F.3d 607, 611 (Fed. Cir. 2016). Indeed, overgeneralizing
claims, “if carried to its extreme, make[s] all inventions
un-patentable.” Diehr, 450 U.S. at 189 n.12. These
admonitions exist to prevent judges from invalidating
patents by simply alleging that some ineligible concept
applies, however undefined. The majority’s resultsoriented judicial decision did precisely that.
The majority’s failure to articulate a concrete abstract
idea or natural law underscores its legal error. The
majority, for example, relies heavily on Mayo, but that
analogy is inapt. In Mayo, the Supreme Court explained
that one could not patent a law of nature, such as E=mc2,
by simply telling “linear accelerator operators” to “apply
the law” in determining “how much energy an amount of
mass has produced.” 566 U.S. at 77-78. The majority begs
the question—what natural law or laws do the claims at
issue allegedly instruct engineers to apply? If driveshaft
manufacturers were simply told to apply vague notions
of “Hooke’s law and possibly other natural laws” as
articulated by the majority, they would at most determine
the frequency of a mass-spring system and would not

214a
Appendix H
obtain the claimed inventions of the ’911 patent. That is
confirmed by the failure of many companies, including
Neapco, to successfully tune liners to damp both bending
and shell mode vibrations in driveshafts before the ’911
patent. Appx3513; Appx3531; Appx1915-1916; Appx828;
Appx3510; Appx3538 -3539; Appx6013- 6018; AA M
Opening, Statement of Facts IV.B.
Without a requirement of precision at step one, judges
have free rein to invalidate claims based on a feeling that
some undefined natural law or abstract idea may apply.
But as Mayo makes clear, that may always be the case
on some level, and the majority’s opinion runs counter to
the Supreme Court’s admonition in Diehr against taking
Section 101 “to its extreme.”
II. The Majority Disregarded Berkheimer and the
Summary Judgment Standard When It Overlooked
Undisputed Facts And Engaged In Its Own Fact
Findings
At step two, courts consider whether a claim merely
recites concepts that are “well-understood, routine, and
conventional.” Mayo, 566 U.S. at 73. “[W]hether a claim
element or combination of elements would have been wellunderstood, routine, and conventional to a skilled artisan in
the relevant field at a particular point in time is a question of
fact.” Berkheimer at 1370 (emphasis added). On appeal from
summary judgment, as here, the Court must review the
factual record “in the light most favorable to” and draw “all
reasonable inferences … in favor of” AAM. Nicini v. Morra,
212 F.3d 798, 805 (3d Cir. 2000). The majority overlooked

215a
Appendix H
several facts that favored AAM and were at the very least
“hotly” disputed—if not undisputed. Neapco Opposition
at 57-59. The majority also made several of its own fact
determinations, contrary to the record and certainly not
in the light most favorable to AAM.
To start, the majority found that “it makes no
difference to the section 101 analysis whether the use of
liners to attenuate bending mode vibrations was known
in the prior art.” Majority at 12 n.3. This fact, which
AAM affirmatively established and Neapco admitted, is
absolutely relevant. 2 AAM’s use of tuned liners, its use of
tuned liners to attenuate bending modes, and its use of
tuned liners to attenuate both shell and bending modes,
were each “inventive concepts” “sufficient to ensure that
the patent in practice amounts to significantly more than
a patent upon the natural law itself.” Mayo, 566 U.S. at
72-73; see also AAM Opening at 57-58; Dissent at 9-10.
In its effort to refute these inventive concepts,
the majority raised new evidence and made new fact
findings for the first time on appeal. The majority found
that the damper of U.S. Patent No. 3,075,406 (“’406
2. The majority stated that AAM did not “argue that liners
had not previously been used to damp bending mode—as opposed
to shell mode—vibrations” before the district court in its summary
judgment papers. Majority at 12 n.3. This is incorrect. AAM v.
Neapco, 1:15-cv-01168-LPS, Dkt. 161 at 5 (“Prior to AAM’s novel
discovery, liners were used to provide general broadband damping
of shell mode vibrations. Other dampers like slip yoke dampers,
internal tuned dampers, and plugs were used to damp bending or
torsion mode vibrations.”); Id., Dkt. 160 at 3; Dissent at 7 n.2.

216a
Appendix H
patent”)—a patent that was never introduced or cited by
the parties—is a prior art “liner” used to damp bending
modes. Majority at 12 n.3. to be clear, the ’406 patent is not
relevant to whether the ’911 patent discloses an inventive
concept. the word “liner” appears nowhere in the patent,
and neither aaM nor neapco ever introduced or cited
the ’406 patent, let alone argued that the damper of the
’406 patent is a “liner.” dissent at 8. the ’406 patent does
nothing to show that it was well understood, routine, or
conventional to attenuate bending mode vibration with
liners, let alone whether it was well understood, routine,
and conventional to attenuate both bending and shell mode
vibration with liners.
the majority’s fact finding is also incorrect and
inconsistent with its other findings. as the majority
stated, “[l]iners are hollow tubes made of fibrous material
(like cardboard).” Majority at 3. an example of a liner is
depicted in figure 8 of the ’911 patent.

217a
Appendix H
The dampers of the ’406 patent are not “liners.” They
are dumbbell-shaped dampers as depicted below.

’406 patent at 2:5-18, Fig. 4. Neapco agrees—it argued to
the district court that “liners” are hollow “tube[s],” not
dumbbell-shaped dampers. Appx7198. Neapco’s expert
admitted that dampers are not covered by the Asserted
Claims. Appx4333. 3
Even assuming that the ’406 patent discloses a liner,
the majority erred by holding that the citation of the prior
art ’406 patent somehow proves that the use of purported
liners to damp bending modes was “well-understood,
3. Several dependent claims referenced above recite particular
liner materials and structures that are not cylindrical metal
dumbbells. Appx34-35 (claims 12, 13, 19, 26, 27, 31). AAM did not
waive any argument about these claims. Dissent at 4 n.1; see also
Appx4331; Appx6194; Appx1252-1253; AAM v. Neapco, 1:15-cv01168-LPS, Dkt. 217 at 59:7-8; AAM Opening at 13-14, 36, 57-59,
64-65; AAM Reply at 1, 16, 27.

218a
Appendix H
routine, and conventional activity.” Mayo, 566 U.S. at 73.
This conclusion is contrary to the Court’s precedent:
Whether a particular technology is wellunderstood, routine, and conventional goes
beyond what was simply known in the prior art.
The mere fact that something is disclosed in a
piece of prior art, for example, does not mean it
was well-understood, routine, and conventional.
Berkheimer, 881 F.3d at 1369. Whether such use was
well understood, routine, and conventional is also a
quintessential fact issue, inappropriate for the majority
to raise and decide sua sponte on an appeal of summary
judgment. Id. at 1370. This is particularly true given
Neapco admitted the use of liners to damp bending modes
was unknown—the exact opposite of “well-understood,
routine and conventional.” Appx1327; Appx1309; Appx23.4
Whatever lack of clarity in patent eligibility persists,
the law of this Court could not be clearer as to fact
issues: Section 101 raises questions of fact, including
“weighing evidence, making credibility judgments, and
4. To the extent the majority construed the claim term “liner”
to include dampers sua sponte, doing so was also a mistake. This
Court is “generally hesitant to construe patent claims in the first
instance on appeal” “to avoid conflating de novo review with an
independent analysis.” MyMail, Ltd. v. ooVoo, LLC, 934 F.3d 1373,
1380 (Fed. Cir. 2019). This is a factual matter not appropriate for
resolution by the majority for the first time on appeal. See Teva
Pharm. USA, Inc. v. Sandoz, Inc., 574 U.S. 318, 135 S. Ct. 831, 835
(2015).

219a
Appendix H
addressing narrow facts that utterly resist generalization.”
Berkheimer, 890 F.3d at 1370. The majority raises and
answers these questions of fact for the first time on appeal,
all while shirking the summary judgment standard.
Vacatur is appropriate.
III. The Majority Supplants Section 101 With Section
112 And Required The Claims As A Matter of Law
To Recite How To Make And Use The Invention
The majority also applied a Section 101 standard
that subsumes the enablement requirement of Section
112. In doing so, the majority seems to have created a
requirement that, to survive Section 101, the claims as
written must recite precisely how to make and use a
particular invention. In other words, the claims must fulfill
an enablement requirement under the Section 101 inquiry,
notwithstanding the claim construction, teachings of the
specification, or the knowledge of the person of ordinary
skill. As the majority asserted:
• “[T]he patent claims do not describe a
specific method for applying Hooke’s law in
this context.” Majority at 11.
• “The claims here simply instruct the reader
to tune the liner…without the benefit of
instructions on how to do so.” Majority at
19–20.
• “Most significantly, the claims do not
instruct how the variables would need to be
changed to produce the multiple frequencies

220a
Appendix H
required to achieve a dual-damping result.”
Majority at 14–15.
See also Dissent at 10-14. The premise of these statements
is incorrect, as the claims themselves require “controlling
characteristics of at least one liner to configure the liner
to match a relevant frequency or frequencies,” along with
particular positioning steps that achieve the desired goal
of attenuating multiple vibration modes. Appx34-35. Those
characteristics are described in the specification, along
with several examples that illustrate a range of different
tuned liner configurations. Appx27-29, Appx33-34.
The majority, however, wanted something more and
improperly expanded the Section 101 inquiry to include
this new pseudo-enablement requirement. Thus, in the
words of the dissent, “the Hydra has grown another head.”
Dissent at 13. Requiring the claims as written to meet
some pseudo-enablement requirement under Section 101
is precisely the “eviscerat[ion]” of patent law the Supreme
Court has repeatedly cautioned against. Mayo, 566 U.S.
at 71; Alice, 573 U.S. at 217.
What the majority did here makes matters much
worse. The majority’s decision invites shifting patenteligibility inquiries to any section of the patent code
(including Section 112). Regardless of any factual disputes
that remain, courts will have unfettered authority to
declare patents ineligible under Section 101 based on
their sua sponte views of the enablement, novelty, or
obviousness of a claim, rendering future decisions and the
bases for those future decisions under Section 101 highly
uncertain. The “Hydra” will grow even more heads.

221a
Appendix H
Ultimately, even if enablement is relevant, whether
the patent would enable a skilled artisan to tune liners is
an issue of fact that the majority improperly decided for
the first time on an appeal. Transocean, 617 F.3d at 1305.
Indeed, the parties briefed at length whether fact issues
precluded summary judgment related to this very issue,
and the district court has not made any factual findings
on this question. AAM v. Neapco, 1:15-cv-01168-LPS, Dkt.
164 at 12-27; id., Dkt. 175 at 11-36; id., Dkt. 192 at 1-17; id.,
Dkt. 211 at 3-9; Appx7042-7049. Beyond the teachings of
the ’911 patent (which themselves raise questions of fact),
AAM presented substantial evidence of Neapco’s actual
making and using tuned liners within a few months after
learning of and studying the ’911 patent. Id.; see also
Appx3513; Appx828 (the ’911 patent was “what [Neapco
was] trying to achieve”); Appx3510; AAM Opening,
Statement of Facts IV.B. All of these are facts that are
highly probative of whether the patent provides sufficient
“instructions on how to [tune liners].” Majority at 19-20;
see, e.g., Intex Rec. Corp. v. Metalast, S.A., No. 01-1213,
2005 WL 1214600, *10 (D.D.C. May 20, 2005) (“The Court
finds no meaningful distinction between one skilled in the
art constructing the invention by ‘copying’ it, and ‘making
and using the full scope of the claimed invention.’”).
The majority improperly redefined the enablement
inquiry and entirely dismissed these facts. Majority at 7, 1415, 19-20; Dissent at 10-13. On AAM’s view of the facts, this
case provides a textbook example of how the patent system
should function. AAM received a patent, the invention was
disclosed to the public, and Neapco used the teachings of
that patent to manufacture tuned liners that attenuated both
shell and bending mode vibrations in driveshafts. The system

222a
Appendix H
worked. That is, until the majority intervened to proclaim
how they, as judges, do not know how to make and use tuned
liners. The Court should restore the Court’s appellate role,
reaffirm the patent system, and vacate the majority decision.
CONCLUSION
The Court should grant rehearing or rehearing en
banc, and rehear this appeal.
November 18, 2019
		

/s/ James R. Nuttall

		
James R. Nuttall
		
John L. Abramic
		
Katherine H. Johnson
		Robert F. Kappers
		
STEPTOE & JOHNSON LLP
		
227 West Monroe Street, Suite 4700
		
Chicago, IL 60606
		Telephone: (312) 577-1300
		Facsimile: (312) 577-1370
		
Christopher A. Suarez
		
STEPTOE & JOHNSON LLP
		
1330 Connecticut Ave., NW
		
Washington, DC 20036
		Telephone: (202) 429-8131
		
		

Counsel for Plaintiff-Appellant,
American Axle & Manufacturing, Inc.

